APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_________
Argued January 15, 2020
_________
Decided April 7, 2020
_________
No. 19-5322
_________
IN RE: FEDERAL BUREAU OF PRISONS’ EXECUTION
PROTOCOL CASES,
JAMES H. ROANE, JR., ET AL.,
Appellees,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Appellants.
_________
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-mc-00145)
_________
Melissa N. Patterson, Attorney, U.S. Department
of Justice, argued the cause for appellants. With her
on the briefs were Joseph H. Hunt, Assistant
Attorney General, Jessie K. Liu, U.S. Attorney,
Hashim M. Mooppan, Deputy Assistant Attorney
General, Paul R. Perkins, Special Counsel, and Mark

2a
B. Stern, Attorney.
Catherine E. Stetson argued the cause for
appellees. With her on the brief were Sundeep Iyer,
Pieter Van Tol, Joshua M. Koppel, Arin Smith, Jon
Jeffress, Alan E. Schoenfeld, Stephanie Simon, and
Shawn Nolan, Assistant Federal Public Defender.
Before: TATEL, KATSAS, and RAO, Circuit Judges.
Opinion for the Court filed PER CURIAM.
Concurring
KATSAS.

opinion

filed

by

Circuit

Judge

Concurring opinion filed by Circuit Judge RAO.
Dissenting opinion filed by Circuit Judge TATEL.
PER CURIAM: The Federal Death Penalty Act of
1994 (FDPA) requires federal executions to be
implemented “in the manner prescribed by the law of
the State in which the sentence is imposed.” 18
U.S.C. § 3596(a). It is common ground that this
provision requires the federal government to adhere
at least to a State’s choice among execution methods
such as hanging, electrocution, or lethal injection.
The district court held that the FDPA also requires
the federal government to follow all the subsidiary
details set forth in state execution protocols—such
as, in the case of lethal injection, the method of
inserting an intravenous catheter. On that basis, the
court preliminarily enjoined four federal executions.
Each member of the panel takes a different view
of what the FDPA requires. Because two of us believe
that the district court misconstrued the FDPA, we
vacate the preliminary injunction.

3a
I
A
On three different occasions, Congress has
addressed the “manner” of implementing the death
penalty for federal capital offenses. In the Crimes
Act of 1790, the First Congress specified that “the
manner of inflicting the punishment of death, shall
be by hanging the person convicted by the neck until
dead.” Crimes Act of 1790, ch. 9, § 33, 1 Stat. 112,
119. This provision governed federal executions for
over 140 years.
In 1937, Congress changed this rule to make the
“manner” of federal executions follow state law.
Specifically, Congress provided:
The manner of inflicting the punishment of
death shall be the manner prescribed by the
laws of the State within which the sentence is
imposed. The United States marshal charged
with the execution of the sentence may use
available State or local facilities and the
services of an appropriate State or local official
or employ some other person for such
purpose …. If the laws of the State within
which sentence is imposed make no provision
for the infliction of the penalty of death, then
the court shall designate some other State in
which such sentence shall be executed in the
manner prescribed by the laws thereof.
An Act To Provide for the Manner of Inflicting the
Punishment of Death, Pub. L. No. 75-156, 50 Stat.
304 (1937). Congress repealed this provision in 1984,

4a
see Sentencing Reform Act of 1984, Pub. L. No. 98473, § 212, 98 Stat. 1987, but left intact the
underlying capital offenses. Accordingly, federal law
still authorized the death penalty, but no federal
statute specified how it would be carried out.
To fill this gap, the Attorney General
promulgated
a
1993
regulation
titled
“Implementation of Death Sentences in Federal
Cases.” 58 Fed. Reg. 4898, 4901–02 (Jan. 19, 1993).
It provides that, unless a court orders otherwise, the
“method of execution” of a federal death sentence
shall be “[b]y intravenous injection of a lethal
substance or substances in a quantity sufficient to
cause death, such substance or substances to be
determined by the Director of the Federal Bureau of
Prisons.” 28 C.F.R. § 26.3(a)(4) (2019). The
regulation also addresses various other matters
including the time and place of execution, when the
prisoner must be notified of the execution, and who
may attend it. Id. §§ 26.3–26.5.
Congress enacted the FDPA in 1994. Under the
FDPA, as under the 1937 statute, the “manner” of
implementing federal death sentences turns on state
law. In pertinent part, the FDPA provides that a
United States marshal
shall supervise implementation of the
sentence in the manner prescribed by the law
of the State in which the sentence is imposed.
If the law of the State does not provide for
implementation of a sentence of death, the
court shall designate another State, the law of
which does provide for the implementation of a

5a
sentence of death, and the sentence shall be
implemented in the latter State in the manner
prescribed by such law.
18 U.S.C. § 3596(a). The FDPA also provides that a
marshal overseeing an execution “may use
appropriate State or local facilities” and “may use the
services of an appropriate State or local official.” Id.
§ 3597(a).
B
At various times since 2001, the Department of
Justice has developed protocols setting forth the
precise details for carrying out federal executions.
One such protocol was adopted in 2004 and updated
in 2019. As updated, the protocol “provides specific
time related checklists for pre-execution, execution,
and post execution procedures, as well as detailed
procedures related to the execution process,
command center operations, contingency planning,
news media procedures, and handling stays,
commutations and other delays.” App. 24. This 50page document addresses, among other things,
witnesses for the execution, the prisoner’s final meal
and final statement, strapping the prisoner to the
gurney, opening and closing the drapes to the
execution chamber, injecting the lethal substances,
and disposing of the prisoner’s body and property.
For the three federal executions conducted
between 2001 and 2003, the Bureau of Prisons used
a combination of three lethal substances—sodium
thiopental, a barbiturate that “induces a deep,
comalike unconsciousness when given in the
amounts used for lethal injection,” Baze v. Rees, 553

6a
U.S. 35, 44 (2008) (plurality opinion); pancuronium
bromide, which stops breathing; and potassium
chloride, which induces cardiac arrest. None of the
three prisoners challenged these procedures. In 2008,
the Bureau memorialized its use of the three
substances in an addendum to its 2004 execution
protocol, and the Supreme Court held that
Kentucky’s use of the same three substances for
executions did not violate the Eighth Amendment,
see id. at 44, 63; id. at 94 (Thomas, J., concurring in
judgment). But by 2011, a “practical obstacle” to
using sodium thiopental had emerged, “as anti-death
penalty
advocates
pressured
pharmaceutical
companies to refuse to supply the drug” for
executions. Glossip v. Gross, 135 S. Ct. 2726, 2733
(2015).
The Bureau then explored the possible use of
other lethal substances. Its personnel visited state
execution sites and evaluated their protocols. BOP
also consulted with medical experts, reviewed
assessments of difficult executions, and studied
relevant judicial decisions. It considered several
options, including three-drug protocols using other
barbiturates, three-drug protocols using weaker
sedatives, and one-drug protocols.
After extensive study, the Bureau recommended
use of a single barbiturate—pentobarbital—to carry
out federal executions. It noted that many recent
state executions had used pentobarbital without
difficulty and that courts repeatedly have upheld the
constitutionality of its use for executions. Further,
BOP had located a “viable source” for obtaining it.
App. 15, 19.

7a
For these reasons, the Bureau proposed a twopage addendum to its main execution protocol. The
United States Marshals Service concurred in the
proposal. On July 24, 2019, the Attorney General
approved the addendum and directed the Bureau to
adopt it. BOP did so the next day. This 2019
addendum makes pentobarbital the sole lethal
substance to be used in federal executions. The
addendum also specifies procedural details such as
dosage, identification of appropriate injection sites,
and the number of backup syringes.
C
This appeal arises from several consolidated cases
in which twelve death-row inmates challenge the
federal execution protocol. The first of these cases
was filed in 2005, by three inmates who are not
parties to this appeal. With the government’s
consent, the district court stayed their executions
pending the decision in Hill v. McDonough, 547 U.S.
573 (2006). The government subsequently requested
that the case be stayed pending the decision in Baze.
With no objection from the inmates, the district court
granted the request. In 2011, the government
announced that it lacked the substances necessary to
implement its execution protocol. From then through
2019, the consolidated cases were stayed, and the
government submitted status reports explaining that
its revision of the protocol was ongoing. During that
time, one of the plaintiffs involved in this appeal—
Alfred Bourgeois—filed a complaint challenging the
unrevised protocol. On the parties’ joint motion, that
lawsuit was stayed pending the revision.

8a
On July 25, 2019, the Department of Justice
informed the district court that it had adopted a
revised protocol providing for the use of
pentobarbital. That same day, DOJ set execution
dates for the four plaintiffs involved in this appeal:
Daniel Lee, Wesley Purkey, Dustin Honken, and
Bourgeois. Each of them moved for a preliminary
injunction. Collectively, they claimed that the 2019
protocol and addendum violate the FDPA, the
Administrative Procedure Act, the Federal Food,
Drug, and Cosmetic Act, the Controlled Substances
Act, and the First, Fifth, Sixth, and Eighth
Amendments to the Constitution.
On November 20, 2019, the district court issued a
preliminary injunction prohibiting the government
from executing any of the four plaintiffs. In re Fed.
Bureau of Prisons’ Execution Protocol Cases, No.
1:19-mc-145, 2019 WL 6691814 (D.D.C. Nov. 20,
2019). The court held that the plaintiffs were likely
to succeed on the merits of their claim “that the 2019
Protocol exceeds statutory authority.” Id. at *7. In
particular, the court concluded that “the FDPA gives
decision-making
authority
regarding
‘implementation’” of federal death sentences to
states. Id. at *4. Thus, “insofar as the 2019 Protocol
creates a single implementation procedure it is not
authorized by the FDPA.” Id. at *7. The court
reasoned that the requirement to conduct executions
“in the manner prescribed” by state law likely
applies both to the selection of an execution method,
such as lethal injection, and to “additional
procedural details” such as the precise procedures for
“how the intravenous catheter is to be inserted.” Id.

9a
at *4, *6. The court did not address whether the
plaintiffs were likely to succeed on their various
other claims. The court further held that the balance
of equities and the public interest favored a
preliminary injunction. Id. at *7.
The government filed an interlocutory appeal
under 28 U.S.C. § 1292(a)(1) and moved this Court
immediately to stay or vacate the injunction.
Without addressing the merits, we concluded that
the motion did not meet “the stringent requirements
for a stay pending appeal.” Order at 1, Roane v. Barr,
No. 19-5322 (D.C. Cir. Dec. 2, 2019).
The government applied to the Supreme Court for
an emergency stay or vacatur of the preliminary
injunction. The Court denied the application but
directed us to decide the government’s appeal “with
appropriate dispatch.” Barr v. Roane, 140 S. Ct. 353
(2019 mem.). Three justices explained their view that
the government was “very likely” to succeed on
appeal. Id. (statement of Alito, J.).
We then ordered expedited briefing and argument
on the government’s appeal.
II
A preliminary injunction is “an extraordinary
remedy that may only be awarded upon a clear
showing that the plaintiff is entitled to such relief.”
Winter v. NRDC, 555 U.S. 7, 22 (2008). A party
“seeking a preliminary injunction must establish
that he is likely to succeed on the merits, that he is
likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in

10a
his favor, and that an injunction is in the public
interest.” Id. at 20. On appeal, we review the district
court’s legal conclusions de novo and its weighing of
the four relevant factors for abuse of discretion.
Abdullah v. Obama, 753 F.3d 193, 197–98 (D.C. Cir.
2014).
In reviewing a district court’s conclusion as to
likelihood of success, “[t]here are occasions … when
it is appropriate to proceed further and address the
merits” directly. Munaf v. Geren, 553 U.S. 674, 689–
92 (2008); see also Wrenn v. District of Columbia, 864
F.3d 650, 667 (D.C. Cir. 2017). For several reasons,
we exercise our discretion to resolve the merits of
plaintiffs’ primary FDPA claim. This claim is a
purely legal one, which the parties have briefed
thoroughly. At oral argument, the parties agreed
that we should decide it now. Finally, assessing only
the likelihood of success would invite further
litigation and delays on remand, which would hardly
constitute appropriate dispatch.
The plaintiffs press two distinct claims under the
FDPA. The first, on which the district court found
they were likely to succeed, involves the requirement
to implement federal executions in the manner
provided by state law. As explained in separate
opinions that follow, Judge Katsas and Judge Rao
both reject that claim on the merits. Judge Katsas
concludes that the FDPA regulates only the top-line
choice among execution methods, such as the choice
to use lethal injection instead of hanging or
electrocution. Judge Rao concludes that the FDPA
also requires the federal government to follow
execution procedures set forth in state statutes and

11a
regulations, but not execution procedures set forth in
less formal state execution protocols. Judge Rao
further concludes that the federal protocol allows the
federal government to depart from its procedures as
necessary to conform to state statutes and
regulations. On either of their views, the plaintiffs’
primary FDPA claim is without merit. Accordingly,
the preliminary injunction must be vacated, and
judgment for the government must be entered on
this claim.
Alternatively, the plaintiffs contend that the
federal protocol and addendum reflect an unlawful
transfer of authority from the United States
Marshals Service to the Federal Bureau of Prisons.
The district court did not address this claim, but the
plaintiffs press it as an alternative basis for
affirmance, and both parties ask us to resolve it. A
court has discretion to consider alternative grounds
for affirmance resting on purely legal arguments.
See, e.g., United States v. Anthem, Inc., 855 F.3d 345,
349 (D.C. Cir. 2017). And as noted above, in
addressing likelihood of success on the merits, a
court has discretion to decide the claim. Two of us
address the alternative FDPA claim here. As
explained in their separate opinions, Judge Katsas
would reject the claim on the merits, and Judge Rao
would hold that it was forfeited.
The government also asks us to decide whether
its protocol and addendum violate the notice-andcomment requirement of the Administrative
Procedure Act. The district court did not reach that
issue, and the plaintiffs urge us not to reach it.
Judge Katsas and Judge Rao resolve the notice-and-

12a
comment claim because, on their view, it involves
purely legal questions intertwined with the merits of
the FDPA issues at the center of this appeal. On the
merits, Judge Katsas and Judge Rao conclude that
the 2019 protocol and addendum are rules of agency
organization, procedure, or practice exempt from the
APA’s
requirements
for
notice-and-comment
rulemaking. Judgment for the government must be
entered on this claim.
Finally, the government asks us to reject the
plaintiffs’ claims under the Food, Drug, and Cosmetic
Act and the Controlled Substances Act. We decline to
do so because those claims were neither addressed by
the district court nor fully briefed in this Court. We
do share the government’s concern about further
delay from multiple rounds of litigation. But the
government did not seek immediate resolution of all
the plaintiffs’ claims, including the constitutional
claims and the claim that the protocol and addendum
are arbitrary and capricious under the APA. Thus,
regardless of our disposition, several claims would
remain open on remand.
III
The Court vacates the preliminary injunction and
remands the case to the district court for further
proceedings consistent with this opinion. For the
reasons given in his separate opinion, Judge Tatel
dissents.
So ordered.

13a
KATSAS, Circuit Judge, concurring: The principal
question in this appeal is what constitutes a
“manner” of execution within the meaning of the
Federal Death Penalty Act (FDPA). The government
says that “manner” here means “method,” such that
the FDPA regulates only the top-line choice among
execution methods such as hanging, electrocution, or
lethal injection. The plaintiffs, the district court, and
Judge Tatel say that “manner” encompasses any
state execution procedure, down to the level of how
intravenous catheters are inserted. Judge Rao
agrees, at least if the procedure is set forth in a state
statute or regulation.
In my view, the government is correct. The
FDPA’s text, structure, and history show that
“manner” refers only to the method of execution.
Moreover, the federal execution protocol does not
violate the FDPA by transferring authority from the
United States Marshals Service to the Federal
Bureau of Prisons. Furthermore, the protocol did not
need to be promulgated through notice-and-comment
rulemaking. For these reasons, I would vacate the
preliminary injunction and remand the case with
instructions to enter judgment for the government on
the plaintiffs’ FDPA and notice-and-comment claims.
Finally, apart from the merits, I would vacate the
preliminary injunction because the balance of
equities tips decidedly in favor of the government.
I
A
The FDPA requires federal executions to be
implemented “in the manner prescribed by the law of

14a
the State in which the sentence is imposed.” 18
U.S.C. § 3596(a). This appeal turns on the level of
detail at which that provision operates. Does it cover
the use of lethal injection rather than other
execution methods such as hanging or electrocution?
The selection of a lethal substance or substances?
How much of the substance to inject, and how many
syringes to use for the injections? How many
intravenous lines to insert, and where to insert
them? Who should insert the lines? In modern
execution practice, governments address such issues
systematically and in advance of any execution. At
the federal level, they are addressed by the FDPA,
Department of Justice regulations, the federal
execution protocol, and the protocol addendum.
Likewise, at the state level, they are addressed in
comparable detail by state statutes, regulations, and
execution protocols.
The government contends that the “manner” of
execution regulated by the FDPA is simply the
method or mode of execution—the top-line choice
among mechanisms of fatality such as hanging,
firing squad, electrocution, lethal gas, or lethal
injection. Under that interpretation, the federal
protocol is clearly consistent with the FDPA: Every
state that authorizes capital punishment uses lethal
injection “as the exclusive or primary means of
implementing the death penalty.” Baze v. Rees, 553
U.S. 35, 42 (2008) (plurality opinion). The federal
regulations likewise designate lethal injection as the
means for implementing capital punishment, 28
C.F.R. § 26.3(a)(4), and the federal protocol
establishes procedures for these injections.

15a
The district court and the plaintiffs read the
FDPA much more broadly. According to the district
court, the FDPA covers not only the method of
execution but also “additional procedural details
such as the substance to be injected or the
safeguards taken during the injection.” In re Fed.
Bureau of Prisons’ Execution Protocol Cases, No.
1:19-mc-145, 2019 WL 6691814, at *4 (D.D.C. Nov.
20, 2019). These “additional procedural details”
include even provisions on “how the intravenous
catheter is to be inserted.” See id. at *6. As an
example, the district court cited state protocol
provisions requiring the catheter to be inserted by
“medically trained” personnel, id. at *6 n.6, whereas
the federal protocol requires the method of insertion
to be determined based on “a recommendation from
qualified personnel” or “the training and experience
of personnel” on the execution team, App. 75. The
plaintiffs largely embrace the district court’s
position, though they seek to carve out exceptions for
de minimis deviations from state procedures, as well
as for procedures insufficiently related to
implementation of the death sentence.
1
In my view, the government is correct. All
indicators of the FDPA’s meaning—statutory text,
history, context, and design—point to the same
conclusion. The FDPA requires federal executions to
follow the method of execution provided by the law of
the state in which the sentence is imposed, but it
does not require federal executions to follow the
“additional procedural details” invoked by the
district court.

16a
The district court began its analysis quite
properly, by addressing the plain meaning of the
critical word “manner.” The court recognized that the
government’s position would be correct if the FDPA
had addressed the “method” rather than the
“manner” of execution, because the word “method”
bears “particular meaning in the death penalty
context”—i.e., it denotes the top-line choice among
mechanisms of death such as hanging, electrocution,
or lethal injection. In re Execution Protocol Cases,
2019 WL 6691814, at *4. But, the district court
reasoned, “manner” is broader than “method”
because one dictionary defines “manner” as “a mode
of procedure or way of acting.” Id. (quotation marks
omitted). This analysis overlooks other definitions,
as well as the need to consider statutory history and
context, see, e.g., Nat’l Ass’n of Home Builders v.
Defs. of Wildlife, 551 U.S. 644, 668–69 (2007); FDA v.
Brown & Williamson Tobacco Corp., 529 U.S. 120,
132–33 (2000). Other dictionaries indicate that
“manner” is synonymous with “method” as well as
“mode.” See, e.g., Manner, Black’s Law Dictionary
(6th ed. 1990) (“A way, mode, method of doing
anything, or mode of proceeding in any case or
situation.”). And history strongly indicates that, in
the specific context of capital punishment, all three
terms refer only to the top-line choice. This is
reflected in practices and usages throughout
American history.
First, consider hanging. In 1790, the First
Congress enacted a bill providing that “the manner
of inflicting the punishment of death, shall be by
hanging the person convicted by the neck until

17a
dead.” Crimes Act of 1790, ch. 9, § 33, 1 Stat. 112,
119. Congress thus described “hanging” as “the”
unitary “manner” of imposing capital punishment,
without undertaking to specify subsidiary details
such as the length of the rope, how it would be
fastened around the neck, or the training of the
hangman. This approach followed the law of
England, where one common form of capital
punishment was to be “hanged by the neck till dead.”
4 W. Blackstone, Commentaries on the Laws of
England 370 (1769). Blackstone further stated that a
“sheriff cannot alter the manner of the execution by
substituting one death for another,” for “even the
king cannot change the punishment of the law, by
altering the hanging or burning into beheading.” Id.
at 397–98 (emphasis added). This makes clear that
hanging itself was considered a “manner” of
execution, as distinct from burning or beheading. But
no evidence suggests that the sheriff (or the king)
could not improvise “procedural details” such as the
length of the rope.
In using “manner” to mean “method,” the First
Congress followed common historical usage. See, e.g.,
1 J. Ash, The New and Complete Dictionary of the
English Language (2d ed. 1795) (defining “manner”
as “[a] form, a method”); 2 S. Johnson, A Dictionary
of the English Language (1755) (“Form; method.”).
The use of hanging as “the manner” of carrying out
federal executions remained unchanged from 1790
until 1937. During that time, no federal officials
undertook to regulate its “procedural details.” And
during much of that time, hanging “was virtually
never questioned,” even though a rope too long could

18a
produce a beheading, while a rope too short could
produce a prolonged death by suffocation. Bucklew v.
Precythe, 139 S. Ct. 1112, 1124 (2019) (quotation
marks omitted).1
Consider also practices and usages with respect to
the firing squad, another common method of
execution into the 1800s. In Wilkerson v. Utah, 99
U.S. 130 (1878), the Supreme Court held that the use
of a firing squad for executions does not violate the
Eighth Amendment. The statute at issue provided
for “death by being shot, hung, or beheaded,” and the
court imposed a sentence requiring that the
defendant be “shot until … dead.” Id. at 131–32
(quotation marks omitted). The legislature did not
undertake to regulate subsidiary “procedural details”
such as, in the case of a firing squad, the kind or
number of guns, the type of ammunition, where the
shooters would aim, or how far away they would
stand. Nor did the sentencing court specify any of
those details. And although such details might have
affected the likelihood of unnecessary suffering
during the execution, the Court never suggested that
the Eighth Amendment claim turned on any of them.
1

Judge Rao seeks to downplay the Crimes Act of 1790 as
merely reflecting usage “on a single occasion.” Post, at 19. But
that statute governed “the manner” of conducting federal
executions for 147 years, and it is a direct predecessor of the
FDPA provision at issue here. It is obviously central to the
question presented. Judge Rao notes that section 13 of the
Crimes Act of 1790 set forth different, more detailed “manners”
of committing the offense of maiming. Id. at 14. True enough,
but the FDPA traces back to section 33 of the Act, which, in the
specific context of executions, used “manner” to refer only to the
top-line choice of method.

19a
To the contrary, it surveyed various rules and
customs on whether death sentences would be
carried out “by shooting or hanging.” See id. at 132–
36. Moreover, it described the governing statute as
addressing “the manner” of execution, id. at 136, and
it used the words “manner,” “method,” and “mode”
interchangeably, see, e.g., id. at 134 (“shooting or
hanging is the method”); id. at 137 (sentence “let him
be hanged by the neck” addresses “the mode of
execution” (quotation marks omitted)).
The history of electrocution follows much the
same pattern. Introduced in 1888, it soon became
“the predominant mode of execution for nearly a
century,” Baze, 553 U.S. at 42 (plurality opinion),
and the Supreme Court promptly upheld it as
constitutional, In re Kemmler, 136 U.S. 436 (1890).
As Kemmler recounted, electrocution came to replace
hanging because it was thought to be a more humane
“manner” or “method” or “mode” of execution—terms
the Court again used interchangeably. See id. at
442–47. Moreover, the underlying legal and policy
debates were framed as a unitary choice between
hanging and electrocution, and the reformers never
undertook to prescribe subsidiary “procedural
details” such as how strong an electric current would
be used, where electrodes would be attached, how the
electric chair would be tested, or who would train the
electrocutioner. See id. at 444.2
2

Judge Rao highlights the Court’s statement that
electrocution was painless when performed “in the manner
contemplated by the [New York] statute.” Post, at 15; see
Kemmler, 136 U.S. at 443–44. Here is the key statutory
provision, quoted in its entirety: “The punishment of death

20a
In sum, here is what a reasonably informed
English speaker would have known as of 1937: For
over 140 years, Congress had designated hanging as
“the manner of inflicting the punishment of death”
for federal capital sentences. English law likewise
had described “hanging” as a permissible “manner”
of executing a death sentence. “Manner” and
“method” often were used interchangeably, including
by the Supreme Court in assessing alternative
execution methods such as hanging, firing squad, or
electrocution. And nobody focused on subsidiary
procedural details in the legal or policy debates over
these various execution methods.
The 1937 Act did not disturb this settled
understanding about the “manner” of executing
capital punishment. To the contrary, although
Congress changed the governing rule, it preserved
the underlying semantic understanding. Whereas
the Crimes Act of 1790 had identified hanging as
“the manner of inflicting the punishment of death,” 1
Stat. at 119, the 1937 Act provided a different rule
for “[t]he manner of inflicting the punishment of
must, in every case, be inflicted by causing to pass through the
body of the convict a current of electricity of sufficient intensity
to cause death, and the application of such current must be
continued until such convict is dead.” Ch. 489, Laws of the
State of New York § 505 (June 4, 1888), quoted in Kemmler, 136
U.S. at 444–45. The statute thus required nothing more than
electrocution. Judge Rao briefly notes other statutory details
governing the timing, location, and witnesses of the execution.
Post, at 16 n.9. They would have had no conceivable bearing on
the painlessness of electrocution, and they were irrelevant to
the one “manner” question that the Court framed, discussed,
and decided—the unitary choice between electrocution and
hanging.

21a
death”—i.e., use “the manner prescribed by the laws
of the State within which the sentence is imposed.”
An Act To Provide for the Manner of Inflicting the
Punishment of Death, Pub. L. No. 75-156, 50 Stat.
304 (1937). Congress’s decision to carry forward the
legally operative text—regarding “the manner of
inflicting the punishment of death”—also carried
forward the prevailing understanding about what
constituted a “manner” of execution. The reason for
this is the settled canon of construction, framed by
Justice Frankfurter and routinely applied since, that
“if a word is obviously transplanted from another
legal source, whether the common law or other
legislation, it brings the old soil with it.”
Frankfurter, Some Reflections on the Reading of
Statutes, 47 Colum. L. Rev. 527, 537 (1947). See, e.g.,
Taggart v. Lorenzen, 139 S. Ct. 1795, 1801 (2019);
Stokeling v. United States, 139 S. Ct. 544, 551 (2019);
Hall v. Hall, 138 S. Ct. 1118, 1128 (2018).3

3

Judge Rao seeks to downplay this canon in contending that
Congress’s usage in 1790 ought not matter much. She says that
to maintain consistent usage of “manner” in successor statutes
is to confuse the word’s abstract “sense,” which must remain
fixed, with its concrete “reference,” which can evolve. Post, at
19–20. She bases this view on a law-review article that seeks to
link originalism to the theory of proper names espoused by the
philosopher Gottlob Frege, in pursuit of a “middle ground”
between the interpretive approaches of Justice Scalia and
Justice Stevens. Green, Originalism and the Sense-Reference
Distinction, 50 St. Louis U. L.J. 555, 558 (2006). Put aside the
fact that leading philosophers hotly debate whether proper
names even have a “sense” apart from their “reference.” See,
e.g., S. Kripke, Naming and Necessity 22–70 (1980). Put aside
the fact that no Supreme Court Justice or opinion has adopted
Professor Green’s account of how legal text is “partially living

22a
Likewise, the FDPA carried forward the relevant
language and “old soil” from the 1937 Act. In fact,
the statutes are virtually identical in all relevant
respects. Both statutes provide for implementation of
federal death sentences in the “manner” provided by
state law. Compare 18 U.S.C. § 3596(a) (United
States marshal “shall supervise implementation of
the sentence in the manner prescribed by the law of
the State in which the sentence is imposed”), with 50
Stat. at 304 (“The manner of inflicting the
punishment of death shall be the manner prescribed
by the laws of the State within which the sentence is
imposed.”). Both statutes permit, but do not require,
the use of state facilities for federal executions.
Compare 18 U.S.C. § 3597(a) (“A United States
marshal
charged
with
supervising
the
implementation of a sentence of death may use
appropriate State or local facilities for the purpose,
may use the services of an appropriate State or local
official or of a person such an official employs for the
purpose, and shall pay the costs thereof in an
amount approved by the Attorney General.”), with 50
and partially dead.” Green, supra, at 559. Put aside the fact
that, in my view, Justice Scalia was right that legal text has “a
fixed meaning, which does not change.” A. Scalia, Scalia
Speaks: Reflections on Law, Faith, and Life Well Lived 188 (E.
Whelan & C. Scalia eds., 2017). Even on Professor Green’s
account, the reference to a top-line execution method in the
Crimes Act of 1790 has significant interpretive weight in
construing that statute (and its successors) over time. See
Green, supra, at 560 (“While the framers are fallible regarding
the reference of their [legal] language, they are still extremely
useful guides.”). Thus, even accepting Professor Green’s theory,
Judge Rao errs by failing to give substantial weight to how
Congress used “manner” in the Crimes Act of 1790.

23a
Stat. at 304 (“The United States marshal charged
with execution of the sentence may use available
State or local facilities and the services of an
appropriate State or local official or employ some
other person for such purpose, and pay the cost
thereof in an amount approved by the Attorney
General.”). And for convictions in states with no
death penalty, both statutes require conformity to
the “manner” of execution in some other state
designated by the sentencing judge. Compare 18
U.S.C. § 3596(a) (“If the law of the State does not
provide for implementation of a sentence of death,
the court shall designate another State, the law of
which does provide for the implementation of a
sentence of death, and the sentence shall be
implemented in the latter State in the manner
prescribed by such law.”), with 50 Stat. at 304 (“If
the laws of the State within which sentence is
imposed make no provision for the infliction of the
penalty of death, then the court shall designate some
other State in which such sentence shall be executed
in the manner prescribed by the laws thereof.”). This
wholesale
copying
surely
indicates
the
preservation—not abrogation—of previously settled
understandings.
Nothing in 1994 usage compels a different
understanding. To the contrary, at that time, many
state statutes continued to describe the “manner” of
execution as a top-line choice among methods such
as electrocution, lethal gas, or lethal injection. See,
e.g., Cal. Penal Code § 3604(a), (d) (1994) (“manner of
execution” is either by “lethal gas” or “intravenous
injection of a substance or substances in a lethal

24a
quantity sufficient to cause death”); La. Rev. Stat.
Ann. § 15:569 (1994) (“manner of execution” is either
“electrocution,” defined as “causing to pass through
the body of the person convicted a current of
electricity of sufficient intensity to cause death,” or
“lethal injection,” defined as “the intravenous
injection of a substance or substances in a lethal
quantity into the body of a person convicted”); Mo.
Rev. Stat. § 546.720 (1994) (“The manner of inflicting
the punishment of death shall be by the
administration of lethal gas or by means of the
administration of lethal injection.”); Vt. Stat. Ann.
tit. 13, § 7106 (1994) (“Manner of execution” is
“causing to pass through the body of the convict a
current of electricity of sufficient intensity to cause
death”). A handful of state statutes went one small
step further, by using “manner” to refer to types of
lethal substances. But none of them required the use
of any particular substance, much less even more
granular details. See Colo. Rev. Stat. § 16-11-401
(1994) (“The manner of inflicting the punishment of
death shall be by the administration of a lethal
injection,” defined as “continuous intravenous
injection of a lethal quantity of sodium thiopental or
other equally or more effective substance sufficient to
cause death.”); Md. Code Ann., Crimes and
Punishments § 71(a) (1994) (“The manner of
inflicting the punishment of death shall be the
continuous intravenous administration of a lethal
quantity of an ultrashort-acting barbiturate or other
similar drug in combination with a chemical
paralytic agent.”);4 Miss. Code Ann. § 99-19-51 (1994)
4

Three other states used a similar formulation. See N.H. Rev.

25a
(similar to Maryland, but with alternative provision
that “the manner of inflicting the punishment of
death shall be by lethal gas”); Okla. Stat. tit. 22,
§ 1014 (1994) (“Manner of inflicting punishment of
death”
is
either
“continuous,
intravenous
administration of a lethal quantity of an ultrashortacting barbiturate in combination with a chemical
paralytic agent,” or “electrocution” or “firing squad”).5
As of 1994, Supreme Court decisions reflected
similar understandings. Between 1937 and 1994, the
Court became much more active in policing capital
punishment. But the Court never retreated from its
holdings that the firing squad and electrocution are
constitutional methods of execution. Likewise, the
Court had not yet approved granular, post-habeas
challenges to the specific details of an execution. To
the contrary, in Gomez v. United States District
Court, 503 U.S. 653 (1992) (per curiam), the Court
summarily rejected a claim that “execution by lethal
gas” violated the Eighth Amendment, and it did so
because the claim had not been properly channeled
through the federal habeas statute. Id. at 653–54.
The Court’s first, tentative approval of claims
challenging procedural details such as the method of
“venous access” did not come until a decade after the
Stat. Ann. § 630:5, XIII (1994); N.M. Stat. § 31-14-11 (1994);
S.D. Codified Laws § 23A-27A-32 (1994).
5

Despite this occasional, slightly broader usage of “manner”
in state statutes, the traditional usage remained common, and
no state statute even remotely addressed items such as the
details of catheter insertion. In any event, the obvious model for
the FDPA was the 1937 federal statute, so it is by far the most
important data point.

26a
FDPA was enacted, Nelson v. Campbell, 541 U.S. 637
(2004), and its wholesale approval of post-habeas
challenges to the details of lethal-injection protocols
did not come until even later, Hill v. McDonough,
547 U.S. 573 (2006).6
In sum, practices and usages in 1994 mirrored
those in 1937: Inquiries into the manner or method
of execution focused on the choice between say, lethal
gas or lethal injection—not the choice of specific
lethal agents or procedures for releasing the gas or
inserting the catheter. In common understanding,
what mattered was the top-line choice.
Within the FDPA itself, statutory context
reinforces this understanding. The FDPA states that
the marshal responsible for supervising a federal
execution “may use appropriate State or local
facilities” and “may use the services of an
appropriate State or local official.” 18 U.S.C.
§ 3597(a). These grants of authority would be
unnecessary if section 3596(a), the “manner”
provision directly at issue, independently required
the use of all state execution procedures. After all,
states conduct executions in designated state
facilities. See, e.g., Ind. Code § 35-38-6-5 (2019)
(“inside the walls of the state prison”); Mo. Rev. Stat.
§ 546.720 (2019) (“within the walls of a correctional
6

Judge Rao cites a handful of judicial opinions loosely using
the word “manner” to refer to subsidiary execution details. Post,
at 4–5 & n.2. Three of them post-date Nelson and Hill—the first
Supreme Court decisions to suggest that such details might
have any legal relevance. Two others are either lower-court
decisions or dissents. None involves a statutory usage of
“manner.”

27a
facility of the department of corrections”); Tex. Dep’t
of Crim. Justice, Execution Procedure § III.B (2019)
(Huntsville Unit). Thus, if section 3596 required use
of state facilities, section 3597 accomplished nothing
by permitting their use. Of course, interpretations
that create surplusage are disfavored. See, e.g., TRW
Inc. v. Andrews, 534 U.S. 19, 31 (2001). The plaintiffs
respond that section 3597 creates a “limited
exception to Section 3596, permitting (but not
requiring) the Government to use its own facilities.”
Appellees’ Br. 30 n.6. But that makes section 3597
even stranger, for providing that the federal
government “may” use “State” facilities would be a
remarkably clumsy way of permitting the federal
government to use federal facilities.
Finally,
consider
statutory
design.
In
“ascertaining the plain meaning of the statute, the
court must look to the particular statutory language
at issue, as well as the language and design of the
statute as a whole.” K Mart Corp. v. Cartier, Inc., 486
U.S. 281, 291 (1988). Here, the plaintiffs’
interpretation of “manner” would frustrate a
principal objective of the Federal Death Penalty
Act—to provide for an administrable scheme of
capital punishment. As Justice Alito explained, the
plaintiffs’ interpretation “would require the BOP to
follow procedures that have been attacked as less
safe than the ones the BOP has devised (after
extensive study); it would demand that the BOP
pointlessly copy minor details of a State’s protocol;
and it could well make it impossible to carry out
executions of prisoners sentenced in some States.”
Barr v. Roane, 140 S. Ct. 353, 353 (2019) (statement

28a
of Alito, J.). The plaintiffs dismiss these points as
mere policy arguments, but they are more than that.
The FDPA was enacted as Title VI of the Violent
Crime Control and Law Enforcement Act of 1994. See
Pub. L. No. 103-322, § 60001, 108 Stat. 1796, 1959.
These statutes sought to ensure a workable and
expanded system of capital punishment. The larger
statute created more than two dozen new capital
offenses. See DOJ, Criminal Resource Manual § 69
(2020). And the FDPA established procedures to
ensure
the
fair
administration of
capital
punishment—by
specifying
aggravating
circumstances that a jury must find in order to
render the defendant eligible for the death penalty,
18 U.S.C. § 3592(b)–(d); by allowing a jury to
consider any mitigating circumstances, id. § 3592(a);
and by requiring separate guilt and sentencing
determinations, id. § 3593. These provisions cured
potential Eighth Amendment problems, see, e.g.,
Maynard v. Cartwright, 486 U.S. 356, 361–63 (1988)
(aggravating factors); Eddings v. Oklahoma, 455
U.S. 104, 110–12 (1982) (mitigating factors); Gregg v.
Georgia, 428 U.S. 153, 190–92 (1976) (plurality
opinion) (separate sentencing hearing), to ensure
that the scheme would be usable. Finally, the FDPA
contains one provision specifically designed to
prevent the choices of an individual state from
effectively nullifying the federal death penalty. It
provides: “If the law of the State does not provide for
implementation of a sentence of death, the court
shall designate another State, the law of which does
provide for the implementation of a sentence of
death ….” 18 U.S.C. § 3596(a).

29a
The plaintiffs do not dispute that this scheme
would be upset if individual states could effectively
obstruct the federal death penalty. Yet their
interpretation would make such obstruction likely.
For example, states could block federal death
sentences by refusing to disclose their full execution
protocols. Some might do so because of moratoria on
the use of capital punishment, like those ordered by
the governors of California and Pennsylvania.7 Other
states simply may wish not to assist in the
enforcement of federal law. See, e.g., Printz v. United
States, 521 U.S. 898, 923 (1997). And state statutes
may prohibit disclosure of state execution protocols.
See, e.g., Ark. Code Ann. § 5-4-617(i)(1) (2019). The
plaintiffs’ only response is that the federal
government obtained several state protocols in
developing its own 2019 protocol. Yet while about
thirty states authorize capital punishment, the
federal government was able to obtain only five
actual state protocols, plus a “summary” of the
others provided by a private advocacy group. App.
10.
Adherence to the minutiae of state execution
protocols is not only pointless, but practically
impossible. State protocols are as detailed as the
federal one—from Arkansas’s color-coding to ensure
that three lethal agents are properly separated
among nine syringes, Arkansas Lethal Injection
7

See Calif. Exec. Order No. N-09-19 (Mar. 13, 2019);
Governor Tom Wolf Announces a Moratorium on the Death
Penalty in Pennsylvania, Office of the Pa. Gov. (Feb. 13, 2015),
https://www.governor.pa.gov/newsroom/moratorium-on-thedeath-penalty-in-pennsylvania.

30a
Procedure, Attachment C, § III.5.a (Aug. 6, 2015), to
Indiana’s seventeen-step “procedure for venous cut
down,” Ind. Dep’t of Corr., Facility Directive ISP 0626: Execution of Death Sentence, Appendix A (Jan.
22, 2014). Conducting a single execution under the
federal protocol requires extensive preparation by a
trained execution team of over 40 individuals, as well
as further support from 250 more individuals at the
federal execution facility in Terre Haute, Indiana.
App. 93–94. Simultaneously managing the same
logistical challenges under a few dozen state
protocols—all different—would be all but impossible.
The plaintiffs offer two limiting principles to
mitigate this problem, but neither would work. First,
they suggest a de minimis exception to the otherwise
unyielding requirement to follow state procedures.
But that would invite endless litigation over which
requirements are de minimis. Must the federal
government follow state provisions regarding the
number of backup syringes? Compare App. 75 (two
sets under federal protocol), with Mo. Dep’t of Corr.,
Preparation and Administration of Chemicals for
Lethal Injection §§ B, E (one set under Missouri
protocol). The type of catheters used? The selection of
execution personnel? The training of those
personnel? The same problem inheres in the
plaintiffs’ related suggestion that some protocol
details
might
not
relate
sufficiently
to
“implementation” of the sentence. Would that
exception cover rules for how long the inmate must
remain strapped to the gurney? App. 40 (under
federal protocol, between 30 minutes and three
hours). Rules about whom the inmate may have

31a
present? Rules about the inmate’s final meal or final
statement? Rules about opening and closing the
execution chamber’s drapes? All such questions
would be raised at the last minute—likely producing
stays, temporary restraining orders, preliminary
injunctions, and interlocutory appeals like this one,
which will delay lawful executions for months if not
years. In sum, the plaintiffs’ interpretation would
make the federal death penalty virtually unadministrable.8
2
The plaintiffs’ further counterarguments are
unavailing. First, the plaintiffs highlight the
statutory text immediately surrounding “manner”—
the language stating that a United States marshal
“shall supervise implementation” of a death sentence
in the manner prescribed by state law. 18 U.S.C.
§ 3596(a).
The
plaintiffs
contend
that
“implementation” of a death sentence refers to the
entire process for carrying it out, not just the use of a
top-line
execution
method.
But
the
only
implementing detail that must follow state law is the
8

Judge Rao correctly notes that bargains reflected in
statutory text must be enforced as against generalized appeals
to statutory purpose. Post, at 22–24. But statutory purpose, as
reflected in “the language and design of the statute as a whole,”
can help determine textual meaning or resolve textual
ambiguity. See, e.g., K Mart, 486 U.S. at 291. Judge Rao does
not dispute that one significant purpose of the FDPA is to
ensure an administrable system of capital punishment, and her
own analysis thus properly considers whether the plaintiffs’
proposed construction would raise “practical, and perhaps
insurmountable, difficulties to the implementation of federal
death sentences.” Post, at 12–13.

32a
“manner” of carrying out the execution—which begs
the question of what that term does and does not
encompass.
The plaintiffs next invoke a different FDPA
provision defining aggravating circumstances to
include cases where “[t]he defendant committed the
offense in an especially heinous, cruel, or depraved
manner in that it involved torture or serious physical
abuse to the victim.” 18 U.S.C. § 3592(c)(6). They
reason that this FDPA provision uses “manner”
broadly, so other FDPA provisions must do likewise.
But the presumption of consistent usage “readily
yields to context, especially when” the term at issue
“takes on distinct characters in distinct statutory
provisions.” Return Mail, Inc. v. USPS, 139 S. Ct.
1853, 1863 (2019) (quotation marks omitted). That
qualification perfectly fits this case, for each FDPA
provision has its own history. As explained above,
the provision regarding the “manner” of executing a
death sentence traces back to the Crimes Act of 1790.
In contrast, section 3592(c)(6) was copied nearly
verbatim from the Anti-Drug Abuse Act of 1988, see
Pub. L. No. 100-690, § 7001, 102 Stat. 4181, 4392,
which in turn responded to a Supreme Court decision
allowing consideration of a “heinous, atrocious, or
cruel” aggravating factor only as narrowed to require
“torture or serious physical abuse,” Cartwright, 486
U.S. at 363–65 (quotation marks omitted). Because
section 3592(c)(6) carries its own “old soil,” the
presumption of consistent usage must yield to
context.
Finally, the plaintiffs stress that between 1995
and 2008, Congress failed to enact some nine bills

33a
that would have allowed federal capital punishment
to be implemented in a manner independent of state
law. But “failed legislative proposals are a
particularly dangerous ground on which to rest an
interpretation of a prior statute.” Cent. Bank of
Denver, N.A. v. First Interstate Bank of Denver, N.A.,
511 U.S. 164, 187 (1994) (quotation marks omitted).
The plaintiffs highlight DOJ statements that the
FDPA imperiled its 1993 regulation, which
establishes lethal injection as the sole method for
federal executions. But those statements were made
when some states still provided for electrocution “as
the sole method of execution.” See Baze, 553 U.S. at
42–43 n.1 (plurality opinion). In 2009, Nebraska
became the last death-penalty state to authorize
lethal injection as a permissible execution method.
See Act of May 28, 2009, L.B. 36, 2009 Neb. Laws 52.
After that, attempts to amend the FDPA ceased, as
did DOJ’s support for them. So, DOJ’s current
interpretation of the FDPA to encompass methods of
execution, but not subsidiary procedural details, has
been consistent.
3
Judge Rao takes a different approach advocated
by none of the parties. In her view, the word
“manner” is flexible enough, considered in isolation,
to refer either to the top-line method of execution or
to the full panoply of execution procedures. Post, at
1–6. So far, so good. She then reasons that, by
requiring federal executions to be conducted “in the
manner prescribed by the law of the State in which
the sentence is imposed,” Congress specified “the
level of generality” for interpreting the word

34a
“manner.” Id. at 1. She thus concludes that Congress
used “manner” in its broad sense, so as to include all
execution procedures—no matter how picayune—
that are “prescribed by the law of the State.” Id. at
22. For Judge Rao, as it turns out, the key to this
case is not the word “manner,” but the phrase
“prescribed by the law of the State.”
This account runs contrary to established rules of
grammar and statutory interpretation. As a matter
of grammar, the participial phrase “prescribed by the
law of the State” functions as an adjective and
modifies the noun “manner.” By using the adjective
to construe the noun broadly, Judge Rao overlooks
“the ordinary understanding of how adjectives work.”
Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv., 139
S. Ct. 361, 368 (2018). “Adjectives modify nouns—
they pick out a subset of a category that possesses a
certain quality.” Id. They ordinarily do not expand
the meaning of the noun they modify. Thus, “critical
habitat” must first be “habitat.” See id. Likewise,
“full costs” must first be “costs.” See Rimini Street,
Inc. v. Oracle USA, Inc., 139 S. Ct. 873, 878–79
(2019). And here, whatever is “prescribed by the law
of the State” must first be a “manner” of execution.
In short, the limiting adjective provides no basis for
interpreting the noun broadly.
To be sure, adjectival phrases can clarify the
meaning of ambiguous nouns by ruling out certain
possibilities through context. For example, in the
abstract, the noun “check” might refer to “an
inspection, an impeding of someone else’s progress, a
restaurant bill, a commercial instrument, a
patterned square on a fabric, or a distinctive mark-

35a
off.” A. Scalia & B. Garner, Reading Law: The
Interpretation of Legal Texts 70 (2012). But when
“check” is combined with the adjectival phrase “made
payable to the IRS,” we know that the noun refers
only to a commercial instrument. In this example,
the phrase “made payable to the IRS” clarifies the
meaning of “check” because it is consistent with only
one possible understanding of it.
The FDPA does not work like that. Divorced from
its statutory history, the noun “manner” could mean
either the top-line execution method or all state
execution procedures. But the adjectival phrase
“prescribed by the law of the State” cannot resolve
this ambiguity, because it is perfectly consistent with
both meanings. On the one hand, states use their
laws to prescribe the top-line method of execution.
On the other hand, they also use their laws to specify
additional procedural details. So the adjectival
phrase “prescribed by the law of the State” tells us
nothing about the meaning of the noun “manner”—
and certainly does not undermine a historical
understanding of that term dating back to our
country’s founding.9
Judge Rao stresses the assertedly limited scope of
her reading of the FDPA. She interprets the phrase
“prescribed by the law of the State” to mean
9

To make the adjectival reference to state law narrow the
noun “manner,” Judge Rao must retreat to the position that
“manner,” construed without reference to the adjectival phrase,
“is broad enough to encompass execution procedures at every
level of generality.” Post, at 9 n.5. As explained above, that
position cannot be reconciled with historical usages and
understandings tracing back to the First Congress.

36a
execution procedures set forth only in state “statutes
and regulations carrying the force of law,” but not in
less formal state execution protocols. Post, at 6. And
that interpretation, she concludes, “mitigates many
of the concerns raised by the district court’s broad
reading” of the FDPA. Id. at 26. All of this is a good
reason for rejecting an interpretation of the FDPA
that encompasses procedural details set forth only in
state execution protocols. But it is not a good reason
for rejecting the historical understanding of
“manner,” which creates no practical concerns about
administrability.
Judge Rao also understates the practical
difficulties with her proposed interpretation. For one
thing, state statutes and regulations do contain
many granular details. Consider just the four state
death-penalty statutes before us in this case. The
Arkansas statute requires that catheters be
“sterilized and prepared in a manner that is safe.”
Ark. Code Ann. § 5-4-617(f) (2019). The Indiana
statute excludes lawyers from the persons who “may
be present at the execution.” Ind. Code § 35-38-6-6(a)
(2019). The Missouri statute requires the execution
chamber to be “suitable and efficient.” Mo. Rev. Stat.
§ 546.720.1 (2019). And the Texas statute prohibits
the infliction of any “unnecessary pain” on the
condemned prisoner. Tex. Code Crim. Proc. Ann. art.
43.24 (2019). Assimilating the various state statutes
and regulations will present significant logistical
challenges. And, of course, these various provisions
will provide ample opportunity for last-minute stay
litigation.
Moreover, the line between “formal” regulations

37a
“carrying the force of law” and “informal policy or
protocol,” post, at 6–8, will be another fertile source
of litigation. At the state level, how “formal” is
formal enough? Even at the federal level, the
question of which regulations have the force of law
has been “the source of much scholarly and judicial
debate.” Perez v. Mortg. Bankers Ass’n, 575 U.S. 92,
96 (2015). Yet now, courts will be forced to confront
every variation of that question arising out of the
administrative law of some thirty states. What if a
state
administrative
procedure
act
permits
rulemaking through processes less formal than
notice-and-comment? What if a warden may change
protocol procedures unilaterally, but only under
limited circumstances? What if a state court moves
the goalposts with an unexpected interpretation of
the governing rules? Litigation over such matters
will foreclose any realistic possibility for the prompt
execution of federal death sentences.10
****
For all these reasons, I would hold that the FDPA
10

To be clear, I agree with Judge Rao that the FDPA’s
reference to “law of the State” covers only state statutes and
binding regulations. Post, at 6–8. I also agree with Judge Rao
that because the state protocols in this case “do not appear to
have the binding force of law, they cannot be deemed part of the
‘law of the State.’” Id. at 28 n.15. Accordingly, those
propositions constitute holdings of this Court. See Marks v.
United States, 430 U.S. 188, 193–94 (1977). But I do not share
Judge Rao’s optimism that a “law of the State” limitation,
imposed on an otherwise unbounded interpretation of
“manner,” will avoid “practical, and perhaps insurmountable,
difficulties to the implementation of federal death sentences.”
Post, at 12–13.

38a
requires the federal government to follow state law
regarding only the method of execution and does not
regulate the various subsidiary details cited by the
plaintiffs and the district court. On that
interpretation, the plaintiffs’ primary FDPA claim is
without merit.
B
In the alternative, the plaintiffs contend that the
2019 protocol violates the FDPA by impermissibly
shifting authority from the United States Marshals
Service to the Federal Bureau of Prisons. The
plaintiffs rest this argument on FDPA provisions
requiring a United States marshal to “supervise
implementation” of the death sentence. 18 U.S.C.
§ 3596(a); see also id. § 3597(a). The district court did
not reach this argument, but the parties have briefed
it and the plaintiffs urge it as an alternative ground
for affirmance.
The execution protocol does not strip the
Marshals Service of the power to supervise
executions. To the contrary, it requires a “United
States Marshal designated by the Director of the
USMS” to oversee the execution and to direct which
other personnel may be present at it. App. 30. The
“execution process,” which starts at least thirty
minutes before the actual execution, cannot begin
without the marshal’s approval. App. 40. The same is
true for the execution itself. App. 44, 68. Individuals
administering the lethal agents are “acting at the
direction of the United States Marshal.” App. 74.
And once the execution is complete, the marshal
must notify the court that its sentence has been

39a
carried out. App. 44–45. The protocol thus tasks the
USMS with supervising executions.
In any event, federal law vests all powers of DOJ
components in the Attorney General and permits
him to reassign powers among the components. “All
functions of other officers of the Department of
Justice and all functions of agencies and employees
of the Department of Justice are vested in the
Attorney General.” 28 U.S.C. § 509. The Marshals
Service is “a bureau within the Department of
Justice under the authority and direction of the
Attorney General.” Id. § 561(a). Its powers are thus
ultimately vested in the Attorney General. Moreover,
the Attorney General may delegate his powers to
“any other officer, employee, or agency of the
Department of Justice.” Id. § 510. Together, these
provisions permit the Attorney General to reassign
duties from the Marshals Service to the Bureau of
Prisons.
The plaintiffs invoke United States v. Giordano,
416 U.S. 505 (1974). There, the Supreme Court held
that a statute “expressly” limiting the Attorney
General’s power to delegate wiretap authority to a
handful of enumerated officials qualified his general
authority to reassign DOJ functions. Id. at 514. But
the FDPA contains no such language expressly
prohibiting the Attorney General from deciding or
delegating matters relating to executions. For these
reasons, the protocol allocates duties consistent with
the FDPA, so the plaintiffs’ alternative FDPA

40a
argument is also without merit.11
C
The federal protocol is both a procedural rule and
a general policy statement exempted from the noticeand-comment requirements of the Administrative
Procedure Act. See 5 U.S.C. § 553(b)(3)(A).
“The critical feature of a procedural rule is that it
covers agency actions that do not themselves alter
the rights or interests of parties.” Nat’l Mining Ass’n
v. McCarthy, 758 F.3d 243, 250 (D.C. Cir. 2014)
(quotation marks omitted). The federal protocol does
not alter the plaintiffs’ rights or interests, which
were all but extinguished when juries convicted and
sentenced them to death. Moreover, pre-existing law
establishes lethal injection as the method of
11

Judge Rao contends that the plaintiffs forfeited this
argument by not raising it below. Post, at 32. But plaintiff Lee,
in support of his motion for a preliminary injunction, identified
eight provisions in the execution protocol that he says
impermissibly granted authority to the Bureau of Prisons. See
Lee Mot. for Prelim. Inj., In re Execution Protocol Cases, No.
1:19-mc-145 (D.D.C.), ECF Doc. 13-1, at 10–12. Lee argued that
each of the provisions is “[c]ontrary to Section 3596 of [the]
FDPA, which only refers to the U.S. Marshal supervising
implementation.” Id. Moreover, the government did not argue
for a forfeiture, and thus “forfeited [the] forfeiture argument
here.” Solomon v. Vilsack, 763 F.3d 1, 13 (D.C. Cir. 2014). And
for several reasons, it would make good sense for us to excuse
any forfeiture: The plaintiffs’ alternative FDPA claim turns on
purely legal questions, it was fully briefed on appeal, both
parties ask us to decide it, the Supreme Court has asked us to
proceed with appropriate dispatch, and this claim, even if not
pursued in the preliminary-injunction motions, would remain
live on remand.

41a
execution, 28 C.F.R. § 26.3(a)(4), and the protocol
simply sets forth procedures for carrying out the
injections.
The execution protocol is also a general statement
of agency policy. In defining this category, “[o]ne line
of analysis considers the effects of an agency’s action,
inquiring whether the agency has (1) impose[d] any
rights and obligations, or (2) genuinely [left] the
agency and its decisionmakers free to exercise
discretion.” Clarian Health West, LLC v. Hargan,
878 F.3d 346, 357 (D.C. Cir. 2017) (quotation marks
omitted). A second line “looks to the agency’s
expressed intentions, including consideration of
three factors: (1) the [a]gency’s own characterization
of the action; (2) whether the action was published in
the Federal Register or the Code of Federal
Regulations; and (3) whether the action has binding
effects on private parties or on the agency.” Id.
(quotation marks omitted). Here, the protocol
contains no rights-creating language. Just the
opposite, it states that “[t]his manual explains
internal government procedures and does not create
any legally enforceable rights or obligations.” App.
24. Likewise, the protocol explicitly permits
“deviation[s]”
and
“adjustment[s]”
upon
a
determination “by the Director of the BOP or the
Warden” that the deviation is “required,” thus
preserving a healthy measure of agency discretion.
Id. Finally, the protocol was published in neither the
Code of Federal Regulations nor the Federal
Register.
For these reasons, the federal protocol was not
subject to notice-and-comment requirements, and the

42a
plaintiffs’ contrary claim is without merit.12
II
Wholly apart from the merits, I would reverse the
preliminary injunction because the balance of harms
and the public interest strongly favor the
government. The party seeking a preliminary
injunction “must establish” not only a likelihood of
success on the merits, but also “that the balance of
equities tips in his favor, and that an injunction is in
the public interest.” Winter v. NRDC, 555 U.S. 7, 20
(2008); see also Amoco Prod. Co. v. Vill. of Gambell,
480 U.S. 531, 542 (1987). And appellate courts may
reverse preliminary injunctions where, apart from
the merits, the district court’s equitable balancing
constituted an abuse of discretion. See NRDC, 555
U.S. at 24–26, 32.
In this case, the district court failed to recognize
the important governmental and public interest in
the timely implementation of capital punishment.
The court concluded that any “potential harm to the
government caused by a delayed execution is not
substantial.” In re Execution Protocol Cases, 2019
WL 6691814, at *7. In contrast, the Supreme Court
frequently has explained that “both the [government]
and the victims of crime have an important interest
12

Given the flexibility built into the federal protocol, I agree
with Judge Rao that it may be adjusted to conform to state law
to whatever extent the FDPA may require. Post, at 29–30. That
saves the protocol itself from attack under Judge Rao’s
construction of the FDPA. But, as explained above, it opens the
door to a wide range of challenges to federal executions under
the minutiae of state execution statutes and regulations.

43a
in the timely enforcement of a [death] sentence,”
which is frustrated by decades of litigation-driven
delay. Bucklew, 139 S. Ct. at 1133 (quotation marks
omitted). Indeed, “when lengthy federal proceedings
have run their course”—as is the case here—“finality
acquires an added moral dimension.” Calderon v.
Thompson, 523 U.S. 538, 556 (1998). “Only with an
assurance of real finality can the State execute its
moral judgment in a case.” Id. And “[o]nly with real
finality can the victims of crime move forward
knowing the moral judgment will be carried out.” Id.
“To unsettle these expectations is to inflict a
profound injury to the ‘powerful and legitimate
interest in punishing the guilty.’” Id. (quoting
Herrera v. Collins, 506 U.S. 390, 421 (1993)
(O’Connor, J., concurring)).
These interests are magnified by the heinous
nature of the offenses committed by the appellees—
all of whom murdered children—as well as the
decades of delay to date.
In 1999, an Arkansas jury convicted Daniel Lee of
three counts of murder in aid of racketeering. The
murders were committed in 1996, during a robbery
to fund a white supremacist organization. United
States v. Lee, 374 F.3d 637, 641 (8th Cir. 2004). After
overpowering a couple and their eight-year-old
daughter in their home, Lee and a confederate “shot
the three victims with a stun gun, placed plastic bags
over their heads, and sealed the bags with duct
tape.” Id. at 641–42. They then drove the family to a
bayou, taped rocks to their bodies, and threw them
into the water to suffocate or drown. Id. at 642. The
Eighth Circuit affirmed Lee’s death sentence on

44a
direct review, id., and thrice denied him collateral
relief, Lee v. United States, No. 19-3576 (8th Cir.
Jan. 7, 2020); United States v. Lee, 792 F.3d 1021
(8th Cir. 2015); United States v. Lee, 715 F.3d 215
(8th Cir. 2013). Nonetheless, Lee continues to pursue
a fourth round of collateral review. Lee v. United
States, No. 2:19-cv-00468 (S.D. Ind. Dec. 5, 2019),
preliminary injunction vacated by Lee v. Watson, No.
19-3399 (7th Cir. Dec. 6, 2019).
In 2003, a Missouri jury convicted Wesley Purkey
of the kidnapping, rape, and murder of sixteen-yearold Jennifer Long in 1998. United States v. Purkey,
428 F.3d 738, 744–45 (8th Cir. 2005). After killing
the girl, Purkey dismembered her body with a
chainsaw and burned her remains. Id. at 745. The
jury found nine aggravating factors, including that
Purkey had previously bludgeoned a woman to death
with a hammer. Id. at 746. The Eighth Circuit
affirmed Purkey’s death sentence on direct review,
id. at 744, and later denied him collateral relief,
Purkey v. United States, 729 F.3d 860 (8th Cir. 2013).
In 2004, an Iowa jury convicted Dustin Honken of
murdering five individuals in 1999, including two
witnesses to his drug trafficking and two young
children. United States v. Honken, 541 F.3d 1146,
1148 (8th Cir. 2008). Honken and an accomplice
kidnapped one witness, the witness’s girlfriend, and
her six- and ten-year-old daughters. Honken
murdered all four execution-style, by shooting each
in the head. Id. at 1149–51. Four months later,
Honken murdered another prospective witness
against him. Id. at 1148, 1151. Then, while in prison
awaiting trial, he made plans to murder additional

45a
witnesses. Id. at 1150–51. Because Iowa has no
death penalty, the district court ordered Honken to
be executed in the manner provided by Indiana law.
The Eighth Circuit affirmed the death sentence on
direct appeal, id. at 1148, and then declined to set it
aside on collateral review, see Honken v. United
States, 42 F. Supp. 3d 937, 1196–97 (N.D. Iowa
2013), certificate of appealability denied, No. 14-1329
(8th Cir. May 2, 2014).
In 2004, a Texas jury convicted Alfred Bourgeois
of murdering his two-year-old daughter in 2002.
United States v. Bourgeois, 423 F.3d 501, 503 (5th
Cir. 2005). Before the murder, Bourgeois
“systematically abused and tortured” the child—he
punched her in the face, whipped her with an
electrical cord, hit her head with a plastic bat so
many times that it “was swollen like a football,” and
later bragged to a fellow inmate that the “f––ing
baby’s head got as big as a watermelon.” Id. He bit
her, scratched her, and burned the bottom of her feet
with a cigarette lighter. When others tried to clean
the sores, Bourgeois “would stop them and jam his
dirty thumb into the wounds, then force [her] to
walk” on them. Id. After her training potty tipped
over, Bourgeois repeatedly slammed the back of her
head into a window. He refused to take the girl’s
limp body to the hospital, but a passer-by called an
ambulance. “The doctors sustained [her] on life
support until her mother could get to the hospital,
where the baby died in her mother’s arms the next
day.” Id. at 505. In affirming the death sentence, the
Fifth Circuit described this as “not a close case.” Id.
at 512. That court later denied post-conviction relief.

46a
United States v. Bourgeois, 537 F. App’x 604, 605
(5th Cir. 2013) (per curiam).
These crimes were committed twenty-four,
twenty-two, twenty-one, and eighteen years ago
respectively. Each appellee received the full panoply
of procedural protections afforded under the
Constitution and the FDPA. Each received direct
review and one or more rounds of collateral review.
Yet now, supported by fifteen lawyers on just this
appeal, they continue to litigate with a vengeance,
ostensibly over the manner of their executions, but
with the obvious and intended effect of delaying
them indefinitely. As the Supreme Court noted in
Bucklew, with apparent exasperation, the people and
the surviving victims “deserve better.” 139 S. Ct. at
1134.
The district court stressed that the government
took eight years to craft its revised execution
protocol. True enough, but things were fine in 2008,
with a three-drug execution protocol in place and
approved by the Supreme Court in Baze. Then began
a long and successful campaign of obstruction by
opponents of capital punishment, which removed
sodium thiopental from the market by 2011 and
made pentobarbital unavailable shortly thereafter.
See Glossip v. Gross, 135 S. Ct. 2726, 2733 (2015). At
that point, the government’s options were severely
limited, and it can hardly be faulted for proceeding
with caution. The government declined to press
ahead with an available three-drug protocol using
midazolam—a milder sedative than either sodium
thiopental or pentobarbital—and two other
substances to stop respiration and induce cardiac

47a
arrest. Its hesitation in the face of uncertainty
proved reasonable, as four Justices would later
describe this protocol as possibly “the chemical
equivalent of being burned at the stake.” Id. at 2781
(Sotomayor, J., dissenting).
Instead of proceeding with an inferior option, the
government waited until pentobarbital again became
available. That barbiturate—which can act as both
sedative and lethal agent—is “widely conceded to be
able to render a person fully insensate,” Zagorski v.
Parker, 139 S. Ct. 11, 11–12 (2018) (Sotomayor, J.,
dissenting from denial of application for stay and
denial of certiorari), thus ensuring a painless
execution. The government also took time to study
the successful track record of pentobarbital,
documenting its use without incident in more than
100 state executions, A.R. 929–30, as well as the
many cases that have upheld its use, see, e.g., Zink v.
Lombardi, 783 F.3d 1089, 1102 (8th Cir. 2015) (en
banc) (per curiam); Ladd v. Livingston, 777 F.3d 286,
289–90 (5th Cir. 2015). The government’s care in
selecting an available and effective execution
substance does not diminish the importance of
carrying out the appellees’ sentences.
On the other side of the balance, a death sentence
is of course serious business. But here, there is no
dispute that the appellees may be executed by lethal
injection,
nor
any
colorable
dispute
that
pentobarbital will cause anything but a swift and
painless death. Instead, the plaintiffs contend only
that their executions cannot occur until the federal
government replicates every jot-and-tittle of the
relevant state execution protocols. And in doing so,

48a
they would expose other death-row inmates to
substances less reliably certain to ensure a painless
death than is pentobarbital—including midazolam,
which remains in use in five different states. A.R.
92–93. The claims before us are designed neither to
prevent unnecessary suffering nor to ensure that
needles are properly inserted into veins—a task that
nurses routinely perform without difficulty. Instead,
they are designed to delay lawful executions
indefinitely. We should not assist in that
undertaking.
****
For these reasons, I would vacate the preliminary
injunction and remand the case to the district court
with instructions to enter judgment for the
government on the plaintiffs’ FDPA claims and their
notice-and-comment claims.

49a
RAO, Circuit Judge, concurring: The Department
of Justice specified a range of procedures to govern
federal executions in its 2019 protocol and
addendum. Plaintiffs allege that the Department’s
protocol is inconsistent with the Federal Death
Penalty Act (“FDPA”), which requires that federal
executions be implemented “in the manner
prescribed by the law of the State in which the
sentence is imposed.” 18 U.S.C. § 3596(a). At every
stage of this litigation, the debate has centered on
whether “manner” should be read at a particular
level of generality. The word “manner,” however,
cannot be interpreted in isolation. It is a broad,
flexible term whose specificity depends on context.
The FDPA explicitly defines the level of generality of
“manner”: It is the “manner prescribed by the law of
the State.” Thus, the FDPA requires the federal
government to apply state law—that is, statutes and
formal regulations—at whatever level of generality
state law might be framed. Where state law is silent,
the federal government has discretion to choose
whatever lawful execution procedures it prefers.
Under this interpretation, the Department of
Justice’s 2019 protocol is consistent with the FDPA.
The protocol lays out a non-binding procedural
framework that the federal government may apply in
most cases, and it allows the U.S. Marshal Service to
depart from federal procedures when required—a
carveout that naturally would encompass situations
in which the 2019 protocol conflicts with state law. I
therefore agree to vacate the preliminary injunction.

50a
I.
Assessing the validity of the 2019 protocol
requires us first to interpret the reach of the FDPA.
The Department of Justice maintains that “manner”
as used in the FDPA means only the method of
execution—i.e., hanging, electrocution, or lethal
injection—leaving the government free to set forth a
uniform procedure for executions. The plaintiffs, on
the other hand, assert that “manner” means any
procedures used by a state when implementing the
death penalty, thereby precluding any kind of
uniform federal protocol. Neither reading comports
with the FDPA when read as a whole. In the FDPA,
Congress left certain choices regarding execution to
the States. Considering the text and structure of the
statute, I explain why the FDPA requires the federal
government to apply only those execution procedures
prescribed by a state’s statutes and formal
regulations, but leaves the federal government free
to specify other procedures or protocols not
inconsistent with state law. Moreover, nothing in the
statutory history offers a basis to override the plain
meaning of the FDPA.
A.
The FDPA provides that the U.S. Marshal “shall
supervise implementation of the sentence [of death]
in the manner prescribed by the law of the State in
which the sentence is imposed.” 18 U.S.C. § 3596(a).
The parties as well as my colleagues focus on the
meaning of the word “manner.” As I explain, the
word “manner” may refer to varying levels of
specificity, both in its ordinary meaning and in the

51a
context of execution procedures. Reading “manner”
alongside other words in Section 3596(a), as well as
the statute as a whole, demonstrates that the FDPA
uses “manner” to include the positive law and
binding regulations of a state—those procedures
“prescribed by the law of the State.” State “law,”
however, does not include informal procedures or
protocols. In the absence of binding state law, the
FDPA leaves other procedures to the discretion of the
U.S. Marshal who must “supervise implementation
of the sentence” of death.
1.
In ordinary usage, the word “manner” has a
broad, flexible meaning. A “manner” is “a
characteristic or customary mode of acting” or “a
mode of procedure.” Manner, Merriam-Webster’s
Collegiate Dictionary (11th ed. 2014). Put differently,
a “manner” is “[a] way of doing something or the way
in which a thing is done or happens.” Manner, The
American Heritage Dictionary of the English
Language (5th ed. 2018). “Manner” may therefore
refer to a general way of doing something or the
more specific way in which an action is carried out.
The word had a similarly broad meaning when the
first two federal death penalty statutes were passed
in 1790 and 1937. See Manner, New International
Dictionary of the English Language (2d ed. 1941)
(“[A] way of acting; a mode of procedure; the mode or
method in which something is done or in which
anything happens.”); 2 S. Johnson, A Dictionary of
the English Language (1755) (“Custom; habit;

52a
fashion.”).1
The word “manner” has the same flexible
meaning in the execution context, as demonstrated
by federal and state statutes and judicial decisions
that use the word with varying levels of generality.
As DOJ notes, the word is sometimes used to refer to
a general execution method, and courts occasionally
use
the
terms
“manner”
and
“method”
interchangeably; yet “manner” is also frequently
used to refer to granular details, including in the
FDPA itself. In a provision governing aggravating
factors in homicide cases, the statute reads, “In
determining whether a sentence of death is
justified …, the jury … shall consider … [whether]
[t]he defendant committed the offense in an
especially heinous, cruel, or depraved manner in that
it involved torture or serious physical abuse to the
victim.” 18 U.S.C. § 3592(c)(6). In this instance, the
“manner” of committing homicide refers not to the
general method of killing, but to the precise way in
1

Judge Katsas makes much of the fact that eighteenthcentury dictionaries, including Samuel Johnson’s, also defined
“manner” as a “method,” Concurring Op. 4–5 (Katsas, J.), but
he overlooks that those dictionaries defined “method” in broad
terms. For instance, Johnson’s dictionary states: “Method,
taken in the largest sense, implies the placing of several things,
or performing several operations in such an order as is most
convenient to attain some end.” 2 S. Johnson, A Dictionary of
the English Language (1755). This “largest sense” is the only
definition Johnson provides for “method.” Judge Katsas notes
that “[o]ther dictionaries” also “indicate that ‘manner’ is
synonymous with ‘method’ as well as ‘mode.’” Concurring Op. 4
(Katsas, J.). These dictionaries, however, are not referring to
the narrow sense of “method” employed in the execution
context.

53a
which the offense was committed.
State legislatures also use the word “manner” to
refer to the specifics of an execution procedure,
including in some statutes the choice of lethal
substance or method of injection. See, e.g., Miss.
Code. Ann. § 99-19-51 (“The manner of inflicting the
punishment of death shall be by the sequential
intravenous administration of a lethal quantity of
the following combination of substances ….”); Md.
Code Ann., Correctional Services, § 3–905 (repealed
in 2013) (“The manner of inflicting the punishment
of death shall be the continuous intravenous
administration of a lethal quantity of an ultrashortacting barbiturate or other similar drug in
combination with a chemical paralytic agent.”); Colo.
Rev. Stat. Ann. § 18-1.3-1202 (“The manner of
inflicting the punishment of death shall be by the
administration of a lethal injection …. For the
purposes of this part 12, ‘lethal injection’ means a
continuous intravenous injection of a lethal quantity
of sodium thiopental or other equally or more
effective substance.”).
Similarly, federal courts use the term “manner”
variably to refer both to the method of execution and
to the specifics of execution procedures. See Glossip
v. Gross, 135 S. Ct. 2726, 2741 (2015) (“[T]here is no
scientific literature addressing the use of midazolam
as a manner to administer lethal injections in
humans.” (quoting a party’s expert report)); id. at
2790 (Sotomayor, J., dissenting) (“These assertions
were amply supported by the evidence of the manner
in which midazolam is and can be used.”); Baze v.
Rees, 553 U.S. 35, 57 (2008) (plurality opinion)

54a
(“[T]he Commonwealth’s continued use of the threedrug protocol cannot be viewed as posing an
‘objectively intolerable risk’ when no other State has
adopted the one-drug method and petitioners
proffered no study showing that it is an equally
effective manner of imposing a death sentence.”);
Holden v. Minnesota, 137 U.S. 483, 491 (1890) (“[The
state statute] prescribes … the manner in which[]
the punishment by hanging shall be inflicted.”);
Williams v. Hobbs, 658 F.3d 842, 849 (8th Cir. 2011)
(“The prisoners next contend that they have
demonstrated a facially plausible claim that the Act
[which provides for lethal injection in all
cases] … increases mental anxiety before execution
since the prisoners cannot know the manner in
which they will be executed.”). 2 These examples
demonstrate that the word “manner” is used
frequently in the execution context as a broad term
that may encompass any level of detail.3
2

See also Louisiana ex rel. Francis v. Resweber, 329 U.S. 459,
474 (1947) (Burton, J., dissenting) (“The Supreme Court of
Louisiana has held that electrocution, in the manner prescribed
in its statute, is more humane than hanging.”); In re Kemmler,
136 U.S. 436, 443–44 (1890) (“‘[T]he application of electricity to
the vital parts of the human body, under such conditions and in
the manner contemplated by the statute, must result in
instantaneous, and consequently in painless, death.’” (citation
omitted)); Harris v. Dretke, No. 04-70020, 2004 WL 1427042, at
*1 (5th Cir. June 23, 2004) (“David Harris appeals the dismissal
of his suit … challenging the manner in which the State of
Texas intends to carry-out his execution by lethal injection.”).
3

As the question before us concerns the meaning of the FDPA
and whether “manner” can include procedural details
prescribed by state law, it is of no consequence that the
Supreme Court recognized constitutional challenges to the

55a
2.
To determine the level of specificity of “manner”
as used in the FDPA, I start with the language of
Section 3596. Recall the statute provides that the
U.S. Marshal “shall supervise implementation of the
sentence in the manner prescribed by the law of the
State in which the sentence is imposed.” 18 U.S.C.
§ 3596(a). In this context, “manner” does not operate
in isolation, but is modified by the requirement that
the Marshal adopt the manner “prescribed by the
law of the State.” The district court did not address
this qualifying language, and both parties gloss over
it. In defending the 2019 protocol, the government
contends that the Marshal must apply only the
state’s method of execution, without reference to
other details that might be included in state law; the
plaintiffs contend that the Marshal must apply all
state procedures, again without reference to whether
those procedures were prescribed by state law. The
government’s distinction is not found anywhere in
the FDPA, while the plaintiffs’ interpretation would
read the phrase “prescribed by … law” out of the
statute entirely.
The ordinary meaning of “law of the State” refers
to binding law prescribed through formal lawmaking
procedures. In analogous contexts, the Supreme
Court has read similar statutory language to
incorporate only statutes and regulations carrying
the force of law. For instance, the Court held in
United States v. Howard that a Florida regulation
procedural details of execution only relatively recently. See
Concurring Op. 11–12 & n.6 (Katsas, J.).

56a
was part of the “law of the state” because violations
of the regulation were “punishable as a
misdemeanor.” 352 U.S. 212, 216–17, 219 (1957). In
Chrysler Corporation v. Brown, the Court held that
the phrase “authorized by law” encompasses
“properly
promulgated,
substantive
agency
regulations” that “have the ‘force and effect of law.’”
441 U.S. 281, 295–96 (1979); see also Baltimore &
O.R. Co. v. Baugh, 149 U.S. 368, 398 (1893) (“‘[T]he
equal protection of the laws,’ … means equal
protection not merely by the statutory enactments of
the state, but equal protection by all the rules and
regulations which, having the force of law, govern
the intercourse of its citizens with each other and
their relations to the public.”); Samuels v. Dist. of
Columbia, 770 F.2d 184, 199 (D.C. Cir. 1985)
(“[T]hose federal regulations adopted pursuant to a
clear congressional mandate that have the full force
and effect of law … have long been recognized as
part of the body of federal law.”). The Supreme Court
has emphasized that something is “prescribed by
law” when it includes binding requirements. Cf.
United States v. Rodriquez, 553 U.S. 377, 390–91
(2008) (holding that the phrase “maximum term of
imprisonment … prescribed by law” refers to the
statutory maximum, not the maximum set by
sentencing guidelines, which do not bind a judge in
all circumstances). Consistent with the deep-rooted
conception of law as fixed and binding, I have not
found, nor did the plaintiffs cite, any case in which
the Supreme Court or this court has held that an
informal policy or protocol was prescribed by law.4
4

Judge Tatel argues that the four state execution protocols at

57a
In light of the FDPA’s requirement that the
manner of execution be prescribed by state “law,” the
district court’s expansive interpretation of Section
3596(a) fails because it includes state procedures
regardless of whether they are part of state “law.”
See Matter of Fed. Bureau of Prisons’ Execution
Protocol Cases, No. 12-CV-0782, 2019 WL 6691814,
at *6 (D.D.C. Nov. 20, 2019) (citing informal
execution policies from Texas, Missouri, and
Indiana). The FDPA simply does not require the U.S.
Marshal to follow aspects of a state execution
procedure that were not formally enacted or
issue in this case are in fact part of the “manner prescribed by
the law of the State” because they were adopted pursuant to
state statutes that “delegate to state prison officials the task of
developing specific execution procedures.” Dissenting Op. 2. In
other words, because “‘by law,’ each state directed its prison
officials to develop execution procedures, and ‘by law,’ those
officials established such procedures and set them forth in
execution protocols,” Judge Tatel contends that the protocols
are subsumed within the phrase “prescribed by … law.” Id. at
4–5. Yet neither the Supreme Court nor our court has ever
adopted such a capacious understanding of “law.” Instead, the
Supreme Court has directed that we ask whether a protocol has
the “force and effect of law,” Chrysler, 441 U.S. at 295–96, and
not everything an official does pursuant to his statutory
authority carries the force of law. For instance, agencies issue
interpretive rules pursuant to their statutory authority, yet
interpretive rules emphatically do not carry the force of law.
See, e.g., Perez v. Mortg. Bankers Ass’n, 575 U.S. 92, 97 (2015).
Indeed, the Supreme Court explicitly said in Chrysler that
neither “[a]n interpretive regulation [nor] general statement of
agency policy” can be considered an “authorization by law”
because they lack “the binding effect of law.” 441 U.S. at 315–16
(alterations omitted).

58a
promulgated. “[P]rescribed by the law of the State”
sets an outer boundary on what the federal
government must follow. On the other hand, the
statutory command also means that the federal
government cannot look only to the “method” of
execution prescribed by the state. The interpretation
adopted by Judge Katsas and the government does
not account for other details that might be included
in state law and formal regulations. While, as
discussed below, formal state law often specifies
little more than the method of execution, the federal
government is nonetheless bound by the FDPA to
follow the level of detail prescribed by state law.5
The textual context of Section 3596(a) supports
this interpretation. Section 3596(a) provides that the
Marshal “shall supervise implementation of the
sentence in the manner prescribed by the law of the
State.” 18 U.S.C. § 3596(a) (emphasis added). This
broad language encompasses more than earlier
federal death penalty statutes, which incorporated
state law only to define the “manner of inflicting the
5

Judge Katsas claims that the “participial phrase ‘prescribed
by the law of the State’ functions as an adjective,” and
adjectives usually “do not expand the meaning of the noun they
modify.” Concurring Op. 19 (Katsas, J.). This argument begs
the question: It makes sense only if we presume that the word
“manner” refers exclusively to the general method. But there is
no evidence of such an exclusive meaning. Rather, as cases and
statutes demonstrate, the word “manner” is broad enough to
encompass execution procedures at every level of generality.
The phrase “prescribed by the law of the State” actually
narrows the meaning of the word “manner.” Thus, my reading
is consistent with the most common grammatical function of a
participial phrase.

59a
punishment of death.” See An Act to Provide for the
Manner of Inflicting the Punishment of Death § 323,
50 Stat. 304, 304 (June 19, 1937); An Act for the
Punishment of Certain Crimes § 33, 1 Stat. 112, 119
(Apr. 30, 1790). The ordinary meaning of
“implementation of the sentence” includes more than
“inflicting the punishment of death.” The latter
refers to the immediate action of execution, whereas
“implementation of the sentence” suggests additional
procedures involved in carrying out the sentence of
death.6
In the death penalty context, the term
“implementation” is commonly used to refer to a
range of procedures and safeguards surrounding
executions, not just the top-line method of execution.
This is true of DOJ’s regulations, which were
promulgated during a period when no statute
specified procedures for the federal death penalty.
DOJ’s 1993 execution regulation bears the title,
“Implementation of Death Sentences in Federal
Cases.” See 58 Fed. Reg. 4,898 (Jan. 19, 1993). That
regulation governs very minute aspects of
executions, including the “[d]ate, time, place, and
method,” whether and when the prisoner has access
to spiritual advisors, and whether photographs are
allowed during the execution. Id. at 4,901–902.
Likewise, the 2019 addendum to DOJ’s execution
protocol, which governs some of the procedures at
6

Compare Implementation Plan, Black’s Law Dictionary
(10th ed. 2014) (“An outline of steps needed to accomplish a
particular goal.”), with Inflict, Merriam-Webster’s Collegiate
Dictionary (11th ed. 2014) (“[T]o cause (something unpleasant)
to be endured.”).

60a
issue in this case, is titled, “Federal Death Sentence
Implementation Procedures.” Department of Justice,
Addendum to BOP Execution Protocol, Federal
Death Sentence Implementation Procedures 1 (July
25, 2019) (“BOP Addendum”). As with the 1993
regulation, the addendum governs minute details,
such as the numbering and labeling of syringes. Id.
at 2. According to DOJ regulations and protocols, all
of these details fall under the umbrella of
implementing a death sentence. The breadth of the
term “implementation” further undermines the
government’s narrow interpretation that “manner”
means only the “method” of execution, irrespective of
the requirements of state law.
An
interpretation
requiring
the
federal
government to follow all procedures prescribed by
state statutes and formal regulations, but no more,
similarly coheres with the statute’s directive that the
Marshal “supervise” implementation of the sentence.
18 U.S.C. § 3596(a). To “supervise” is to
“superintend” or “oversee.” See Supervise, Merriam
Webster’s Collegiate Dictionary (11th ed. 2014). The
concept of supervision does not fit with DOJ’s
position that it may establish a uniform protocol for
all procedures short of the method of execution
specified by state law. In the context of executing the
law, supervision must occur within legal boundaries.
While supervision often includes a degree of
discretion, it does not include authority to create new
law or to act in contravention of law. See Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 588 (1952)
(emphasizing that “the President’s power to see that
the laws are faithfully executed” does not include the

61a
power to “make laws which the President is to
execute”). Elsewhere, Congress used more active
language. In the 1937 statute, for instance, the
Marshal was “charged with the execution of the
sentence,” 50 Stat. at 304, and other provisions of the
FDPA refer to “carr[ying] out” an execution. See 18
U.S.C. § 3596(b), (c). Congress’s choice in Section
3596(a) to provide only that the Marshal will
“supervise” implementation hardly suggests that
DOJ was given the authority to dictate nearly every
aspect of the execution procedure regardless of what
state law prescribes.
At the same time, the statute’s use of “supervise”
suggests that the Marshal enjoys a certain degree of
discretion in the absence of state law on a particular
question. If the FDPA had provided only that the
Marshal “shall implement” the sentence according to
state law, there would be less support for the idea
that the Marshal has discretion to fill gaps in a
state’s execution law. Instead, the statute affords the
Marshal a measure of supervisory discretion within
the bounds of state law.
The FDPA specifies one exception to the general
rule that the federal government must follow state
law—the federal government may choose state or
federal facilities for executions, irrespective of state
law. Section 3597(a) addresses the question of where
executions will take place and which facilities the
Marshal may use. It provides that the Marshal “may
use appropriate State or local facilities,” so long as
the Marshal “pay[s] the costs thereof.” 18 U.S.C.
§ 3597(a). This language establishes that the
Marshal has discretion to choose between state and

62a
federal facilities, notwithstanding any state law
requiring executions in a particular location. Under
familiar canons of construction, the more specific
provision controls the general. See RadLAX Gateway
Hotel, LLC v. Amalgamated Bank, 566 U.S. 639, 645
(2012) (noting this canon “is a commonplace of
statutory construction” (citation omitted)). Section
3596(a) directs the government to follow a state’s
death penalty law generally, while Section 3597(a) is
best read as an exception, specifying one aspect of
the execution process by allowing the federal
government a choice of location. See id.7
Finally, this fuller reading of the statutory text
coheres with the FDPA and the apparent balance
Congress struck between providing for a federal
death penalty and respecting provisions of state law.
If “prescribed by the law of the State” includes only a
state’s statutes and formal regulations, the Marshal
will be able to identify the requirements of state law.
Nothing in the FDPA suggests that the federal
government must incorporate most or all procedures
and practices found in a state’s informal execution
policies, which could raise practical, and perhaps
insurmountable, difficulties to the implementation of
federal death sentences. For instance, at least some
state protocols are not publicly available. See Ark.
Code Ann. § 5-4-617(i)(1)(C). Others are “revised as
needed” through informal means. See Indiana State
Prison Facility Directive, ISP 06-26: Execution of
7

While it is true that Section 3597 is not written explicitly as
an exception, see Concurring Op. 13 (Katsas, J.), it provides
specific authority that supersedes the general reliance on state
law.

63a
Death Sentence 14 (Jan. 22, 2014). When Congress
used the term “prescribed by the law of the State,” it
did not mean secret policies and constantly changing
informal protocols.8
In this politically charged area, Congress enacted
a federalist scheme, incorporating state law as to the
“manner” of death penalty implementation, but only
for those execution procedures enacted or
promulgated by states as part of their binding law.
The FDPA leaves the federal government free to
specify details regarding execution procedures, as it
did in its protocol and addendum, subject to any
contrary requirements of state law.
B.
DOJ attempts to use previous federal death
penalty statutes to show that “manner” must mean
“method.” A review of these statutes, however,
demonstrates that Congress was at best silent as to
8

This interpretation is largely consistent with other courts to
have considered the issue. The Fifth Circuit upheld a death
sentence under an earlier version of DOJ’s protocol because
nothing in the protocol was “inconsistent with Texas law.”
United States v. Bourgeois, 423 F.3d 501, 509 (5th Cir. 2005).
The only source of law the court considered was Texas’s
criminal code, id., which does not provide for specific procedures
or designate a lethal substance. See Tex. Code Crim. Proc. Ann.
art. 43.14. Similarly, the District of Vermont held that a U.S.
Marshal is “to adopt local state procedures for execution,” but
the court looked only to state statutes in defining the state’s
procedures. See United States v. Fell, No. 5:01-CR-12-01, 2018
WL 7270622, at *4 (D. Vt. Aug. 7, 2018); but see Higgs v. United
States, 711 F. Supp. 2d 479, 556 (D. Md. 2010) (declining to
reach the Section 3596(a) question, but briefly suggesting in
dicta that “manner” refers only to lethal injection).

64a
whether the word had a specialized meaning. Prior
federal execution statutes support neither the
government’s “manner means method only”
interpretation, nor the plaintiffs’ “manner means
everything” interpretation. Rather, the history shows
Congress uses “manner” in its ordinary sense, such
that the scope of the term’s application depends on
the context.
There were only two federal statutes regulating
execution procedures prior to the FDPA, and neither
suggested that “manner” refers exclusively to general
methods. The first federal death penalty statute,
passed in 1790, read, “the manner of inflicting the
punishment of death, shall be by hanging the person
convicted by the neck until dead.” § 33, 1 Stat. at
119. That provision is entirely consistent with my
interpretation: Congress, using a broad word that
can refer to any level of generality, chose on that
occasion not to mandate further details. In another
section of the same statute Congress used the word
“manner” in a highly granular sense. The 1790
statute criminalized the maiming of a person in any
of
six
enumerated
“manners”—a
list
so
particularized that “slit[ting] the nose” and “cut[ting]
off the nose” were listed separately. § 13, 1 Stat. at
115. Reading the 1790 statute as a whole, Congress
used the word “manner” to refer to both general
methods and specific details, reinforcing that the
term “manner” in isolation has a flexible meaning
and must be read in context to determine the
appropriate level of specificity.
Judge Katsas argues that the 1790 statute should
be read against the backdrop of English common law.

65a
Concurring Op. 4 (Katsas, J.). As he notes,
Blackstone wrote that the punishment for many
capital crimes was to be “hanged by the neck till
dead.” 4 W. Blackstone, Commentaries on the Laws
of England 370 (1769). Notably, Blackstone does not
say that hanging by the neck was the “manner” of
execution. He says that hanging was the “judgment”
pronounced by the court. Id. Indeed, this passage
never uses the word “manner.” Later, Blackstone
wrote that a “sheriff cannot alter the manner of the
execution by substituting one death for another.” Id.
at 397. Nor could the king substitute one death for
another—for instance, by “altering the hanging or
burning into beheading.” Id. at 397–98. Nothing in
this passage suggests that the choice of general
method was the only detail encompassed by the term
“manner of the execution.” At most, this passage
shows that changing the general method was one
way to change the manner of execution.
Judge Katsas’s reliance on two Supreme Court
cases from the nineteenth century is similarly
unavailing. First, Wilkerson v. Utah, 99 U.S. 130
(1878), simply paraphrased the language of the 1790
statute, see id. at 133 (“Congress provides that the
manner of inflicting the punishment of death shall be
by hanging.”), so it adds no support for the narrow
reading of “manner.” Next, Judge Katsas argues that
the Supreme Court used “manner” and “method”
interchangeably in Kemmler, 136 U.S. 436. Yet
nothing in the Court’s opinion indicates that the two
terms are synonymous. To the contrary, the opinion
strongly suggests that the term “manner”
encompasses more than the general method. In

66a
rejecting a petition for habeas corpus, the Court
quoted the New York Court of Appeals at length,
including its conclusion that the general method of
electrocution is painless—not necessarily as a
general matter, but when performed “under such
conditions and in the manner contemplated by the
statute.” Id. at 443–44 (“[T]he application of
electricity to the vital parts of the human body,
under such conditions and in the manner
contemplated by the statute, must result in
instantaneous, and consequently in painless, death.”
(citation omitted)). The term “manner” in that
sentence must refer to details more specific than the
general method of electrocution. Id.9 Even if at points
Wilkerson and Kemmler refer to hanging and
electrocution as manners of execution, they are still
consistent with the ordinary meaning of “manner,”
which can refer to the general and the specific. It is
not unusual for courts to refer to hanging or lethal
injection as manners of execution, just as courts
commonly use “manner” to refer to specific details of
an execution procedure. See supra at 4–5.

9

I agree with Judge Katsas that the level of detail in the New
York statute is not relevant in itself. Concurring Op. 6 n.2
(Katsas, J.); see also Chapter 489, Laws of the State of New
York §§ 492, 505–07 (June 4, 1888) (regulating execution
timing, location, and personnel, among other things). Indeed,
my analysis consistently maintains that the meaning of the
word “manner” does not change whenever a legislature chooses
to specify more or less detail in a given statute, whether a state
statute or the FDPA. Regardless of how detailed the statute
was, the Supreme Court in Kemmler used the word “manner” to
encompass more than the general method of electrocution. See
136 U.S. at 443–44.

67a
The government also relies on the 1937 statute to
argue that “manner” is used in the FDPA to refer
only to the method of execution. See DOJ Br. 21–22
(“Congress [in 1937] preserved the meaning of ‘the
manner’ as synonymous with ‘the method’ of
execution.”). In the 1937 statute, Congress shifted
away from the earlier federal death penalty regime
to one that required the federal government to adopt
whatever “manner” was “prescribed by the laws of
the State.” 50 Stat. at 304. The 1790 and 1937
statutes thus had different structures, one specifying
a single method of federal execution and the other
leaving the manner of execution to be determined by
state law. This fundamental change to the statutory
scheme undermines DOJ’s contention that Congress
forever settled the scope of federal death penalty
legislation in 1790 when it chose hanging as the
method of execution. Indeed, the fact that Congress
amended the legally operative text suggests that the
1937 Act did not use “manner” in precisely the same
way as the 1790 statute. See Hall v. Hall, 138 S. Ct.
1118, 1128 (2018) (stating that a statute “brings the
old soil with it” only when “obviously transplanted”);
Merrill Lynch, Pierce, Fenner & Smith Inc. v.
Manning, 136 S. Ct. 1562, 1578 (2016) (Thomas, J.,
concurring) (“[W]hen Congress enacts a statute that
uses different language from a prior statute, we
normally presume that Congress did so to convey a
different meaning.”). Statutory predecessors can help
us to interpret a modern statute, but we must
respect the changes Congress enacted.
For the same reasons discussed with respect to
the FDPA, the phrase “manner prescribed by the

68a
laws of the State” in the 1937 statute is best read as
referring to all execution procedures found in the
state’s “law.” In practice, moreover, the federal
government incorporated more than the state’s
method of execution when it carried out executions
under the 1937 statute. The government concedes
that nearly all executions conducted under the 1937
statute took place in state facilities. Oral Argument
at 3:30. Presumably, those executions were carried
out in accordance with state law and possibly with
other state procedures. DOJ notes that three
executions under the 1937 statute took place in
federal facilities, but DOJ is unable to identify a
single way in which the executions were otherwise
inconsistent with state law. As in the FDPA, the
1937 statute gave the U.S. Marshal discretion over
the choice of facilities. See 50 Stat. at 304. Thus, the
choice of a federal location does not undermine the
requirement that the manner of execution follow
whatever details are prescribed by state law.
Not only did the federal government perform the
vast majority of executions in state prisons, DOJ has
suggested on several occasions that it understood the
1937 statute to require compliance with state
procedures. In its 1993 protocol, DOJ hypothesized
that Congress might have repealed the 1937 statute
because it “no longer wanted the federal method of
execution dependent on procedures in the states,
some of which were increasingly under constitutional
challenge.” 58 Fed. Reg. at 4,899 (discussing repeal
of the 1937 statute in 1984). Similarly, Attorney
General Janet Reno wrote shortly before the FDPA’s
enactment that the bill “contemplate[s] a return to

69a
an earlier system in which the Federal Government
does not directly carry out executions, but makes
arrangements with states to carry out capital
sentences in Federal cases.” See H.R. Rep. No. 10423, at 22 (1995) (quoting Letter from Attorney
General Janet Reno to Hon. Joseph R. Biden, Jr., at
3–4 (June 13, 1994)). While such sources are not
determinative of the meaning of the FDPA, they
demonstrate that the Department’s narrow
interpretation of the statute has hardly been
consistent.10
Despite rejecting DOJ’s historical evidence, I
start from the same fundamental principle: that we
should not “depart from the original meaning of the
statute at hand.” New Prime Inc. v. Oliveira, 139 S.
Ct. 532, 539 (2019). As explained, the meaning of the
word “manner” has always been broad, and its
application has always depended on context. DOJ,
however, asks us to go beyond established canons of
10

Judge Katsas also argues that between 1790 and 1937,
“nobody [was] focused on subsidiary procedural details in the
legal or policy debates over [] various execution methods.”
Concurring Op. 7 (Katsas, J.). Even assuming that assessment
is correct, it has no bearing on the broader sense of “manner” or
how it was used in the FDPA. This observation would be
relevant only to the meaning of “manner” in statutes that do
not specify the scope of the term’s application. For example, if
the FDPA said something like “the manner employed by the
state,” then we would have to determine, as Judge Katsas asks,
“the level of detail at which [Section 3596(a)] operates.” Id. at 1.
Yet the FDPA explicitly specifies the level of detail—it is the
level of detail “prescribed by the law of the State.” That leaves a
question of what is included in the “law of the state,” but it does
not leave open the level of generality regarding the manner of
execution.

70a
interpretation: Rather than apply the original, broad
sense of the word “manner,” DOJ argues that the
word should be deprived of its ordinary meaning
because Congress chose on a single occasion in 1790
to specify one level of detail. There is no support for
this novel approach.
In statutory interpretation as in ordinary usage, a
word can have a fixed meaning even if, in
application, it can refer to a variety of things. DOJ is
confusing the sense of the word “manner” with the
word’s reference. A word’s sense is its linguistic
meaning, while its reference is the “actual thing in
the world that the word picks out.” Christopher R.
Green, Originalism and the Sense-Reference
Distinction, 50 St. Louis U. L.J. 555, 563 (2006). A
single word with a fixed meaning can describe a wide
range of references, depending on the factual context
and how the word is used. See id. at 564; cf. ConFold
Pac., Inc. v. Polaris Indus., Inc., 433 F.3d 952, 957–
58 (7th Cir. 2006) (explaining that the term “unjust
enrichment” has multiple “referents” because it can
refer to several factually distinct circumstances in
which restitution is appropriate). 11 Rather than
explore what the word “manner” meant in 1790 (i.e.,
what sense it carried), DOJ focuses narrowly on
11

Judge Katsas’s only linguistic critique of the sensereference distinction is that sense and reference arguably
converge when dealing with proper names, Concurring Op. 8
n.3 (Katsas, J.), something that is completely irrelevant to this
case. We both agree with Justice Scalia (and Professor Green,
for that matter) that statutes have “a fixed meaning, which
does not change.” Id. That recognition does nothing to
undermine the commonly accepted distinction between a word’s
meaning and the thing the word refers to on a given occasion.

71a
which procedures Congress chose to require on one
occasion (i.e., the reference of “manner”). According
to DOJ, the word “manner” in 1994 cannot be broad
enough to refer to specific procedures unless the
1790 statute also referred to specific procedures. But
Congress’s choice not to specify details like the
length of the rope did not change the underlying
meaning of the word “manner.” The word “manner”
was broad enough in 1790 to encompass more than
the general method (as demonstrated by the statute’s
discussion of maiming), and the word retains that
broad sense today. There is simply no reason to
artificially cabin the word in later statutes so that it
refers only to the same kinds of procedures required
by Congress in 1790.
DOJ’s ahistorical reading is also flatly
inconsistent with the canons of interpretation
governing
incorporation.
When
Congress
incorporates a body of law in general terms, the
incorporating statute “develops in tandem with the”
body of law that was incorporated. Jam v. Int’l Fin.
Corp., 139 S. Ct. 759, 769 (2019); see also New Prime
Inc., 139 S. Ct. at 539; 2B Sutherland Statutory
Construction § 51:8 (7th ed.). For most of the last 80
years, Congress has chosen to incorporate state law
rather than specify a manner of execution. As Judge
Katsas explains, it was once true that most execution
statutes did not “prescribe subsidiary ‘procedural
details.’” Concurring Op. 6 (Katsas, J.). Today,
however, some “state statutes and regulations do
contain many granular details.” Id. at 21. When a
state legislature chooses to define the manner of
execution in more detail than was common in older

72a
statutes, the FDPA directs the federal government to
follow suit. See New Prime Inc., 139 S. Ct. at 539
(explaining that statutes incorporating a general
body of law must be read to incorporate “later
amendments and modifications”).12
The historical record is likewise inconsistent with
the plaintiffs’ assertion that the FDPA does not allow
DOJ to adopt nationwide procedures. See Plaintiffs’
Br. 23–24. It is true that Congress in 1937 replaced a
uniform, nationwide approach with a requirement
that the federal government follow the sentencing
state’s manner of execution. Nevertheless, neither
the 1937 statute nor the FDPA requires that the
federal government follow state practices not
prescribed by law. The statutory history thus says

12

Failing to find support in the FDPA’s text, history, or
practice, DOJ tries to prop up its arguments with the 1937
statute’s legislative history. This legislative history, however,
did not run the Article I, section 7, gauntlet, and cannot
determine a statute’s meaning. Even for those who find
legislative history persuasive, the evidence is thin. DOJ
explains that the House Judiciary Committee twice used the
word “method” to refer to executions by hanging, electrocution,
and gas. H.R. Rep. No. 75-164, at 1 (1937). DOJ argues that
because the Committee changed the word “method” to “manner”
in the statute, it must have understood the two words to be
synonymous. Yet the legislative history is silent about why the
Committee made that choice in the final text of the FDPA. If we
are playing the legislative history guessing game, another
inference is perhaps more likely: that Congress chose to use a
different word in order to convey a different meaning. Cf. Allina
Health Servs. v. Price, 863 F.3d 937, 944 (D.C. Cir. 2017).
Ultimately, however, legislative history is not the law, and the
history from 1937 tells us little about what the 1937 statute
meant, much less what the 1994 FDPA means.

73a
nothing about whether the Department can create
uniform procedures to fill gaps in state law, as the
protocol and addendum do in this case.
In sum, the historical evidence does not suggest
the term “manner” has the narrow meaning pressed
by DOJ; neither does it support the plaintiffs’
conclusion that the federal government may not
create national procedures that govern in the
absence of any state law. Rather, for over 200 years,
Congress has used the term “manner” flexibly, with
the word’s scope clarified by additional specifying
language—“hang[ing] by the neck,” slit[ting] the
nose, and “prescribed by the law of the State.” In
light of this history, the best interpretation follows
the plain meaning of the FDPA, which specifies that
“manner” is whatever is prescribed by state law. This
interpretation respects Congress’ decision to create a
federal death penalty that relies on federalism. The
FDPA requires DOJ to follow the procedures set
forth in state laws and regulations but does not
foreclose federal protocols that apply in areas not
addressed by state law.
C.
The Department raises a parade of horribles if
“manner” is read to include more than the method of
execution. Specifically, DOJ argues that a broader
reading will make it much more difficult to execute
prisoners and will leave the federal government
unable to choose the most humane execution
procedures. The government’s purpose-driven
arguments rely on broad policy goals and practical
difficulties, rather than the plain meaning of the

74a
text. These policy arguments, however valid, cannot
overcome Congress’s plain choice in the FDPA to
allow the manner of execution to turn on state law.13
DOJ’s concerns are rooted in what the
Department deems to be the purposes of the FDPA.
DOJ Br. 15; see also Concurring Op. 13 (Katsas, J.)
(discussing one purpose of the FDPA “to ensure a
workable and expanded system of capital
punishment”). As a court, however, “our function [is]
to give the statute the effect its language suggests,”
not to further whatever “admirable purposes it might
be used to achieve.” Morrison v. Nat’l Australia Bank
Ltd., 561 U.S. 247, 270 (2010). DOJ urges us to give
the FDPA the interpretation producing what it
believes would be the most effective execution
regime, but to do so would ignore both the limited
nature of our judicial function and the realities of
legislative deliberation:
[N]o legislation pursues its purposes at all
costs. Deciding what competing values will or
will not be sacrificed to the achievement of a
13

Judge Katsas suggests that arguments about consequences
are relevant to “help resolve textual ambiguity.” Concurring Op.
16 n.8 (Katsas, J.). Yet the word “manner” as used in Section
3596 is not ambiguous. Rather, as already explained, the
ordinary meaning of the word “manner” is broad and flexible,
but as qualified in the FDPA, the “manner” of execution is
unambiguous: It is whatever “manner” is prescribed by
applicable state law. See supra at 6–8; see also Diamond v.
Chakrabarty, 447 U.S. 303, 315 (1980) (“Broad general
language is not necessarily ambiguous”). Speculations about
congressional intent are rarely illuminating, particularly when,
as here, the text of the statute provides the relevant level of
specificity.

75a
particular objective is the very essence of
legislative choice—and it frustrates rather
than
effectuates
legislative
intent
simplistically to assume that whatever
furthers the statute’s primary objective must
be the law.
Pension Ben. Guar. Corp. v. LTV Corp., 496 U.S. 633,
646–47 (1990) (citation and quotation marks
omitted).
In the FDPA, Congress incorporated state law
instead of directing DOJ to promulgate a uniform
protocol. This suggests that Congress was balancing
at least two competing values: the need to effectively
implement federal death sentences and an interest in
federalism. Perhaps Congress simply decided to duck
controversial specifics by leaving some questions to
state law. Whatever the reason, statutes strike a
bargain and must be enforced in their details, not in
their lofty goals. After all, “[i]f courts felt free to pave
over bumpy statutory texts in the name of more
expeditiously advancing a policy goal, we would risk
failing to take account of legislative compromises
essential to a law’s passage and, in that way, thwart
rather than honor the effectuation of congressional
intent.” New Prime Inc., 139 S. Ct. at 543 (quotation
marks and alterations omitted). We should decline
DOJ’s invitation to question the bargain Congress
struck here. To the extent more detailed state
statutes raise additional interpretive questions, that
is an unavoidable consequence of the incorporation of
state law. Unless and until Congress amends the
FDPA, DOJ is bound to “follow its commands as
written, not to supplant those commands with others

76a
it may prefer.” SAS Inst., Inc. v. Iancu, 138 S. Ct.
1348, 1355 (2018). We have no license to read into
the FDPA a limitation on “manner” that has no basis
in the text and to read out of the statute its
incorporation of state law.
In addition, DOJ’s policy concerns about
administrability would have applied with equal force
in 1937, when Congress first incorporated state law
to govern the manner of federal executions. See New
Prime Inc., 139 S. Ct. at 539 (“[I]t’s a fundamental
canon of statutory construction that words generally
should
be
interpreted
as
taking
their
ordinary ... meaning ... at the time Congress enacted
the statute.” (quotation marks omitted)). In 1937,
permissible execution methods varied significantly
across the country and included hanging,
electrocution, the gas chamber, and others. State
execution methods also differed, albeit to a lesser
extent, when the FDPA was passed in 1994. Thus,
even under DOJ’s interpretation that “manner”
means only method, until recently the federal
government would have had to apply varying
execution methods on a state-by-state basis. DOJ
claims that state-by-state administration is
unworkable, but state-by-state administration has
indisputably been a feature of this statutory
framework since 1937. A uniform method is possible
under DOJ’s interpretation only because all the
death penalty states have made independent choices
since the FDPA’s enactment to adopt the method of
lethal injection.
Similarly, the federal government has never had
absolute license to choose the most humane

77a
execution procedures. When Congress passed the
1937 statute, it chose state practice over hanging in
part because “[m]any States”—but not all—“use[d]
more humane methods of execution, such as
electrocution, or gas.” H.R. Rep. No. 75-164, at 1
(1937). Congress could have selected one of those
more humane methods instead of hanging, but it
chose to leave that decision to the states—many of
which continued to hang criminals. See Andres v.
United States, 333 U.S. 740, 745 (1948) (noting that
the “method of inflicting the death penalty” in
Hawaii in 1948 was “death by hanging”). Indeed,
some states continued to provide for hanging even
after the passage of the FDPA in 1994. See Baze, 553
U.S. at 43 n.1 (plurality opinion) (noting that New
Hampshire and Washington still allowed for hanging
in 2008). Even under DOJ’s interpretation of the
FDPA, the government may choose what it considers
to be the most humane procedures only when state
law does not provide for another method of
execution. Whatever the legitimacy of DOJ’s
concerns, they are necessary features of the statute
Congress enacted.14
14

Like the DOJ, Judge Tatel invokes the FDPA’s goal of
ensuring more humane executions, but to support the opposite
interpretation. He argues that reading “prescribed by the law of
the State” to exclude non-binding state execution protocols
would “defeat section 3596(a)’s purpose—to make federal
executions more humane by ensuring that federal prisoners are
executed in the same manner as states execute their own.”
Dissenting Op. 8. Yet that argument deprives the phrase
“prescribed by … law” of all meaning. If Congress had intended
the federal government to incorporate all of the state’s
execution procedures, it would have said so. Instead, Congress
chose to incorporate only the manner prescribed by state law.

78a
In any event, as a practical matter, my textual
interpretation of the FDPA mitigates many of the
concerns raised by the district court’s broad reading.
The FDPA’s reliance on state law leaves ample scope
for DOJ to follow its federal execution procedures
and protocols. Few of the procedural details cited by
the plaintiffs appear to carry the force of law, so the
federal government need not follow them. State
execution statutes tend to be rather brief, specifying
lethal injection without adding further details. For
example, none of the four states at issue in this case
have statutes precluding the use of pentobarbital.
See Tex. Code Crim. Proc. Ann. art. 43.14 (calling for
lethal injection without specifying which chemical to
be used); Ark. Code Ann. § 5-4-617 (allowing lethal
injection
using
either
a
barbiturate
like
pentobarbital or a three drug solution); Ind. Code §
35-38-6-1 (calling for lethal injection without
specifying which chemical must be used); Mo. Ann.
Stat. § 546.720 (calling for lethal injection without
specifying which chemical must be used).
Indeed, I have not been able to locate statutes or
formal regulations in any state that would prevent
the federal government from using pentobarbital, the
drug currently specified in DOJ’s protocol addendum.
In the rare cases where state law provides for a
particular substance, states generally either include
pentobarbital on the list of permitted substances, see
501 Ky. Admin. Regs. 16:330 (allowing either
pentobarbital or thiopental sodium), or include a
general provision allowing any equally effective
substance, see Utah Admin. Code r. 251-107-4
(providing for “a continuous intravenous injection,

79a
one of which shall be of a lethal quantity of sodium
thiopental or other equally or more effective
substance to cause death”).
More specific details are generally found in
informal state policies and protocols. Execution
protocols are exempted from many states’
administrative procedure acts, including their formal
rulemaking requirements. See, e.g., Ark. Code Ann.
§ 5-4-617(h); Middleton v. Mo. Dep’t of Corr., 278
S.W.3d 193, 195–97 (Mo. 2009); Porter v.
Commonwealth, 661 S.E.2d 415, 432–33 (Va. 2008);
Abdur’Rahman v. Bredesen, 181 S.W.3d 292, 312
(Tenn. 2005). Even in states that provide for formal
rulemaking, execution protocols tend to be informal
and non-binding. Consider Indiana, the state
designated by DOJ whenever the sentencing state
does not provide for the death penalty. Indiana
allows its department of corrections to adopt rules
under the state’s formal rulemaking provisions to
implement its execution statute. See Ind. Code § 3538-6-1(d). Yet the state’s current execution
procedures were not promulgated under that statute
and do not purport to carry the force of law. See
Indiana State Prison Facility Directive, ISP 06-26:
Execution of Death Sentence 14 (Jan. 22, 2014)
(noting that Indiana’s protocol is “revised as needed,”
not under the state’s formal rulemaking procedures,
but in accordance with the department of corrections’
policies). Similarly, both Arkansas’ and Missouri’s
protocols permit the director of the department of
corrections to modify certain aspects of the execution
procedures. See Missouri Department of Corrections,
Preparation and Administration of Chemicals for

80a
Lethal Injection 1 (Oct. 18, 2013); Arkansas Lethal
Injection
Procedure
3
(Aug.
6,
2015),
https://bit.ly/2ExLkTE. A state execution protocol
that explicitly allows the department of corrections
to depart from the protocol’s requirements on a caseby-case basis cannot be said to be binding. Given
that most details found in state execution protocols
are not prescribed by law, DOJ will be able to make
most
procedural
choices
regarding
federal
15
executions.
II.
Based on this interpretation of Section 3596(a), I
would hold that the 2019 protocol did not exceed the
government’s authority under the FDPA. As an
initial matter, the protocol is unlikely to conflict with
state law in most cases, as state laws usually
address execution procedures only in general terms.

15

Judge Tatel does not dispute that the four protocols at issue
were not promulgated through formal rulemaking procedures.
Instead, he attempts to cabin Chrysler’s holding to its facts,
ignores the consistent line of cases requiring “law” to have
binding effect, see supra at 7 (collecting cases), and makes a
general appeal to examining “context” when determining
whether a regulation issued outside a formal rulemaking
process constitutes “law.” Dissenting Op. 7–8. Judge Tatel,
however, fails to identify a single case supporting his theory
that non-binding protocols can qualify as “law” in any context—
despite the fact that, as Judge Tatel emphasizes, “prescribed by
law” or similar language appears at least 1,120 times in the
United States Code. Id. at 7. As the Court explained in
Chrysler, the question is simply whether these state protocols
are binding on state officials. Because these protocols do not
appear to have the binding force of law, they cannot be deemed
part of the “law of the State.”

81a
See supra at 24–26. Should cases arise in which the
protocol differs from state law—for example, in
states with more detailed regulations governing
executions, see, e.g., 501 Ky. Admin. Regs. 16:330;
Or. Admin. R. 291-024-0080—DOJ remains free to
depart from the federal protocol. Indeed, the protocol
provides explicitly that the Director may depart from
its procedures in the face of superseding legal
obligations—namely, when “necessary” to “comply
with specific judicial orders” or when “required by
other circumstances.” BOP Addendum 1; see also
Department of Justice, BOP Execution Protocol 4
(2019) (“Execution Protocol”) (“These procedures
should be observed and followed as written unless
deviation or adjustment is required ….”). In addition,
the protocol directs BOP to “make every effort … to
ensure the execution process … [f]aithfully adheres
to the letter and intent of the law.” Execution
Protocol 4–5. These provisions indicate that the
government must depart from the protocol as
necessary to “adhere to the letter and intent of” the
FDPA—including the requirement that the
government apply the manner of execution
prescribed by state law. Reading the protocol and
addendum as a whole suggests that DOJ must follow
state law, and not that the BOP Director is merely
granted “discretion.” Dissenting Op. 9. Because the
2019 protocol allows departures as needed to comply
with state law, it is consistent with the FDPA.
Judge Tatel casts this reading of the protocol’s
plain text as an improper effort to “rewrite the
protocol” to support an interpretation that the
government has not advanced. Dissenting Op. 10. As

82a
an initial matter, my interpretation requires no
revision—it rests on the words DOJ used in
promulgating its protocol. Moreover, “[o]ur duty in
conducting de novo review on appeal is to resolve the
questions of law this case presents.” Citizens for
Responsibility & Ethics in Wash. v. FEC, 892 F.3d
434, 440 (D.C. Cir. 2018). “When an issue or claim is
properly before the court, the court is not limited to
the particular legal theories advanced by the parties,
but rather retains the independent power to identify
and apply the proper construction of governing law.”
Kamen v. Kemper Fin. Servs., Inc., 500 U.S. 90, 99
(1991); see also U.S. Nat’l Bank of Or. v. Indep. Ins.
Agents of Am., Inc., 508 U.S. 439, 446–47 (1993).
Irrespective of the government’s litigation strategy,
the issue before us in this case is whether the 2019
protocol exceeds the government’s authority under
the FDPA, and it is entirely appropriate to conduct
an independent assessment of all relevant
materials—including, in particular, the text of the
protocol—in order to fulfill our duty to say what the
law is.
Because the district court’s order was premised
exclusively on the plaintiffs’ claim that the protocol
was “in excess of statutory … authority,” 5 U.S.C.
§ 706(2)(C), I would vacate the preliminary
injunction. I would further hold that the 2019
protocol is a “rule[ ] of agency organization,
procedure, or practice” exempt from the APA’s notice
and comment requirements. See 5 U.S.C. § 553(b).
The plaintiffs maintain we should not reach this
claim before the district court has considered it. It is
true that we ordinarily decline to resolve claims and

83a
arguments not addressed by the district court in
deciding a preliminary injunction motion. See
Sherley v. Sebelius, 644 F.3d 388, 397–98 (D.C. Cir.
2011). But if our holding on appeal makes a
conclusion “inevitable” then “we have power to
dispose [of a claim] as may be just under the
circumstances, and should do so to obviate further
and entirely unnecessary proceedings below.” Wrenn
v. Dist. of Columbia, 864 F.3d 650, 667 (D.C. Cir.
2017) (cleaned up); see also 28 U.S.C. § 2106
(granting appellate courts authority to “direct the
entry of … judgment … as may be just under the
circumstances”). The plaintiffs’ notice and comment
challenge rises and falls with the merits of their
FDPA claim—that the protocol is a procedural rule
follows inescapably from my conclusion that the
protocol does not exceed DOJ’s authority under the
FDPA. Because the issues are intertwined and the
plaintiffs’ notice and comment challenge fails under
my interpretation of the FDPA, it is entirely
unnecessary for the district court to address this
claim on remand.
“The critical feature of a procedural rule is that it
covers agency actions that do not themselves alter
the rights or interests of parties.” Nat’l Min. Ass’n,
758 F.3d at 250 (quotation marks omitted). By its
terms, the protocol does nothing to interfere with the
Marshal’s ability to comply with the FDPA or with
the plaintiffs’ right to have their sentences
implemented “in the manner prescribed by the law of
the State.” 18 U.S.C. § 3596(a). To the contrary, the
protocol simply lays out procedures for the federal
government to follow in cases where state law does

84a
not address some aspect of the execution process. It
directs the federal government in all cases “to ensure
the execution process … [f]aithfully adheres to the
letter and intent of the law,” Execution Protocol 4–5,
which necessarily includes following the FDPA’s
directive to implement death sentences in conformity
with state positive law. As such, the protocol cannot
be said to “impose [any] new substantive burdens,”
Aulenback, Inc. v. Fed. Highway Admin., 103 F.3d
156, 169 (D.C. Cir. 1997), or to “alter the rights or
interests of [affected] parties,” Nat’l Min. Ass’n, 758
F.3d at 250 (citation omitted)—rather, any
substantive burdens are derived from the FDPA and
the state laws it incorporates.
Moreover, the procedures outlined in the 2019
protocol bear all the hallmarks of “internal housekeeping measures organizing [DOJ’s] activities” with
respect to preparing for and conducting executions.
Am. Hosp. Ass’n v. Bowen, 834 F.2d 1037, 1045 (D.C.
Cir. 1987) (citation omitted). The protocol and
accompanying addendum provide lengthy “checklists
for pre-execution, execution and post execution
procedures,” Execution Protocol 4, including matters
as specific as arranging food services for an inmate’s
final meal, id. at 17, “open[ing] the drapes covering
the windows of the witness rooms” during an
execution, id. at 24, and announcing the time of
death “prior to the drapes being closed,” id. at 25.
DOJ’s decision to promulgate detailed “written
guidelines to aid [its] exercise of discretion” during
the highly sensitive process of conducting executions
should not come “at the peril of having a court
transmogrify those guidelines into binding norms

85a
subject to notice and comment strictures.”
Aulenback, 103 F.3d at 169 (citation and quotation
marks omitted). Because the protocol possesses the
essential features of a procedural rule, the plaintiffs’
notice and comment challenge also fails.
I would not reach the plaintiffs’ argument that
only the U.S. Marshal Service has the authority to
promulgate rules under the FDPA. The plaintiffs did
not develop this argument below, so it is forfeited.
See Gov’t of Manitoba v. Bernhardt, 923 F.3d 173,
179 (D.C. Cir. 2019) (“Absent exceptional
circumstances, a party forfeits an argument by
failing to press it in district court.”).16 I would also
decline to reach the plaintiffs’ claims under the Food,
Drug & Cosmetic Act and the Controlled Substances
Act, which were neither addressed by the district
court nor pressed by the plaintiffs on appeal. Unlike
the notice and comment challenge to the protocol, the
outcome of the FDCA and CSA claims is not plainly
dictated by my interpretation of the FDPA. Thus, it
will be “for the district court to determine, in the first
instance, whether the plaintiffs’ showing on [these
claims] warrants preliminary injunctive relief.”
Sherley, 644 F.3d at 398.

16

The evidence Judge Katsas relies on to conclude that this
argument was not forfeited comes from a chart included in the
factual background section of one plaintiff’s preliminary
injunction motion, summarizing the “Details of 2019 Protocol
and Concerns That Are Implicated.” See Pl.’s Mot. for Prelim.
Inj., Roane v. Barr, No. 19-mc-0145, at 10 (D.D.C. Sept. 27,
2019). Such “fleeting reference[s]” do not a developed legal
argument make. Williams v. Lew, 819 F.3d 466, 471 (D.C. Cir.
2016).

86a
TATEL, Circuit Judge, dissenting: Plaintiffs
Daniel Lee, Wesley Purkey, Alfred Bourgeois, and
Dustin Honken do not challenge the federal
government’s authority to execute them. Instead,
they argue that the Attorney General’s plan for their
executions—that is, the federal protocol—conflicts
with section 3596(a) of the Federal Death Penalty
Act of 1994 (FDPA), 18 U.S.C. §§ 3591 et seq. Section
3596(a) instructs U.S. Marshals to carry out federal
death sentences by arranging for prisoners to be
executed “in the manner prescribed by the law of the
State” in which they were sentenced—or, if that
state has no death penalty, the law of “another
State” “designate[d]” by the sentencing judge. Id.
§ 3596(a). Notwithstanding its weighty subject
matter, then, this case presents a classic question
under the Administrative Procedure Act: whether an
agency has acted “in accordance with law.” 5 U.S.C.
§ 706(2)(A).
In defending the federal protocol, the government
argues that the word “manner” in section 3596(a)
refers only to the general execution method—e.g.,
lethal injection—not, as plaintiffs argue, to the
procedures and techniques used to implement that
method, e.g., substance administered or dosage.
Because the government seeks no deference to its
interpretation of the statute, see Oral Arg. Rec. 5:57–
6:00 (confirming this), to prevail it must demonstrate
not merely that its interpretation of section 3596(a)
is reasonable, but that it “best effectuates the
underlying purposes of the statute.” Vanguard
Interstate Tours, Inc. v. ICC, 735 F.2d 591, 597 (D.C.
Cir. 1984).

87a
I agree with Judge Rao that the term “manner”
refers to more than just general execution method.
Because her detailed opinion so thoroughly
addresses the government’s arguments and
convincingly responds to Judge Katsas’s survey of
the historical record, I see no need to say anything
more on the issue.
Beyond this, Judge Rao and I part company. She
would hold that when carrying out executions under
section 3596(a), the Attorney General must comply
with state execution procedures set forth in “statutes
and formal regulations,” but not those in state
execution protocols. Rao Op. at 1. She also reads the
federal protocol to contain a “carveout” “indicat[ing]
that the government must depart from the protocol
as necessary to . . . apply the manner of execution
prescribed by state law.” Id. at 1, 29. The
government, however, makes neither argument, and
the protocol contains no such carveout. In my view,
section 3596(a), best understood, requires federal
executions to be carried out using the same
procedures that states use to execute their own
prisoners—procedures set forth not just in statutes
and regulations, but also in protocols issued by state
prison officials pursuant to state law. Because the
federal protocol, on its face, takes no account of these
procedures, it is contrary to section 3596(a), and I
would vacate it. See 5 U.S.C. § 706(2)(A), (C)
(requiring courts to “hold unlawful and set aside
agency action . . . found to be . . . not in accordance
with law” or “in excess of statutory jurisdiction,
authority, or limitations, or short of statutory right”).

88a
A.
Plaintiffs were sentenced to be executed “in the
manner prescribed by the law,” 18 U.S.C. § 3596(a),
of Arkansas, Missouri, Texas, and Indiana,
respectively. All four states have enacted statutes
that establish lethal injection as the method of
execution and delegate to state prison officials the
task of developing specific execution procedures.
Pursuant to these statutes, state officials have
adopted execution protocols that designate, among
other things, the chemicals to be administered,
dosages,
procedures
for
vein
access,
and
qualifications of execution personnel. State officials
adopt such protocols not just to comply with state
law, but also to ensure that executions comply with
the Constitution. Cf. Baze v. Rees, 553 U.S. 35, 55–56
(2008)
(plurality
opinion)
(rejecting
Eighth
Amendment method-of-execution challenge “in light
of” “important safeguards” contained in state
execution protocol, including “that members of the
[intravenous] team . . . have at least one year of
professional experience” and specific vein-access
procedures); Raby v. Livingston, 600 F.3d 552, 560
(5th Cir. 2010) (rejecting Texas inmate’s Eighth
Amendment claim because state execution protocol
“mandates . . . that sufficient safeguards are in place
to reduce the risk of pain below the level of
constitutional significance”).
For example, Texas’s governing statute requires
condemned prisoners to be “executed . . . by
intravenous injection . . . , [with] such execution
procedure to be determined and supervised by the
director of the correctional institutions division of the
Texas Department of Criminal Justice.” Tex. Code

89a
Crim. Proc. Ann. art. 43.14(a). Pursuant to that
statute, the Director “adopt[ed]” an “Execution
Procedure,” under which “100 milliliters of solution
containing 5 grams of Pentobarbital” “shall be
mixed . . . by members of the drug team,” which, in
turn, “shall have at least one medically trained
individual,” a term defined in the protocol. Texas
Department of Criminal Justice, Correctional
Institutions Division, Execution Procedure 2, 7–8
(Apr. 2019), Administrative Record (A.R.) 84, 89–90.
The protocol further requires that intravenous lines
be inserted by “a medically trained individual” who
“shall take as much time as is needed” to do so
“properly,” and who is prohibited from employing a
“cut-down” technique, a surgical procedure that
exposes the vein. Id. at 8, A.R. 90.
The governing Missouri statute “authorize[s] and
direct[s]” “the director of the department of
corrections . . . to provide a suitable and efficient
room or place . . . and the necessary appliances” for
carrying out lethal injections and requires “[t]he
director . . . [to] select an execution team.” Mo. Rev.
Stat. § 546.720.1–2. Pursuant to that statute, the
Director issued a protocol requiring prisoners to be
executed
using
two
five-gram
doses
of
pentobarbital—quantities that “may not be changed
without prior approval of the department director”—
which “shall be injected into the prisoner . . . under
the observation of medical personnel,” namely, “a
physician, nurse, and pharmacist.” Missouri
Department of Corrections, Preparation and
Administration of Chemicals for Lethal Injection 1–2
(Oct. 18, 2013), A.R. 70–71.
The other two states—Arkansas and Indiana—

90a
have similar statutory schemes. See Ark. Code Ann.
§ 5-4-617 (“The director [of the Department of
Correction] shall develop logistical procedures
necessary to carry out the sentence of death,
including . . . [e]stablishing a protocol for any
necessary mixing or reconstitution of the drugs and
substances set forth in this section in accordance
with the instructions.”); Ind. Code § 35-38-6-1
(authorizing “[t]he department of correction [to]
adopt rules” to implement lethal-injection statute);
see also Kelley v. Johnson, 496 S.W.3d 346, 352 (Ark.
2016) (discussing Arkansas’s lethal injection
protocol); Department of Correction, Indiana State
Prison Facility Directive, ISP 06-26: Execution of
Death Sentence 16–17 (Jan. 22, 2014), Mot. for
Prelim. Inj. Barring the Scheduled Execution of Pl.
Dustin Lee Honken, Ex. 6, In the Matter of the
Federal Bureau of Prisons’ Execution Protocol Cases,
No. 19-mc-145 (D.D.C. Nov. 5, 2019).
The “law” of each state, then, requires executions
to be implemented according to procedures
determined by state corrections officials, who, in
turn, have set forth such procedures in execution
protocols. In other words, “by law,” each state
directed its prison officials to develop execution
procedures, and “by law,” those officials established
such procedures and set them forth in execution
protocols. Accordingly, the protocols have been
“prescribed by . . . law.” 18 U.S.C. § 3596(a).
Apparently agreeing, the government argues that
interpreting “manner” to mean more than “method,”
as Judge Rao and I do, would require it to use the
same drugs as the states—drugs “prescribed” in the
relevant states’ protocols, not in their statutes. See

91a
Appellants’ Br. 29. Indeed, at oral argument
government counsel rejected the notion that “the law
of the State” excludes execution protocols, calling it
“incongruous to think that Congress thought the
degree of federal control over how to implement . . . a
federal execution was going to depend on the
happenstance of exactly where in its law or
regulation or sub-regulatory guidance a state chose
to write out very detailed procedures.” Oral Arg. Rec.
39:12–32.
Were there any doubt about this, “the natural
way to draw the line is in light of the statutory
purpose,” Rose v. Lundy, 455 U.S. 509, 517 (1982)
(internal quotation marks and citation omitted), and
here, interpreting section 3596(a) to include state
execution protocols “best effectuates the underlying
purposes of the statute,” Vanguard Interstate Tours,
735 F.2d at 597. As Judge Rao points out, section
3596(a) replicates nearly word-for-word the statute
that governed federal executions from 1937 to 1984.
Like the FDPA, that statute required executions to
be carried out in “the manner prescribed by the laws
of the State within which the sentence [wa]s
imposed,” or, if that state had no death penalty,
another state designated by the sentencing court. Act
of June 19, 1937, ch. 367, 50 Stat. 304 (repealed
1984) (“1937 Act”). Central to the issue before us,
Congress passed the 1937 Act because the states
were undertaking serious efforts to make executions
more humane. See H.R. Rep. 75-164 at 2 (1937)
(letter from Attorney General Homer Cummings)
(advising Congress that states “have adopted more
humane methods” of execution than hanging and
recommending that “the Federal Government

92a
likewise . . . change its law in this respect”); see also
Stuart Banner, The Death Penalty: An American
History 171 (2002) (explaining that, as early as the
1830s, states had begun experimenting with
execution procedures, endeavoring to “minimize the
condemned person’s pain”). Accordingly, almost all
federal executions pursuant to the 1937 Act were
carried out by state officials, who, supervised by U.S.
Marshals, executed federal prisoners in the same
“manner” as they executed their own. See Oral Arg.
Rec. 15:00–03 (government counsel agreeing that
most executions pursuant to the 1937 Act were
carried out in state facilities); David S. Turk, Forging
the Star: The Official Modern History of the United
States Marshals Service 23–24 (2016) (describing
how the U.S. Marshal arranged for Ethel and Julius
Rosenberg to be executed at Sing-Sing Correctional
Facility, then home to New York state’s death row
and electric chair).
By using virtually identical language in FDPA
section 3596(a), Congress signaled its intent to
continue the same system—for federal executions to
be carried out in the same manner as state
executions. See Lorillard v. Pons, 434 U.S. 575, 580
(1978) (“Congress is presumed to be aware of an
administrative . . . interpretation of a statute and to
adopt that interpretation when it re-enacts a statute
without change.”). Given this, reading section
3596(a) to exclude state execution protocols, which
set forth the very procedures states use to carry out
executions humanely, would run contrary not only to
section 3596(a)’s “‘ultimate purpose[]’” of ensuring
more humane executions, but also to “‘the means
[Congress] has deemed appropriate . . . for the

93a
pursuit of [that] purpose[]’”—requiring federal
prisoners to be executed in the same manner as
states execute their own. Gresham v. Azar, 950 F.3d
93,
101
(D.C. Cir.
2020)
(quoting
MCI
Telecommunications Corp. v. American Telephone &
Telegraph Co., 512 U.S. 218, 231 n.4 (1994)). And at
least as recently as 2008, the states have “by all
accounts” “fulfilled” their “role . . . in implementing
their execution procedures . . . with an earnest desire
to provide for a progressively more humane manner
of death.” Baze, 553 U.S. at 51.
Judge Rao argues that state execution protocols
are not “prescribed by . . . law” within the meaning of
section 3596(a) because they are not “formal
regulations.” Rao Op. at 1. In support, she cites
Chrysler Corp. v. Brown, 441 U.S. 281 (1979), in
which the Supreme Court considered a provision of
the Trade Secrets Act that protected confidential
information by prohibiting its disclosure unless
“‘authorized by law,’” id. at 294 (quoting 18 U.S.C. §
1905). The Court held that a regulation issued
pursuant to an agency’s “housekeeping” statute and
without notice-and-comment procedures did not
qualify as “law” under the Act. Id. at 309–16. From
this, Judge Rao concludes that the word “law” in
FDPA section 3596(a) is limited to regulations issued
pursuant to notice-and-comment procedures. See Rao
Op. at 7, 28 n.13.
By my count, the phrase “authorized by law” and
its twin sisters—“prescribed by law” and “prescribed
by the law”—appear 1,120 times in the United States
Code, and the Supreme Court has repeatedly made
clear that, even within the same statute, “the
presumption of consistent usage ‘readily yields’ to

94a
context.” Utility Air Regulatory Group v. EPA, 573
U.S. 302, 320 (2014) (quoting Environmental Defense
v. Duke Energy Corp., 549 U.S. 561, 574 (2007)). In
Chrysler, moreover, it was only after closely
examining “evidence of legislative intent,” including
statutory text and legislative history, that the Court
limited “law” in the Trade Secrets Act to notice-andcomment regulations. 441 U.S. at 312. In other
words, context matters, and here context requires a
different result. Limiting “the manner prescribed by
the law of the State” to execution procedures
contained in statutes and in regulations issued
pursuant to notice and comment, and thereby
excluding those contained in state execution
protocols, would defeat section 3596(a)’s purpose—to
make federal executions more humane by ensuring
that federal prisoners are executed in the same
manner as states execute their own.
Judge Rao also argues that the Attorney General
need not follow state execution protocols because
they “do not appear to have the binding force of law,”
“leav[ing] the federal government free to specify” its
own procedures. Rao Op. at 2, 28 n.15. But whether
state execution protocols are binding under state law
has nothing to do with whether the Attorney General
has authority under federal law to issue a uniform
execution protocol. And as explained above, section
3596(a) shifts authority for determining how to
“implement” death sentences to the states, leaving
no comparable authority for the Attorney General.
Indeed, apart from the Attorney General’s authority
to establish procedures unrelated to “effectuat[ing]
the death,” see infra at 12, the statute assigns the
Attorney General just three narrow tasks: keeping

95a
custody of persons sentenced to death until they
exhaust their appeals, 18 U.S.C. § 3596(a); releasing
prisoners into Marshal custody for implementation of
their death sentences, id.; and approving the amount
Marshals may pay for the use of state facilities and
personnel, id. § 3597(a).
B.
Of course, the federal protocol’s failure to
incorporate state execution procedures would pose no
problem if, as Judge Rao believes, it contained a
“carveout,” “indicat[ing] that the government must
depart from the protocol as necessary to . . . apply
the manner of execution prescribed by state law.”
Rao Op. at 1, 29. But it does not. In relevant part,
the protocol states:
The procedures utilized by the [Bureau of
Prisons (BOP)] to implement federal death
sentences shall be as follows unless modified
at the discretion of the Director or his/her
designee, as necessary to (1) comply with
specific judicial orders; (2) based on the
recommendation of on-site medical personnel
utilizing their clinical judgment; or (3) as may
be required by other circumstances.
Department of Justice, Addendum to BOP Execution
Protocol, Federal Death Sentence Implementation
Procedures 1 (July 25, 2019) (emphasis added).
Far from requiring Marshals to follow state law,
this provision mentions neither state law nor section
3596(a), and it leaves the decision to “modif[y]”
protocol procedures to “the discretion” of the BOP
Director, id. Moreover, only the third justification for

96a
departing from the protocol—“other circumstances,”
id.—could possibly encompass inconsistent state law.
But the government—which, after all, wrote the
protocol—does not so argue. At most, the government
suggests that it could exercise its residual discretion
in accordance with state law, noting that “nothing in
the
federal
protocol
expressly
precludes”
“offer[ing] . . . a sedative” or having a physician
present. Appellants’ Br. 33 (referring to the two
differences between the federal protocol and the
relevant state protocols identified by the district
court).
Where, as here, agency action is challenged under
the Administrative Procedure Act, we can uphold the
action only on “[t]he grounds . . . upon which the
record discloses that [it] was based.” SEC v. Chenery
Corp., 318 U.S. 80, 87 (1943). Throughout this
litigation, the government has insisted that
requiring it to comply with state law would be
“perverse[],” Appellants’ Br. 19, and would
“hamstring” implementation of the federal death
penalty, Reply Br. 13. We have no authority to
rewrite the protocol to ensure it complies with the
FDPA. “[A]gency policy is to be made, in the first
instance, by the agency itself . . . . Courts ordinarily
do not attempt . . . to fashion a valid regulation from
the remnants of the old rule.” Harmon v.
Thornburgh, 878 F.2d 484, 494 (D.C. Cir. 1989). The
problem with Judge Rao’s interpretation of the
protocol, then, is not just that it represents an
“independent assessment” of the protocol’s meaning,
Rao Op. at 30, but more fundamentally that “it
sustains a rule which the agency has never adopted
at all,” Harmon, 878 F.2d at 495 n.20.

97a
C.
I end with a few observations about the
government’s defense of the protocol.
First, had Congress intended to authorize the
Attorney General to adopt a uniform execution
protocol, “it knew exactly how to do so.” SAS
Institute, Inc. v. Iancu, 138 S. Ct. 1348, 1355 (2018).
The year before Congress enacted the FDPA, thenAttorney General William Barr issued a regulation
setting lethal injection as the uniform federal
method of execution and authorizing the BOP
Director to determine which chemicals to use. See
Department of Justice, Implementation of Death
Sentences in Federal Cases, 58 Fed. Reg. 4898,
4901–02 (Jan. 19, 1993) (codified at 28 C.F.R. § 26.3)
(1993 Regulation). This regulation was a gap-filler:
several years earlier, Congress had repealed the
1937 Act, leaving unclear how federal executions
would be carried out. While Congress was
considering the bill that would become the FDPA,
General Barr’s successor, Attorney General Janet
Reno, warned that section 3596(a)’s “proposed
procedures contemplate a return to an earlier
system”—i.e., the 1937 Act—“in which the Federal
Government does not directly carry out executions,
but makes arrangements with states to carry out
capital sentences in Federal cases.” H.R. Rep. No.
104–23, at 22 (1995) (quoting Letter of Attorney
General Janet Reno to Honorable Joseph R. Biden,
Jr., Detailed Comments at 3–4 (June 13, 1994)). She
therefore recommended that Congress amend the bill
“to perpetuate the current approach”—i.e., the 1993
Regulation—“under which the execution of capital
sentences in Federal cases is carried out by Federal

98a
officials pursuant to uniform regulations issued by
the
Attorney
General.”
Id.
Despite
this
recommendation, “Congress didn’t choose to pursue
that known and readily available approach here. And
its choice”—to require executions to be carried out
according to state, not federal, law—“must be given
effect rather than disregarded.” SAS Institute, 138 S.
Ct. at 1356.
Second, the government argues that requiring it
to comply with state law would “preclud[e]” it “from
selecting more humane lethal-injection protocols
than those used by the states.” Appellants’ Br. 29. As
explained above, however, section 3596(a), like the
1937 Act, relies on the states, not the Attorney
General, to ensure that federal executions are
humane. Perhaps circumstances have changed and
authorizing the Attorney General to select lethal
substances, dosages, and injection procedures would
lead to more humane executions. That, however, “is a
decision for Congress and the President to make if
they wish by enacting new legislation.” Loving v.
IRS, 742 F.3d 1013, 1022 (D.C. Cir. 2014); see also
Rao Op. at 24. They have ready templates in the nine
bills Congress has considered and rejected in the
years since the FDPA’s enactment, every one of
which would have permitted federal executions to be
carried out “pursuant to regulations prescribed by
the Attorney General.” H.R. 2359, 104th Cong. § 1
(1995); see also H.R. 851, 110th Cong. § 6 (2007);
H.R. 3156, 110th Cong. § 126 (2007); S. 1860, 110th
Cong. § 126 (2007); H.R. 5040, 109th Cong. § 6
(2006); S. 899, 106th Cong. § 6504 (1999); H.R. 4651,
105th Cong. § 501 (1998); S. 3, 105th Cong. § 603
(1997); H.R. 1087, 105th Cong. § 1 (1997).

99a
Finally, the government argues that requiring it
to follow “every nuance” of state protocols “could
impose significant barriers to administering” the
federal death penalty. Appellants’ Br. 27. Plaintiffs,
however, do not contend that the government must
follow “every nuance.” Quite to the contrary, they
argue, and I agree, that section 3596(a) requires the
federal government to follow only “implementation”
procedures, 18 U.S.C. § 3596(a), which plaintiffs
define as those procedures that “effectuat[e] the
death,” Oral Arg. Rec. 1:01:06, including choice of
lethal substances, dosages, vein-access procedures,
and medical-personnel requirements, see id. 1:01:58–
1:05:25. To be sure, plaintiffs’ interpretation could
present courts with line-drawing challenges: is, for
example, color-coding syringes part of effectuating an
execution? But here we face no such challenges given
that the federal protocol fails to account for state
procedures that are obviously integral to
“implement[ing]” a death sentence, 18 U.S.C.
§ 3596(a).
In any event, if crafting a federal protocol
consistent with the FDPA proves too difficult, then
the Attorney General may, pursuant to section
3596(a), arrange for plaintiffs to be executed by the
relevant states—just as most federal prisoners have
been since 1937. See Oral Arg. Rec. 1:38:13–34
(plaintiffs’ counsel acknowledging as much). The
government fears that states could “block
implementation of a federal death sentence,”
Appellants’ Br. 28, but at oral argument government
counsel assured us that the government has no
evidence of state recalcitrance in this case, see Oral
Arg. Rec. 18:50–55 (responding “no” to the question

100a
whether there “is any evidence of” “obstructionism”
“in this case”). And if such problems do come to
pass—that is, if section 3596(a)’s incorporation of
state procedures creates obstacles for federal
executions—then Congress will have all the more
reason to revise the statute. Until it does, this court
must enforce section 3596(a) as written. “[I]t is never
our job to rewrite . . . statutory text under the banner
of speculation about what Congress might have done
had it faced a question that, on everyone’s account, it
never faced.” Henson v. Santander Consumer USA
Inc., 137 S. Ct. 1718, 1725 (2017).

101a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_________
In the Matter of the Federal Bureau of Prisons’
Execution Protocol Cases,
LEAD CASE: Roane et al. v. Barr
_________
THIS DOCUMENT RELATES TO:
Bourgeois v. U.S. Dep’t of Justice, et al.,
12-cv-0782
Lee v. Barr, 19-cv-2559
Purkey v. Barr, et al., 19-cv-03214
_________
Case No. 19-mc-145 (TSC)
_________
MEMORANDUM OPINION
On July 25th of this year, the U.S. Department of
Justice (“DOJ”) announced plans to execute five
people. See Press Release, Dep’t of Justice, Federal
Government to Resume Capital Punishment After
Nearly Two Decade Lapse (July 25, 2019),
https://www.justice.gov/opa/pr/federal-governmentresume-capital-punishment-after-nearly-two-decadelapse. The DOJ intends to execute Daniel Lewis Lee
on December 9, 2019; Lezmond Mitchell on

102a
December 11, 2019; Wesley Ira Purkey on December
13, 2019; Alfred Bourgeois on January 13, 2020; and
Dustin Lee Honken on January 15, 2020. Id. To
implement these executions, the Federal Bureau of
Prisons (“BOP”) adopted a new execution protocol:
the “2019 Protocol.” Id; (ECF No. 39-1
(“Administrative R.”) at 1021–1075).
Four of the five individuals with execution dates1
(collectively, “Plaintiffs”), have filed complaints
against
the
DOJ
and
BOP
(collectively,
“Defendants”), alleging that the 2019 Protocol is
unlawful and unconstitutional on numerous
grounds.2 See Purkey v. Barr, 19-cv-03214 (D.D.C.),
Doc. # 1 (Oct. 25, 2019); Lee v. Barr, 1:19-cv-02559
(D.D.C.), Doc. #1 (Aug. 23, 2019); Bourgeois v. U.S.
Dep’t of Justice, et al., 1:12-cv-00782 (D.D.C.), Doc.
# 1 (May 5, 2012); ECF. No. 38 (“Honken Compl.”).
The court consolidated the cases and ordered
Plaintiffs to complete the necessary 30(b)(6)
depositions on or before February 29, 2020 and to
amend their complaints on or before March 31, 2020.
1
2

Mitchell has not filed a complaint in this court.

Bourgeois’ complaint was filed in 2012 and relates to a
separate execution protocol. See Bourgeois v. U.S. Dep’t of
Justice, et al., 1:12-cv-00782 (D.D.C.), Doc. # 1 (May 5, 2012). In
addition, his Motion for Preliminary Injunction (ECF. No. 2
(“Bourgeois Mot. for Prelim. Inj.”)) does not articulate his bases
for a preliminary injunction, but instead argues that a
preliminary injunction is warranted because the plaintiffs in
the Roane litigation were granted a preliminary injunction.
Despite the shortcomings of Bourgeois’ briefing, this court has
determined that he meets the requirements of a preliminary
injunction, as do the three other plaintiffs in the consolidated
case, whose motions are fully briefed.

103a
(See ECF No. 1 (“Consolidation Order”); Min. Entry,
Aug. 15, 2019.) Because Plaintiffs are scheduled to
be executed before their claims can be fully litigated,
they have asked this court, pursuant to Federal Rule
of Civil Procedure 65 and Local Rule 65.1, to
preliminarily enjoin the DOJ and BOP from
executing them while they litigate their claims. (ECF
No. 34 (“Purkey Mot. for Prelim. Inj.”); ECF No. 29
(“Honken Mot. for Prelim. Inj.”); ECF No. 13 (“Lee
Mot. for Prelim. Inj.”); ECF No. 2 (“Bourgeois Mot.
for Prelim. Inj.”)) Having reviewed the parties’
filings, the record, and the relevant case law, and for
the reasons set forth below, the court hereby
GRANTS Plaintiffs’ Motions for Preliminary
Injunction.
I. BACKGROUND
Beginning in 1937, Congress required federal
executions to be conducted in the manner prescribed
by the state of conviction. See 50 Stat. § 304 (former
18 U.S.C. 542 (1937)), recodified as 62 Stat. § 837
(former 18 U.S.C. 3566). After the Supreme Court
instituted a de facto moratorium on the death
penalty in Furman v. Georgia, 408 U.S. 238, 239–40
(1972), and then lifted it in Gregg v. Georgia, 428
U.S. 153, 187 (1976), Congress reinstated the death
penalty for certain federal crimes but did not specify
a procedure for implementation. See Anti-Drug
Abuse Act of 1988, Pub. L. 100–690, § 7001, 102 Stat.
4181 (enacted Nov. 18, 1988). Four years later, under
the direction of then-Attorney General William Barr,
the DOJ published a proposed rule to establish a
procedure
for
implementing
executions.
Implementation of Death Sentences in Federal
Cases, 57 Fed. Reg. 56536 (proposed Nov. 30, 1992).

104a
The proposed rule noted that the repeal of the 1937
statute “left a need for procedures for obtaining and
executing death orders.” Id. The final rule, issued in
1993, provided a uniform method and place of
execution. See 58 Fed. Reg. 4898 (1993), codified at
28 C.F.R. pt. 26 (setting method of execution as
“intravenous injection of a lethal substance.”)
But a year later, Congress reinstated the
traditional approach of following state practices
through passage of the Federal Death Penalty Act
(“FDPA”). See Pub. L. No. 103–322, 108 Stat. 1796
(1994), codified at 18 U.S.C. §§ 3591–3599. The
FDPA establishes that the U.S. Marshal “shall
supervise implementation of the sentence in the
manner prescribed by the law of the State in which
the sentence is imposed.” Id. § 3596(a). The FDPA
provides no exceptions to this rule and does not
contemplate the establishment of a separate federal
execution procedure. Plaintiffs’ cases are governed by
the FDPA because when the death penalty portions
of the ADAA were repealed in 2006, the FDPA was
“effectively render[ed] . . . applicable to all federal
death-eligible offenses.” United States v. Barrett, 496
F.3d 1079, 1106 (10th Cir. 2007).
Given the conflict between the FDPA’s state-bystate approach and the uniform federal approach
adopted by DOJ’s 1993 rule (28 C.F.R. pt. 26), the
DOJ and BOP supported proposed legislation to
amend the FDPA to allow them to carry out
executions under their own procedures. One bill, for
example, would have amended § 3596(a) to provide
that the death sentence “shall be implemented
pursuant to regulations prescribed by the Attorney
General.” H.R. 2359, 104th Cong. § 1 (1995). In his

105a
written testimony supporting the bill, Assistant
Attorney General Andrew Fois wrote that “H.R. 2359
would allow Federal executions to be carried
out . . . pursuant to uniform Federal regulations” and
that “amending 18 U.S.C. § 3596 [would] allow for
the implementation of Federal death sentences
pursuant to Federal regulations promulgated by the
Attorney General.” Written Testimony on H.R. 2359
Before the Subcomm. on Crime of the H. Comm. on
the Judiciary, 104th Cong. 1 (1995) (Statement of
Andrew Fois, Assistant Att’y Gen. of the United
States). None of the proposed amendments were
enacted, and the FDPA continues to require the
federal government to carry out executions in the
manner prescribed by the states of conviction.
In 2005, three individuals facing death sentences
sued, alleging that their executions were to be
administered
under
an
unlawful
and
unconstitutional execution protocol. Roane v.
Gonzales, 1:05-cv-02337 (D.D.C.), Doc. #1 ¶ 2. The
court preliminarily enjoined their executions. Roane,
Doc. #5. Three other individuals on death row
intervened, and the court enjoined their executions.
See Roane, Doc. #23, 27, 36, 38, 67, 68. A seventh
individual on death row subsequently intervened and
had his execution enjoined as well. See id. Doc. #333.
During this litigation, the government produced a
50-page document (“2004 Main Protocol”) outlining
BOP execution procedures. Roane, Doc. #179–3. The
2004 Main Protocol cites 28 C.F.R. pt. 26 for
authority and does not mention the FDPA. See id. at
1. The government then produced two three-page
addenda to the 2004 Main Protocol. See Roane, Doc.
#177-1 (Addendum to Protocol, Aug. 1, 2008) (the

106a
“2008 Addendum”); Roane, Doc. #177-3 (Addendum
to Protocol, July 1, 2007) (“2007 Addendum”). In
2011 the DOJ announced that the BOP did not have
the drugs needed to implement the 2008 Addendum.
See Letter from Office of Attorney General to
National Association of Attorneys General, (Mar. 4,
2011),
https://files.deathpenaltyinfo.org/legacy/
documents/2011.03.04.Holder.Letter.pdf.
The
government told the court that the BOP “has decided
to modify its lethal injection protocol but the protocol
revisions have not yet been finalized.” Roane, Doc.
#288 at 2. In response, the court stayed the Roane
litigation.
No further action was taken in the cases for seven
years, until July of this year, when DOJ announced a
new addendum to the execution protocol (“2019
Addendum”) (Administrative R. at 870–871), that
replaces the three-drug protocol of the 2008
Addendum with a single drug: pentobarbital sodium.
See id at ¶ C. In addition to the 2019 Addendum, the
BOP adopted a new protocol to replace the 2004
Main
Protocol
(the
2019
Main
Protocol).
(Administrative R. at 1021–1075.)
The court held a status conference in the Roane
action on August 15, 2019. (See Min. Entry, Aug. 15,
2019). In addition to the Roane plaintiffs, the court
heard from counsel for three other death-row
inmates, including Bourgeois, all of whom cited the
need for additional discovery on the new protocol.
(See ECF No. 12 (“Status Hr’g Tr.”)). The
government indicated that it was unwilling to stay
the executions, and the court bifurcated discovery
and ordered Plaintiffs to complete 30(b)(6)
depositions by February 28, 2020 and to file

107a
amended complaints by March 31, 2020. (See Min.
Entry, Aug. 15, 2019.)
Lee filed a complaint challenging the 2019
Addendum on August 23, 2019 (see Lee v. Barr, 1:19cv-02559 (D.D.C.), Doc. 1), and a motion for a
preliminary injunction on September 27, 2019, (Lee
Mot. for Prelim. Inj.). On August 29, 2019 Bourgeois
moved to preliminarily enjoin his execution.
(Bourgeois Mot. for Prelim. Inj.) Honken filed an
unopposed motion to intervene in Lee v. Barr, which
was granted. (ECF No. 26. (“Honken Mot. to
Intervene”).) He then filed a motion for a preliminary
injunction on November 5, 2019. (Honken Mot. for
Prelim. Inj.) Purkey filed a complaint and a motion
for preliminary injunction under a separate case
number, 1:19-cv-03214, which was consolidated with
Roane. Thus, the court now has before it four fully
briefed motions to preliminarily enjoin the DOJ and
BOP from executing Lee, Purkey, Bourgeois, and
Honken.
II. ANALYSIS
A preliminary injunction is an “extraordinary
remedy” that is “never awarded as of right.” Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24 (2008)
(citing Munaf v. Geren, 553 U.S. 674, 689–90 (2008)).
Courts consider four factors on a motion for a
preliminary injunction: the likelihood of plaintiff’s
success on the merits, (2) the threat of irreparable
harm to the plaintiff absent an injunction, (3) the
balance of equities, and (4) the public interest. Id. at
20 (citations omitted); John Doe Co. v. Consumer
Fin. Prot. Bureau, 849 F.3d 1129, 1131 (D.C. Cir.
2017). The D.C. Circuit has traditionally evaluated

108a
claims for injunctive relief on a sliding scale, such
that “a strong showing on one factor could make up
for a weaker showing on another.” Sherley v.
Sebelius, 644 F.3d 388, 392 (D.C. Cir. 2011). It has
been suggested, however, that a movant’s showing
regarding success on the merits “is an independent,
free-standing requirement for a preliminary
injunction.” Id. at 393 (quoting Davis v. Pension Ben.
Guar. Corp., 571 F.3d 1288, 1296 (D.C. Cir. 2009)
(Kavanaugh, J., concurring)). Here, Plaintiffs’ claims
independently satisfy the merits requirement.
A. Likelihood of Success on the Merits
Plaintiffs allege, inter alia, that the 2019 Protocol
exceeds statutory authority and therefore under the
Administrative Procedure Act (“APA”), it must be set
aside. Under the APA, a reviewing court
“shall . . . hold unlawful and set aside agency action,
findings, and conclusions found to be . . . in excess of
statutory jurisdiction, authority, or limitations, or
short of statutory right.” 5 U.S.C. § 706(2)(C).
Plaintiffs argue that the 2019 Protocol exceeds
statutory authority by establishing a single
procedure for all federal executions rather than
using the FDPA’s state-prescribed procedure.
(Purkey Mot. for Prelim. Inj. at 16; Honken Mot. for
Prelim. Inj. at 34–35; Lee Mot. for Prelim. Inj. at 5–
6, 17). Given that the FDPA expressly requires the
federal government to implement executions in the
manner prescribed by the state of conviction, this
court finds Plaintiffs have shown a likelihood of
success on the merits as to this claim.
Defendants argue that the 2019 Protocol “is not
contrary to the FDPA” because the authority given to

109a
DOJ and BOP through § 3596(a) of the FDPA
“necessarily
includes
the
authority
to
specify . . . procedures for carrying out the death
sentence.” (ECF No. 16 (“Defs. Mot. in Opp. To Lee
Mot. for Prelim. Inj.”) at 34.) Section 3596(a) states:
When the [death] sentence is to be
implemented, the Attorney General shall
release the person sentenced to death to the
custody of a United States marshal, who
shall supervise implementation of the
sentence in the manner prescribed by the law
of the State in which the sentence is imposed.
If the law of the State does not provide for
implementation of a sentence of death, the
court shall designate another State, the law
of which does provide for the implementation
of a sentence of death, and the sentence shall
be implemented in the latter State in the
manner prescribed by such law.
18 U.S.C. § 3596(a) (emphasis added). Because a
United States Marshal is to “supervise” the process,
it does appear that at least some authority is granted
to the Marshal. But it goes too far to say that such
authority necessarily includes the authority to decide
procedures without reference to state policy. The
statute expressly provides that “the implementation
of the sentence” shall be done “in the manner”
prescribed by state law. Id. Thus, as between states
and federal agencies, the FDPA gives decisionmaking authority regarding “implementation” to the
former. Accordingly, the 2019 Protocol’s uniform
procedure approach very likely exceeds the authority
provided by the FDPA.

110a
Defendants contest the meaning of the words
“implementation” and “manner.” As they interpret
§ 3596(a), Congress only gave the states the
authority to decide the “method” of execution, e.g.,
whether to use lethal injection or an alternative, not
the authority to decide additional procedural details
such as the substance to be injected or the
safeguards taken during the injection. The court
finds this reading implausible. First, the statute does
not refer to the “method” of execution, a word with
particular meaning in the death penalty context. See
id. Instead, it requires that the “implementation” of
a death sentence be done in the “manner” prescribed
by the state of conviction. Id. “Manner” means “a
mode of procedure or way of acting.” Manner,
MERRIAM-WEBSTER’S COLLEGIATE DICTIONARY 756
(11th ed. 2014.) The statute’s use of the word
“manner” thus includes not just execution method
but also execution procedure. To adopt Defendants’
interpretation of “manner” would ignore its plain
meaning. As one district court concluded, “the
implementation of the death sentence [under the
FDPA] involves a process which includes more than
just the method of execution utilized.” United States
v. Hammer, 121 F. Supp. 2d 794, 798 (M.D. Pa.
2000).3

3

Defendants cite three cases to suggest that “manner” means
“method”: Higgs v. United States, 711 F. Supp. 2d 479, 556 (D.
Md. 2010); United States v. Bourgeois, 423 F.3d 501 (5th Cir.
2005); and United States v. Fell, No. 5:0-cr-12-01, 2018 WL
7270622 (D. Vt. Aug. 7 2018). Higgs interpreted the FDPA to
require the federal government to follow a state’s chosen
method of execution but not to follow any other state procedure.
711 F. Supp. 2d at 556. This interpretation, however, was

111a
Moreover, legislative efforts to amend the FDPA
further support this court’s interpretation of the
terms “manner” and “implementation.” As noted
above, in 1995, the year after the FDPA became law,
the DOJ supported bills amending the statute to
allow the DOJ and BOP to create a uniform method
of execution, indicating that the FDPA as drafted did
not permit federal authorities to establish a uniform
procedure. The amendments were never enacted.
Defendants argue that reading the FDPA as
requiring adherence to more than the state’s
prescribed method of execution leads to absurd
results. (See, e.g., Defs. Mot. in Opp. to Purkey Mot.
for Prelim. Inj. at 28.) They contend that if the
state’s choice of drug is to be followed, the federal
government would have to “stock all possible lethal
agents used by the States.” Id. But the FDPA
contemplates and provides for this very situation: it
permits the United States Marshal to allow the
assistance of a state or local official and to use state
stated in dicta and is not supported by persuasive reasoning.
Id. Bourgeois did not reach the question of what the words
“implementation” and “manner” mean in 18 U.S.C. § 3596(a).
423 F.3d 501 (5th Cir. 2005). Instead, it evaluated only whether
the sentence violated Texas law. Id. at 509. The opinion
appeared to assume that § 3596(a) only requires the federal
government to follow the state-prescribed method of execution,
but it provided no basis for that assumption. Id. at 509. In Fell,
the district court held that the creation of a federal death
chamber does not violate the FDPA. Fell, slip op., at 4. This
holding affirms the notion that the federal government has
some authority in execution procedure (such as the place of
execution), but it does not conflict with the proposition that the
FDPA requires the federal government to follow state procedure
as to more than simply the method of execution.

112a
and local facilities. 18 U.S.C. § 3596(a). Moreover,
the practice of following state procedure and using
state facilities has a long history in the United
States. Before the modern death penalty, the
relevant statute provided that the:
manner of inflicting the punishment of death
shall be the manner prescribed by the laws
of the State within which the sentence is
imposed. The United States marshal charged
with the execution of the sentence may use
available State or local facilities and the
services of an appropriate State or local
official . . .
50 Stat. § 304 (former 18 U.S.C. 542 (1937)),
recodified as 62 Stat. § 837 (former 18 U.S.C. 3566)
(1948). The federal government carried out
executions in accordance with this statute for
decades, including those of Julius and Ethel
Rosenberg in New York’s Sing Sing prison, and
Victor Feguer in the Iowa State Penitentiary. See
Feguer v. United States, 302 F.2d 214, 216 (8th Cir.
1962) (noting sentence of death by hanging imposed
pursuant to § 3566 and Iowa law); Rosenberg v.
Carroll, 99 F. Supp. 630, 632 (S.D.N.Y. 1951)
(applying § 3566 to uphold state law confinement
prior to execution). Thus, far from creating absurd
results, requiring the federal government to follow
more than just the state’s method of execution is
consistent with other sections of the statute and with
historical practices. For all these reasons, this court
finds that the FDPA does not authorize the creation
of a single implementation procedure for federal
executions.

113a
Defendants argue that the 2019 Protocol derives
authority from 28 C.F.R. § 26.3(a), which provides
that executions are to be carried out at the time and
place designated by the Director of the BOP, at a
federal penal or correctional institution, and by
injection of a lethal substance or substances under
the direction of the U.S. Marshal. (Defs. Mot. in Opp.
to Lee Mot. for Prelim. Inj. at 31.) However, this
argument is undercut by the fact that, as with the
2019 Protocol itself, 28 C.F.R. Pt. 26 also conflicts
with the FDPA. As noted above, 28 C.F.R. Pt. 26 was
promulgated in 1993 (before the FDPA was enacted)
to implement the Anti-Drug Abuse Act of 1988, 21
U.S.C. § 848(e) (the “ADAA”), which does not specify
how federal executions are to be carried out. 28
C.F.R. § 26.3(a) filled that gap by providing an
implementation procedure. But when Congress
passed its own requirements for the implementation
procedure in the FDPA, those requirements
conflicted with 28 C.F.R. § 26.3(a).
Defendants concede that “where a regulation
contradicts a statute, the latter prevails.” (Defs. Mot.
in Opp. to Lee Mot. for Prelim. Inj. at 31.) They
argue instead that the regulation does not conflict
with the FDPA as applied to Plaintiffs because lethal
injection (the method required by 28 C.F.R. §
26.3(a)(4)) is either permitted or required in the
Plaintiffs’ states of conviction (Texas, Arkansas,
Missouri, and Indiana4). (ECF No. 37 (“Defs. Mot. in
4

Honken was convicted in Iowa, which does not have a death
penalty. The FDPA requires a court to designate a death
penalty state for any individual convicted in a state without the
death penalty, and the court designated Indiana. (Honken Mot.
for Prelim. Inj. at 37.)

114a
Opp. to Purkey Mot. for Prelim. Inj.”) at 26–27; ECF
No. 36 (“Defs. Mot. in Opp. to Honken Mot. for
Prelim. Inj.”) at 19–20; Defs. Mot. in Opp. to Lee
Mot. for Prelim. Inj at 31–32.)5 Two of those states—
Texas and Missouri—use a single dose of
pentobarbital for executions. (Administrative R. at
99, 104.)
But this overlap does not, in and of itself, reconcile
28 C.F.R. pt. 26 with the FDPA. 28 C.F.R. Pt. 26
remains inconsistent with the FDPA because it
establishes a single federal procedure, while the
FDPA requires state-prescribed procedures. In
addition, 28 C.F.R. § 26.3(a)(2) requires use of a
federal facility, while the FDPA permits the use of
state facilities. Compare 28 C.F.R. § 26.3(a)(2) with
18 U.S.C. § 3597. There are also inconsistencies
between the FDPA’s required state procedures and
the 2019 Protocol. For example, states of conviction
establish specific and varied safeguards on how the
intravenous catheter is to be inserted. 6 The 2019
Protocol, however, provides only that the method for
insertion of the IV is to be selected based on the
training, experience, or recommendation of execution
personnel. (Administrative R. at 872.) Thus, the fact
that the states of conviction and 28 C.F.R. § 26.3(a)

5

Defendants do not assert this argument as to Bourgeois
(likely because he did not raise 28 C.F.R. Part 26 in his
motions), but does include Texas’ execution protocol—which
requires lethal injection—in the Administrative Record.
(Administrative R. at 83-91.)
6

See, e.g., Administrative R. at 90-91 (Texas); Administrative
R. at 70-71 (Missouri); Honken Mot. for Prelim. Inj. Ex. 6 at 16–
17 (Indiana).

115a
all prescribe lethal injection as the method of
execution is not enough to establish that the
regulation is valid as applied to Plaintiffs.
Defendants further argue that even if 28 C.F.R.
§ 26.3(a) did not conflict with the FDPA by requiring
lethal injection, the DOJ would still adopt lethal
injection as its method of execution for these
Plaintiffs. (See e.g., Defs. Mot. in Opp. to Lee Mot. for
Prelim. Inj at 32–33.) On this basis, they ask the
court to sever section 26.3(a)(4)—which establishes
lethal injection as the federal method—and affirm
the rest of 28 C.F.R. § 26.3(a). Id. Defendants cite
Am. Petroleum Inst. V. EPA, 862 F.3d 50 (D.C. Cir.
2017), for the proposition that the court “will sever
and affirm a portion of an administrative regulation”
if it can say “without any substantial doubt that the
agency would have adopted the severed portion on its
own.” Id. at 71 (emphasis added). The court declines
to take this approach for several reasons. First, it is
premised on the strained reading of the FDPA that
this court has already rejected. Moreover, the court
cannot say “without any substantial doubt” that DOJ
“would have adopted the severed portion on its own.”
Id. Even were the court to engage in such
speculation, it seems plausible that if 28 C.F.R.
§ 26.3(a) instructed the BOP to follow state
procedure, rather than to implement lethal injection,
that BOP would in fact adopt whatever specific
procedures were required by each state. Finally, even
if the court severed the language in 28 C.F.R.
§ 26.3(a) that conflicts with the FDPA, another
problem would arise: that is the very language that
purportedly authorizes the creation of a single
federal procedure. If the court severs it, then 28

116a
C.F.R. § 26.3(a) would no longer contain the support
for a single federal procedure that Defendants claim
it does.
More
importantly,
Defendants’
arguments
regarding the regulation’s applicability to these
Plaintiffs take us far afield from the task at hand.
The arguments do not control the court’s inquiry of
whether the 2019 Protocol exceeds statutory
authority. Based on the reasoning set forth above,
this court finds that insofar as the 2019 Protocol
creates a single implementation procedure it is not
authorized by the FDPA. This court further finds
that because 28 C.F.R. § 26.3 directly conflicts with
the FDPA, it does not provide the necessary
authority for the 2019 Protocol’s uniform procedure.
There is no statute that gives the BOP or DOJ the
authority to establish a single implementation
procedure for all federal executions. To the contrary,
Congress, through the FDPA, expressly reserved
those decisions for the states of conviction. Thus,
Plaintiffs have established a likelihood of success on
the merits of their claim that the 2019 Protocol
exceeds statutory authority. Given this finding, the
court need not reach Plaintiffs’ other claims.
B. Irreparable Harm
To constitute irreparable harm, “the harm must be
certain and great, actual and not theoretical, and so
imminent that there is a clear and present need for
equitable relief to prevent irreparable harm,” and it
“must be beyond remediation.” League of Women
Voters of U.S. v. Newby, 838 F. 3d 1, 7–8 (D.C. Cir.
2016) (citing Chaplaincy of Full Gospel Churches v.
England, 454 F.3d 290, 297 (D.C. Cir. 2006))

117a
(internal quotation marks and brackets omitted).
Here, absent a preliminary injunction, Plaintiffs
would be unable to pursue their claims, including the
claim that the 2019 Protocol lacks statutory
authority, and would therefore be executed under a
procedure that may well be unlawful. This harm is
manifestly irreparable.
Other courts in this Circuit have found irreparable
harm in similar circumstances. See, e.g., Damus v.
Nielsen, 313 F. Supp. 3d 317, 342 (D.D.C. 2018)
(finding irreparable injury where plaintiffs faced
detention under challenged regulations); Stellar IT
Sols., Inc. v. U.S.C.I.S., Civ. A. No. 18-2015 (RC),
2018 WL 6047413, at *11 (D.D.C. Nov. 19, 2018)
(finding irreparable injury where plaintiff would be
forced to leave the country under challenged
regulations); FBME Bank Ltd. v. Lew, 125 F. Supp.
3d 109, 126–27 (D.D.C. 2015) (finding irreparable
injury where challenged regulations would threaten
company’s existence); N. Mariana Islands v. United
States, 686 F. Supp. 2d 7, 19 (D.D.C. 2009) (finding
irreparable injury when challenged regulations
would limit guest workers).
Plaintiffs have clearly shown that, absent
injunctive relief, they will suffer the irreparable
harm of being executed under a potentially unlawful
procedure before their claims can be fully
adjudicated. Given this showing, the court need not
reach the various other irreparable harms that
Plaintiffs allege.

118a
C. Balance of Equities
Defendants assert that if the court preliminarily
enjoins the 2019 Protocol they will suffer the harm of
a delayed execution date. (See, e.g., Def. Mot. in Opp.
to Purkey Mot. for Prelim. Inj. at 43.) While the
government does have a legitimate interest in the
finality of criminal proceedings, the eight years that
it waited to establish a new protocol undermines its
arguments regarding the urgency and weight of that
interest. Other courts have found “little potential for
injury” as a result of a delayed execution date. See,
e.g., Harris v. Johnson, 323 F. Supp. 2d 797, 809
(S.D. Tex. 2004). This court agrees that the potential
harm to the government caused by a delayed
execution is not substantial.
D. Public Interest
The public interest is not served by executing
individuals before they have had the opportunity to
avail themselves of legitimate procedures to
challenge the legality of their executions. On the
other hand, “[t]he public interest is served when
administrative
agencies
comply
with
their
obligations under the APA.” N. Mariana Islands, 686
F. Supp. 2d at 21. Accordingly, this court finds that
the public interest is served by preliminarily
enjoining the execution of the four Plaintiffs because
it will allow them to determine whether
administrative agencies acted within their delegated
authority, and to ensure that they do so in the
future.

119a
III. CONCLUSION
This court finds that at least one of Plaintiffs’
claims has a likelihood of success on the merits and
that absent a preliminary injunction, they will suffer
irreparable harm. It further finds that the likely
harm that Plaintiffs would suffer if this court does
not grant injunctive relief far outweighs any
potential harm to the Defendants. Finally, because
the public is not served by short-circuiting legitimate
judicial process, and is greatly served by attempting
to ensure that the most serious punishment is
imposed lawfully, this court finds that it is in the
public interest to issue a preliminary injunction.
Accordingly, each of Plaintiffs’ motions for
preliminary injunctions is hereby GRANTED.

120a
APPENDIX C
_________
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_________
No. 19-5322
_________
September Term, 2019
_________
1:19-mc-00145-TSC
_________
Filed On: May 22, 2020
_________
In re: In the Matter of the Federal Bureau of Prisons’
Execution Protocol Cases,
_________
JAMES H. ROANE, JR., ET AL.,
Appellees,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Appellants.
_________
BEFORE:

Tatel, Katsas, and Rao, Circuit Judges
_________
ORDER

121a
Upon consideration of plaintiff-appellees’ motion to
stay issuance of the mandate, the opposition thereto,
and the reply, it is
ORDERED that the Clerk is directed to issue the
mandate on June 8, 2020.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

122a
APPENDIX D
_________
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_________
No. 19-5322
_________
September Term, 2019
_________
1:19-mc-00145-TSC
_________
Filed On: December 2, 2019
_________
In the Matter of the Federal Bureau of Prisons’
Execution Protocol Cases,
_________
JAMES H. ROANE, JR., ET AL.,
Appellees,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Appellants.
_________
BEFORE: Rogers, Griffith, and Rao, Circuit Judges
_________
ORDER

123a
Upon consideration of the motion to stay or vacate
preliminary injunction, the opposition thereto, and
the reply, it is
ORDERED that the motion be denied. Appellants
have not satisfied the stringent requirements for a
stay pending appeal. See Nken v. Holder, 556 U.S.
418, 434 (2009); D.C. Circuit Handbook of Practice
and Internal Procedures 33 (2018).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Amy Yacisin
Deputy Clerk

124a
APPENDIX E
_________
SUPREME COURT OF THE UNITED STATES
_________
No. 19A615
_________
Cite as: 589 U.S. ____ (2019)
Statement of ALITO, J.
_________
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
v.
JAMES H. ROANE, JR., ET AL.
_________
ON APPLICATION FOR STAY OR VACATUR
_________
December 6, 2019
_________
The application for stay or vacatur presented to
THE CHIEF JUSTICE and by him referred to the Court
is denied. We expect that the Court of Appeals will
render its decision with appropriate dispatch.
Statement of JUSTICE ALITO, with whom JUSTICE
GORSUCH and JUSTICE KAVANAUGH join, respecting
the denial of stay or vacatur.
The District Court for the District of Columbia has
preliminarily enjoined the Federal Government from
carrying out the execution of four prisoners who were
convicted in federal court more than 15 years ago for

125a
exceptionally heinous murders. In this action, none
of the four is contesting his guilt or his sentence, but
the District Court enjoined the Bureau of Prisons
(BOP) from carrying out these executions based on
its interpretation of a statute, 18 U. S. C. §3596(a),
directing that federal executions be implemented “in
the manner prescribed by the law of the State in
which the sentence is imposed.” This means, the
Government contends, that the mode of execution
(i.e., by lethal injection, electrocution, etc.) must be
the same as that called for under the law of the State
in question, but the District Court held instead that
a federal execution must follow all the procedures
that would be used in an execution in that State—
down to the selection of the way a catheter is
inserted.
The Government has shown that it is very likely to
prevail when this question is ultimately decided. The
centerpiece of the District Court’s reasoning was that
Congress referred to the “manner” and not the
“method” of execution, but there is strong evidence
that this reading is not supported either by the
ordinary meaning of these two terms or by the use of
the term “manner” in prior federal death penalty
statutes.
Moreover,
the
District
Court’s
interpretation would lead to results that Congress is
unlikely to have intended. It would require the BOP
to follow procedures that have been attacked as less
safe than the ones the BOP has devised (after
extensive study); it would demand that the BOP
pointlessly copy minor details of a State’s protocol;
and it could well make it impossible to carry out
executions of prisoners sentenced in some States.

126a
Vacating the stay issued by the District Court for
the District of Columbia would not necessarily mean
that the prisoners in question would be executed
before the merits of their Administrative Procedure
Act claim is adjudicated. They remain free to seek
review on other grounds. Nevertheless, in light of
what is at stake, it would be preferable for the
District Court’s decision to be reviewed on the merits
by the Court of Appeals for the District of Columbia
Circuit before the executions are carried out.
The Court has expressed the hope that the Court of
Appeals will proceed with “appropriate dispatch,”
and I see no reason why the Court of Appeals should
not be able to decide this case, one way or the other,
within the next 60 days. The question, though
important, is straightforward and has already been
very ably briefed in considerable detail by both the
Solicitor General and by the prisoners’ 17-attorney
legal team. For these reasons, I would state
expressly in the order issued today that the denial of
the application to vacate is without prejudice to the
filing of a renewed application if the injunction is
still in place 60 days from now.

127a
APPENDIX F
_________
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_________
No. 19-5322
_________
September Term, 2019
_________
1:19-mc-00145-TSC
_________
Filed On: May 15, 2020
_________
In re: Federal Bureau of Prisons’ Execution Protocol
Cases,
_________
JAMES H. ROANE, JR., ET AL.,
Appellees,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Appellants.
_________
BEFORE: Srinivasan, Chief Judge; Henderson,
Rogers, Tatel, Garland, Griffith,


Chief Judge Srinivasan did not participate in this matter.
A statement by Circuit Judge Tatel is attached.



128a
Millett, Pillard, Wilkins, Katsas, and
Rao, Circuit Judges
ORDER
Upon consideration of appellees’ petition for
rehearing en banc, the response thereto, and the
absence of a request by any member of the court for a
vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

129a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_________
No. 19-5322
_________
September Term, 2019
_________
Statement by Circuit Judge Tatel
_________
TATEL, Circuit Judge: Even though I believe this
case is en banc worthy, I did not call for a vote
because, given that the Supreme Court directed this
court to proceed “with appropriate dispatch,” Barr v.
Roane, 140 S. Ct. 353 (2019), I agree that “[our]
review should be concluded without delay,” Opp’n to
Pet. for Reh’g En Banc 15.

130a
APPENDIX G
_________
U.S. DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISON
_________
Office of the Director
Washington, DC 20534
_________
July 24, 2019
_________
MEMORANDUM FOR THE ATTORNEY GENERAL
_________
THROUGH:

THE
DEPUTY
GENERAL

ATTORNEY

FROM:

Hugh J. Hurwitz
Acting Director
Federal Bureau of Prisons

SUBJECT:

The Federal Bureau of Prisons’
Federal
Execution
Protocol
Addendum

The Federal Bureau of Prisons (“BOP”) Addendum
to its Federal Execution Protocol provides for the use
of a single drug, pentobarbital sodium, as the lethal
agent. The BOP has a viable source for the drug, and
the BOP is prepared to implement the Addendum.

131a
RECOMMENDATION: The Attorney General directs
the Acting Director of the Federal Bureau of Prisons
to adopt the Addendum to the Federal Execution
Protocol.
DIRECT:
W.P. Barr
Date: July 24, 2019
DO NOT DIRECT:
OTHER:
Attachments

132a
U.S. DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISON
_________
July 24, 2019
_________
MEMORANDUM FOR THE ATTORNEY GENERAL
_________
THROUGH:

THE
DEPUTY
GENERAL

FROM:

Hugh J. Hurwitz
Acting Director
Federal Bureau of Prisons

SUBJECT:

Summary of the Federal Bureau
of Prisons’ Federal Execution
Protocol Addendum

I.

ATTORNEY

Introduction

The Federal Bureau of Prisons (“BOP”), along with
the United States Marshals Service (“USMS”), is
responsible for implementing federal death
sentences. See 28 C.F.R. Part 26. These regulations
require the sentence be implemented by,
“ . . . intravenous injection of a lethal substance or
substances in a quantity sufficient to cause death,
such substance or substances to be determined by
the Director of the Federal Bureau of Prisons . . . .”
See 28 C.F.R. § 26.3(a)(4). Prior to 2003, BOP’s lethal
injection protocol consisted of three drugs: sodium
pentothal, pancuronium bromide, and potassium

133a
chloride. 1 No federal execution has occurred since
2003, in part, because of the unavailability of sodium
pentothal.
BOP has studied the issue and is prepared to
approve an Addendum to its Federal Execution
Protocol (“Addendum”) that provides for the use of a
single drug, pentobarbital sodium (“pentobarbital”),
as the lethal agent. See Attachment. This new
Addendum will replace the three-drug procedure
previously used in federal executions. BOP has a
viable domestic source to obtain pentobarbital, which
would allow it to resume federal executions.
This Memorandum
Addendum.
II.

discusses

BOP’s

proposed

Background

Implementation of the federal death penalty is
governed by 18 U.S.C. §§ 3596-3597. These
provisions require BOP to carry out death sentences
“in the manner prescribed by the law of the State in
which the sentence is imposed.” 18 U.S.C. § 3596(a).
As noted above, the Federal regulation further
clarifies that BOP must implement death sentences
“by intravenous injection of a lethal substance or
substances in a quantity sufficient to cause death.”
28 C.F.R. § 26.2(a)(2). The Director of BOP is
charged with determining what “substance or
substances” should be used in federal executions. 28
C.F.R. § 26.3(a)(4).

1

BOP carried out the executions of Timothy McVeigh (2001),
Juan Garza (2001), and Louis Jones (2003) using this drug
compound.

134a
A. Use of Pentobarbital
All states that currently permit the death penalty
allow for lethal injection as their primary method of
execution. 2 State protocols comprise of one-, two-,
and three-drug methods. The three-drug protocol
typically involves an anesthetic or sedative, followed
by pancuronium bromide to paralyze the inmate, and
finally potassium chloride to stop the inmate’s heart.
The one-or two-drug protocols typically use a lethal
dose of an anesthetic or sedative.
There has been much litigation regarding death
penalty protocols. In Baze v. Rees, 553 U.S. 35 (2008),
the Supreme Court upheld Kentucky’s use (along
with at least 30 other states) of a three-drug
combination,
including
sodium
pentothal,
pancuronium bromide, and potassium chloride. 3
While Baze provided clear approval of a specific
protocol for states to carry out the death penalty,
practical obstacles soon emerged as pharmaceutical
companies began refusing to supply the drugs used
to implement the death sentences. See Glossip v.
2

Death
Penalty
Information
https://deathpenaltyinfo.org/lethal-injection.
3

Center,

To successfully challenge a state’s lethal injection protocol
under the Eighth Amendment, a condemned prisoner must: (1)
“establish[ ] that the State’s lethal injection protocol creates a
demonstrated risk of severe pain[;]” and (2) “show that the risk
is substantial when compared to the known and available
alternatives.” Baze, 553 U.S. at 61. On April 1, 2019, the
Supreme Court held that a death row inmate’s as-applied
Eighth Amendment challenge to Missouri’s one drug lethal
injection protocol using pentobarbital must meet the same
standard applied to facial challenges as set forth in Baze.
Bucklew v. Precythe, 139 S.Ct. 1112, 1126-30 (2019).

135a
Gross, 135 S.Ct. 2726, 2733 (2015). Specifically, the
sole American manufacturer of sodium pentothal
stopped producing the drug because of its use in the
death penalty.4
After the availability of sodium pentothal declined,
states developed an alternative drug combination
that replaced sodium pentothal with pentobarbital.
Glossip, 135 S.Ct. at 2733. On December 16, 2010,
Oklahoma was the first state to execute an inmate
using pentobarbital in place of sodium pentothal in
its three-drug compound. Id. 5 The following year,
Ohio used pentobarbital in a one-drug execution. 6
Subsequently,
many
states
incorporated
pentobarbital into their protocols and all 43
executions carried out in 2012 reportedly used
pentobarbital.7
Currently, fourteen states have used pentobarbital,
either as part of a three-drug combination or by
itself, in executions. An additional five states have

4

Hospira, Press Release, Hospira Statement Regarding
Pentothal (sodium thiopental) Market Exit (Jan. 21, 2011).
5

Divinda Mims, Death row inmate executed using
pentobarbital in lethal injection, CNN, December 16, 2010,
available
at
http://www.cnn.com/2010/CRIME/12/16/oklahoma.execution.
6

Deborah W. Denno, Lethal Injection Chaos Post-Baze, 102
GEO. L.J. 1331, 1382 (2014).
7

Glossip, 135 S.Ct. 2733 (citing Death Penalty Institute,
Execution
List
2012,
online
at
www.deathpenaltyinfo.org/execution-list-2012).

136a
announced plans to use it.8 Georgia, Idaho, Missouri,
South Dakota, and Texas administer a single-drug
pentobarbital protocol, as BOP seeks to do, as the
primary method of execution. Both Missouri and
Texas have extensive experience using the singledrug pentobarbital method, executing 20 and 78
inmates, respectively, since approximately 2012.9 Of
the 25 executions in 2018, 16 used a single-drug
pentobarbital protoco1.10 Of the ten executions thus
far in 2019, five used the single-drug pentobarbital
protocol. 11 Although various media outlets have
reported complications with lethal injection
executions, none of those executions appear to have
resulted from the use of single-drug pentobarbita1. 12
B. Development of Addendum
In 2011, BOP began exploring pentobarbital and
other methods of conducting executions. That year,
BOP personnel visited several states to observe
executions. Based upon research, observation, and
the opinion of medically trained personnel, as
described below, BOP developed the single-drug
pentobarbital protocol.

8

Death Penalty Information Center, State by State Lethal
Injection, available at https://deathpenaltyinfo.org/state-lethalinjection.
9

Death Penalty Information Center, supra note 8.

10

https://deathpenaltyinfo.org/execution-list-2018

11

https://deathpenaltyinfo.org/execution-list-2019

12

Death Penalty Information Center, Botched Executions,
https://deathpenaltyinfo.org/some-examples-post-furmanbotched-executions?scid=8&amp;did=478.

137a
As part of its research and study, BOP examined a
three-drug process using pentobarbital as the first
anesthetic. BOP disfavored this method because of
the complications inherent in obtaining multiple
drugs. Further, a one-drug protocol simplifies the
procedure and therefore reduces the risk of
administration mishaps. The BOP determined that
the single-drug pentobarbital protocol is the most
suitable method based on its widespread use by the
states and its acceptance by many courts.13
The Addendum provides for the use of five grams of
pentobarbital during executions. The Addendum
calls for three syringes to be prepared, with the first
two containing 2.5 grams of pentobarbital sodium (in
diluent) and the final syringe containing 60 mL of
saline flush. See Attachment at ¶ H. Supervisory
personnel then direct the administration of each
syringe. Id.
BOP’s draft procedures are similar to execution
protocols adopted by Georgia, Ohio, South Dakota,
Missouri, and Arizona. Texas’s protocol utilizes one
injection of 5 grams of pentobarbital.14 These states
13

Courts have held that the use of pentobarbital in executions
does not violate the Eighth Amendment. See, e.g., Ladd v.
Livingston, 777 F.3d 286 (5th Cir. 2015); Zink v. Lombardi, 783
F.3d 1089, 1102 (8th Cir. 2015); Jackson v. Danberg, 656 F.3d
157 (3d Cir. 2011); DeYoung v. Owens, 646 F.3d 1319 (11th Cir.
2011); and Pavatt v. Jones, 627 F.3d 1336 (10th Cir. 2010). See
also Bucklew, 139 S.Ct. at 1129-1132 (finding that death row
inmate challenging Missouri’s method of execution using a
single-drug pentobarbital protocol failed to show a feasible and
readily implemented alternative method of execution that
would significantly reduce a substantial risk of severe pain).
14

Death Penalty Information Center, supra note 8.

138a
have successfully effectuated executions, therefore
the protocols are instructive to the proposed BOP
protocols.
BOP consulted with the USMS Office of General
Counsel regarding the Addendum. USMS concurred
with the Addendum and noted their deference to
BOP on all matters related to the time, place, and
manner of carrying out federal executions.
BOP also retained a medical consulting firm to
review the Addendum in anticipation of litigation. If
the Addendum is approved, BOP anticipates its
protocol will be subject to vigorous litigation both
facially and as applied to specific inmates. Currently,
one federal case is pending in the District of
Columbia challenging BOP’s method of execution.
See Roane et al. v. Gonzales, No. 05-2337 (D.D.C.).
Upon adoption of a protocol, that case will be
reopened and the protocol will be a subject of that
litigation. There are three additional cases pending
in the District of Columbia, which challenge the
method of execution, but in which an official stay of
execution has not been issued.15 In May and October
2017, BOP in coordination with the U.S. Attorney’s
Office in the District of Columbia consulted with Dr.
Joseph F. Antognini, M.D., a clinical professor of
anesthesiology and pain medicine at University of
California Davis School of Medicine. Dr. Antognini
concurs with the Addendum and is prepared to
submit an expert report in defense of the protocol.

15

Bourgeois v. U.S. Dept. of Justice, et al., l:12-cv-00782
(D.D.C.); Robinson v. Mukasey, No. 1:07-cv-02145 (D.D.C.);
Fulks v. U.S. Dept. of Justice, et al., No. 1:13-cv-00938 (D.D.C.).

139a
III. Implementation of Amended Protocol
BOP has a viable domestic source to obtain
pentobarbital, and has confirmed with the Drug
Enforcement Administration (“DEA”) that the
manufacturer is properly registered as a bulk
manufacturer of pentobarbital. The manufacturer
has produced samples of the active pharmaceutical
ingredient (“API”), which were subject to quality
assurance testing, further supporting the selection of
this manufacturer. Additionally, BOP has secured a
compounding pharmacy to store the API and to
convert the API into injectable form as needed. BOP
worked with DEA to ensure the compounding
pharmacy is properly registered. The compounding
pharmacy has performed its own testing of the
injectable form, and it has additionally worked with
two independent laboratories on quality testing.
Following approval of the Addendum, BOP is
prepared to implement the amended Federal
Execution Protocol. BOP has the necessary facilities
and staff to resume federal executions and is
prepared to conduct executions at its facilities in
Terre Haute, Indiana. BOP regularly trains staff in
the Federal Execution Protocol and conducts training
exercises, most recently in April 2019. BOP has
additionally confirmed with DEA that the BOP
facility in Terre Haute, Indiana, meets the
regulatory requirements for storage and handling of
pentobarbital.
Further, pursuant to 28 C.F.R. § 26.3(a)(1), the
Director of the BOP will set execution dates for
inmates with federal death sentences who are
identified by the Attorney General.

140a
DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISONS
BOP EXECUTION PROTOCOL
_________
SERVICE – LIMITED OFFICIAL USE ONLY
_________
2019
_________
Page
INTRODUCTION General Provisions ...................... 4
I.

Purpose of Manual.................................... 4

II.

Organization ............................................. 4

III. Cross References....................................... 4
IV. Procedure .................................................. 4
CHAPTER 1

Pre-Execution Checklist ............. 7

I.

General Provisions ................................... 7

II.

Establishing an Execution Date .............. 7

III. Period of Time Between
Establishment Of an Execution
Date to Thirty Days Prior to the
Execution .................................................. 8
IV. Period of Time Between TwentyNine To Fourteen Days Prior to
the Execution .......................................... 12

141a
V.

Period of Time Between Thirteen
to Seven Days Prior to the
Execution ................................................ 13

VI. Period of Time Between Six to
Three Days Prior to the
Execution ................................................ 13
VII. Period of Time Between Two
Days to One Day Prior to the
Execution ................................................ 15
CHAPTER 2

Execution Checklist .................. 17

I.

General Provisions ................................. 17

II.

Period of Time Between TwentyFour to Twelve Hours Prior to the
Execution ................................................ 17

III. Period of Time Between Twelve
to Three Hours Prior to the
Execution ................................................ 18
IV. Period of Time Between Three
Hours to Thirty Minutes Prior to
the Execution .......................................... 20
V.

The Final Thirty Minutes Prior
To the Execution ..................................... 22

VI. Final Sequences of Events:
Execution ................................................ 24
CHAPTER 3

Post-Execution Checklist .......... 26

I.

General Provisions ................................. 26

II.

Removing Witnesses from the
Execution Facility................................... 26

142a
III. Removal of the Body of the
Inmate ..................................................... 27
IV. Site Clean-up ......................................... 27
V.

Returning to Routine Operations .......... 27

CHAPTER 4

Command Center ...................... 28

I.

General Provisions ................................. 28

II.

Location, Role and Function ................. 28

III. Command Center Staffing ..................... 29
IV. Resources……. ........................................ 29
CHAPTER 5

Contingency Planning ............... 30

I.

General Provisions ................................ 30

II.

Specific Procedures ................................ 31

III. Execution Witness Management ........... 32
IV. Reservation Security Plan ..................... 35
CHAPTER 6

News Media Procedures............ 37

I.

General Provisions ................................. 37

II.

Inmate Interviews .................................. 37

III. Media Orientation .................................. 38
IV. Media Center Operations ....................... 39
V.

The Execution Information
Center ..................................................... 45

CHAPTER 7
I.

Stays, Commutations and
Other Delays ............................. 47

General Provisions ................................ 47

143a
II.

Presidential and Judicial
Authority To Interrupt Execution ......... 47

III. Communication of Pardons,
Stays, Commutations or Delays............. 46
IV. Procedures to Implement LastMinute Stays........................................... 48
APPENDICES
Appendix A – Memorandum of
Agreement Between Federal
Bureau of Prisons and Witness.............. 50
Appendix B – Media Witness Press
Pool Agreement ...................................... 51
Appendix C – Sample Letter to Media .......... 52

144a
INTRODUCTION: GENERAL PROVISONS
I.

Purpose of Manual
The purpose of this manual is to outline
Federal Bureau of Prisons (BOP) policy and
procedures for planning and carrying out the
execution of a person convicted of a capital
offense. These procedures should be observed
and followed as written unless deviation or
adjustment is required, as determined by the
Director of the BOP or the Warden. This
manual
explains
internal
government
procedures and does not create any legally
enforceable rights or obligations.

II.

Organization
This manual provides specific time related
checklists for pre-execution, execution and
post execution procedures as well as detailed
procedures related to the execution process,
command center operations, contingency
planning, news media procedures, and
handling stays, commutations and other
delays.

III.

Cross References
A. Title 28, Code of Federal Regulations,
Chapter 1, Part 26
B. Title 28, Code of Federal Regulations,
Chapter 1, Part 1
C. Correctional Systems Manual – Program
Statement 5800.15, Paragraph 803

145a
D. Searching, Detaining, or Arresting Visitors
to Bureau Grounds and Facilities –
Program Statement 5510.09
E News
Media
Statement 1480.05

Contacts – Program

F. Accounting
Management
Manual –
Program Statement 2000.02, Chapter
10950
G. Receiving and Discharge Manual –Program
Statement 5800.18
IV.

Procedure
A. The BOP will ensure the execution of a
person sentenced to death under federal
law by a court of competent authority and
jurisdiction be carried out in an efficient
and humane manner.
B. The BOP will make every effort in the
planning and preparation of an execution
to ensure the execution process:
1. Faithfully adheres to the letter and
intent of the law;
2. Is handled in a manner that minimizes
the negative impact on the safety,
security, and operational integrity of
the correctional institution in which it
occurs and the BOP in general;
3. Accommodates the public’s right to
obtain information concerning the
event;

146a
4. Reasonably addresses the privacy
interests of those persons for whom the
law and BOP policy require such
privacy;
5. Provides
sufficient
contingency
planning to ensure that unforeseen
problems can be addressed and
overcome;
6. Allows
for
stays
of
execution,
commutations and other delays in the
execution countdown;
7 Provides an opportunity for interested
person
to
exercise
their
First
Amendment rights to demonstrate for
or against capital punishment in a
lawful manner; and
8. Ensures a firm and adequate response
to unlawful civil disobedience, trespass,
or other violations of the law by persons
attempting to disrupt or prevent the
execution.
C. The BOP will seek the arrest and
encourage the prosecution of persons,
including but not limited to those, who:
1. Violate prohibitions against filming,
taping, broadcasting, or otherwise
electronically documenting the death of
the inmate;
2. Trespass or otherwise enter upon BOP
property without proper permission and
clearance from the Warden;

147a
3. Participate in unlawful demonstrations;
4. Unlawfully attempt to disrupt, prevent,
or otherwise interfere with the
execution;
5. Are inmates involved in disruptive,
assaultive,
or
other
unlawfully
proscribed behavior related to an
execution; or
6. Unlawfully threaten, intimidate, or
terrorize persons involved in the
execution process.
D. BOP staff involved in the execution will
make every effort, within the limits of
these procedures and the laws of the
United States, to:
1. Display
appropriate
levels
of
professionalism, restraint, and courtesy,
in
interaction
with
witnesses,
demonstrators, news media, and other
persons during the execution process;
2. Prevent emotion or intimidation from
hindering efforts to carry out assigned
duties; and
3. Conduct themselves at all times in a
manner reflecting the solemnity and
sensitivity of the occasion.
E. BOP staff trained in crisis support will be
available for counseling sessions with all
personnel participating directly in an

148a
execution process, before and after an
execution.

149a
CHAPTER 1: PRE-EXECUTION CHECKLIST
I.

General Provisions
A. Purpose of Chapter
1. The purpose of this chapter is to provide
a checklist of procedures and events
that should occur between the period of
time prior to the establishment of an
execution date and 24 hours prior to the
execution.
2. Full detail will not be provided for each
procedure or event in this chapter. For
detail, refer to specific chapters which
follow.
3. This chapter covers the following time
periods:
a. Prior to the execution date being
established;
b. Establishment of the execution date
to thirty days prior to the execution;
c. Twenty-nine to fourteen days prior
to the execution;
d. Thirteen to seven days prior to the
execution;
e. Six to three days prior to the
execution; and
f. Forty-eight to twenty-four
prior to the execution.
B. Procedure

hours

150a
1. A systematic countdown to an execution
must be completed to ensure that all
procedures and events necessary to
adequately prepare for the execution
are completed in a timely manner.
2. Absent intervention by the court system
or the President as noted in Chapter 7,
delays in the countdown process will
only occur in extraordinary situations
relating to the security and good order
of the institution as approved by the
Director of the BOP.
II.

Establishing of an Execution Date
After a sentencing hearing is conducted in a
United States District Court resulting in a
determination that a criminal defendant be
sentenced to death for commission of an
offense described in a federal statute, and the
sentencing judge signs the appropriate
Judgment and Order:
A. Except to the extent a court orders
otherwise, the Director of the BOP will
designate a date and time for the execution
of
the
sentence.
The
following
individuals/offices will be advised in
writing of the execution date: the
sentencing judge, Attorney General, Office
of the Deputy Attorney General, Office of
the Pardon Attorney, the Assistant
Attorney General for the Criminal
Division, the Chief of the Capital Case
Unit, Director for the United States

151a
Marshals Service (USMS), the Office for
Victims of Crime, Assistant Director for
Correctional Programs Division, Assistant
Director for General Counsel and Review
Division, appropriate Regional Director,
United Sates Attorney’s Office for the
district of conviction, United Sates
Attorney’s Office for the Southern District
of Indiana and Warden of USP Terre
Haute.
B. Under current federal regulations, the date
established will be no sooner than 60 days
from the entry of the judgment of death (28
C.F.R.§ 26.3 (a) (1)) and notice of it must be
given to the defendant no later than 20
days before the execution (28 C.F.R.§ 26.4
(a)). If the date designated passes by
reason of a stay of execution, then a new
date will be promptly designated by the
Director of the BOP when the stay is lifted.
C. The Warden of USP Terre Haute will
notify, in writing, the inmate under
sentence of death, of the date designated by
the Director for execution at least 90 days
in advance. If the designated execution
date is stayed, notice of the new execution
date must be given no later than 20 days
before the execution, if time permits and if
not, as soon as possible. If the execution
date is set by a judge, the Warden will
notify the inmate, in writing, as soon as
possible. The Warden will include
information concerning the clemency
application process in the written notice.

152a
Under 28 C.F.R. §1.10(b), a petition for
commutation of sentence should be filed no
later than 30 days after the inmate has
received notification from the Warden of
the execution date.
D. Unless the President interposes, the
execution of the sentence will not be stayed
on the basis of the inmate filing a petition
for executive clemency.
III.

Period of Time Between Establishment of an
Execution Date to Thirty Days Prior to the
Execution
The following procedures should be completed
between the time an execution date is set and
30 days prior to the execution.
A. Briefing the Inmate
As soon as practical after establishment of
the execution date, the Warden at USP
Terre Haute or designee, will personally
brief the inmate regarding relevant aspects
of the execution process including
information contained in items C through F
of this section. A briefing sheet outlining
these aspects of the execution will be given
to the inmate. If requested, a copy of the
briefing sheet will be given to a
representative identified by the inmate. In
addition, the Warden will ascertain the
inmate’s religious preference.
B. Inmate’s Choice of Witnesses

153a
When the inmate is informed by the
Warden of the execution date, he/she will
be advised that he/she may designate not
more than one spiritual adviser, two
defense attorneys, and three adult friends
or relatives (at least 18 years old) to be
present at the execution. The inmate will
be asked to submit the list of his/her
witnesses to the Warden no later than 30
days after notification of the date of the
scheduled execution.
C. Disposition
Accounts

of

Person

Property

and

The Warden will review the options
available
to
the
inmate
for
property/account distribution and will ask
the inmate to provide instructions, no later
than 14 days prior to the execution,
concerning the disposition of the personal
property and funds in any accounts
controlled or administered by the BOP. If
the inmate fails to provide instructions for
such disposition, the property/accounts will
be disposed on in accordance the
Accounting Management Manual and the
Receiving and Discharge Manual.
D. Organ Donation
The inmate’s body will not be used for
organ donation.
E. Disposition of Body

154a
The Warden will review options available
to the inmate following the release of the
body to the Vigo County Coroner. The
Warden will ask the inmate to provide
instructions concerning disposition of
his/her body no later 14 days prior to the
execution. If the inmate fails to provide
instructions, the body will be handled in
accordance
with
the
Accounting
Management Manual.
F. Designation of Persons Required to Assist
with the Execution
1. Those persons necessary to carry out
the execution will be identified.
a. The Warden, with the assistance of
the Director, USMS, and the
Director, BOP, will be responsible
for
identifying,
selecting
and
obtaining the services of the
individuals administering the lethal
injection.
b. The Warden, in conjunction with the
Regional Director, is responsible for
selection of the local staff involved in
perimeter security, transportation,
and command post operations, as
well as crowd control, support
functions and access screening.
2. All individuals identified for placement
in vital or important positions and
identified alternates, will be attired in a

155a
uniform as determined by the presiding
Regional Director.
3. No officer or employee of the
Department of Justice will be required
to be in attendance at or participate in
any execution if such attendance or
participation is contrary to the moral or
religious convictions of the officer or
employee. Staff participation in the
execution process must be on a
voluntary basis.
G. Other Approved Witnesses
1. In addition to the United States
Marshal designated by the Director of
the USMS (hereafter called the
“Designated United Sates Marshal”)
and the Warden, the following persons
will be present at the execution.
a. Necessary personnel selected by the
Designated United States Marshal
and the Warden.
b. Those attorneys of the Department
of Justice whom the Deputy
Attorney General determines are
necessary.
c. Not more than the following
members of persons selected by the
Warden:
(1) Up
to
eight
citizens
(in
identifying these individuals, the
Warden, no later than 30 days

156a
after the setting of an execution
date, will ask the United States
Attorney for the jurisdiction in
which the inmate was prosecuted
to recommend up to eight
individuals who are victims or
victim family members to be
witnesses of the execution); and
(2) Ten representatives of the press.
2. No other person will be present at the
execution unless such person’s presence
is granted by the Director of the BOP.
No person younger than 18 years of age
will witness the execution.
3. The Warden will notify all witnesses of
the date, time and place of the execution
as soon as practicable before the
designated time of execution.
H. Contact with the Vigo County Coroner
1. The Warden will contact the Vigo
County Coroner to coordinate the
Coroner’s role.
2. The Vigo County Coroner will be
requested
to
provide
direction
concerning:
a. Transfer of custody of the body of the
executed
individual
from
the
Warden to the Vigo County Coroner;

157a
b. Transportation of the body from the
Execution Room to the Vigo County
Coroner’s facility; and
I. Briefing of Institution Staff
1. It is necessary to modify prison
operations and communicate with local
staff throughout the execution process.
2. Local prison administrators should be
briefed by the Warden, as appropriate,
on plans for the execution, restrictions
on access, crowd control, additional
security procedures, etc., on an on-going
basis.
3. As soon as plans begin to evolve which
will affect general prison operations,
briefings should begin and continue
until operations return to normal.
IV.

Period of Time Between Twenty-Nine to
Fourteen Days Prior to the Execution
A. Witnesses
1. To the extent possible, the Warden will
develop a final list of citizen and
inmate’s witnesses.
2. All witnesses/participants will be
required to sign an agreement prior to
being cleared and added to the witness
list. Included in the document will be an
agreement to be searched before
entering the Execution Facility and not
to photograph or make any other visual

158a
or audio recording of the execution (see
Appendix A.).
B. Qualified Person
The Warden will finalize arrangements for
a qualified person to be present at the
execution and to declare the executed
individual deceased.
C. Inmate’s Property and Account
The Warden will finalize arrangements for
disposition of the inmate’s property and
accounts no later than 14 days prior to the
scheduled execution date.
D. Disposition of Body
The Warden will finalize arrangements
with the Vigo County Coroner for
disposition of the body, security for the
Vigo County Coroner’s vehicle, and transfer
of custody of the body in accordance with
appropriate state and local laws.
E Selection of Executioner (s)
The Warden, with the assistance of the
Regional Director, Director and USMS will
finalize the selection of executioner(s) and
their alternates.
F. Training
The Regional Director will ensure that
appropriate training Sessions are held for
persons involved in the various aspects of
the execution event.

159a
V.

Period of Time Between Thirteen to Seven
Days Prior to the Execution
A. Inmate’s Property and Accounts
All paperwork regarding disposition of
property and accounts should be completed.
B. Food Services
At least seven days prior to execution, the
Warden or designee will contact the inmate
to arrange for his/her last meal.
C. Purchase of Substances to be Used in
Lethal Injection
The Bureau of Prisons will ensure the
purchase of lethal substances to be used in
the execution. Once purchased, the lethal
substance or substances will be secured in
the institution until called for by the
Regional Director.
D. Law Enforcement Coordination
1. The Warden will meet with federal,
state, and local law enforcement
personnel to coordinate support related
to the execution.
2. Joint practices should be conducted
between law enforcement staff involved
to ensure coordination and interaction
is well defined and understood.
E. Restrictions on Inmate’s Visitors
Beginning seven days prior to the
designated date of execution, the inmate

160a
will have access only to his/her spiritual
advisers (not to exceed two), his/her
defense attorneys, members of his/her
family, and designated officers and
employees of the BOP. Upon approval of
the Director of the BOP, the Warden may
grant access to such other proper persons
as the inmate may request.
VI.

Period of Time Between Six to Three Days
Prior to the Execution
A. Witnesses
Non-media witness agreements should be
signed by the witnesses and reviewed by
the Regional Director.
1. The Warden will provide a final list of
witnesses to the:
a. Director, Bureau of Prisons
b. Assistant
Director,
Programs Division;

Correctional

c. Assistant Director, Information,
Policy, and Public Affairs Division;
d. Assistant Director, Office of General
Counsel
e. Director, USMS; and
f. Designated United States Marshal
g. United States Attorney’s Office –
district of conviction

161a
h. United States Attorney’s
Southern District of Indiana

Office-

2. Persons who refuse to sign agreements
will not be allowed to attend the
execution.
B. Brief Affected Law Enforcement Agencies
The Warden will ensure that staff from
other law enforcement agencies who have
not participated in practice session or have
not otherwise been briefed previously will
be briefed and their responsibilities
explained.
C. Inmate’s Property and Accounts
Verify arrangements are complete.
D. Executioner(s)
An individual designated by the Warden
will:
1. Review
with
executioner(s)
and
alternates arrangements for their
transportation and escort to the
Execution Facility; and
2. Review with participants’ arrangements
for security of executioner(s) and
protection of their identities.
E. Equipment Check/Inventory
All equipment necessary to conduct the
execution will be inventoried and checked
at least 72 hours prior to the execution by

162a
individuals designated by the Regional
Director.
VII.

Period of Time Between Two Days to One Day
Prior to the Execution
[REDACTED]
B. Practices
Final practices will be conducted
directed by the Regional Director.

as

C. Equipment Checks
Maintenance staff should verify necessary
installation
of
and
test
electrical,
heating/air conditioning, backup generator
and communications equipment in:
1. BOP Execution Facility;
2. Command Center.
D. Regional Director and/or Warden Contacts
1. To ensure that coordination efforts are
in place, the following entities and
specifically identified individuals will be
contacted by the Regional Director
and/or the Warden:
a. Department of Justice Command
Center (to ensure communications, if
required, by the Attorney General,
the Supreme Court, the President of
the United States and the affected
United States Attorneys Offices);
b. BOP Director’s Office;

163a
c. USMS Director’s Office; and
d. Affected law enforcement agencies.
E. Equipment Check
Regional Director

Verification

by

the

1. The Regional Director will ensure
completion of pre-execution inventory
and equipment check in the BOP
Execution Facility.
2. The Regional Director will verify that
the Execution Facility’s equipment
checks have been completed.
CHAPTER 2: EXECUTION CHECKLIST
I.

General Provisions
A. Purpose of Chapter
1. This chapter provides a checklist of
procedures and events that should occur
during the final 24 hours prior to the
execution.
B. Procedure
The execution will be carried out in a
manner consistent with Title 28, Code of
Federal Regulations, Part 26.

II.

Period of Time Within Twenty-Four Hours
Prior to the Execution
[REDACTED]
B. Inmate Communication

164a
1. Excluding calls to the inmate’s
attorney(s)
of
record
and
calls
specifically approved by the Warden,
the inmate’s telephone privileges will be
terminated 24 hours prior to the
execution.
2. The inmate’s attorney(s) of record,
spiritual adviser(s), or other persons
approved by the Director of the BOP,
will be given visiting privileges during
the final 24 hours as determined by the
Warden. Visiting privileges will be
suspended when preparations for the
execution require suspension.
C. Food Service
The Warden will contact the inmate to
finalize arrangements for his/her final meal
and ensure that it is properly prepared and
served by staff.
D. Maintenance Response Team
Beginning eight hours prior to an
execution, the Facility Manager or other
appropriate individual will ensure that a
Maintenance Response Team is available
to provide necessary maintenance and
repair of systems at the Execution Facility
or in other areas of the institution.
E. Access to the Execution Facility
[REDACTED]

165a
II.

Period of Time Between Twelve to Three
Hours Prior to the Execution
A. Final Briefing
[REDACTED]
2. A final briefing will be held, attended by
senior BOP and Marshals Service staff,
the
Regional
Director,
and
representatives deemed appropriate by
the Regional Director. The Regional
Director will conduct the meeting, with
the senior staff providing guidance and
policy decisions, as needed.
3. During the briefing, participants will:
a. Identify problems, develop solutions,
and specific time lines;
b. Provide status reports;
c. Coordinate
support
involvement; and

services

d. Conduct a final review of procedures.
B. Food Service
The inmate will be served a final meal at a
time determined by the Warden.
C. Visits
Visits
by
attorneys,
religious
representatives,
and
other
persons
approved by the Director of the BOP, will
be at the discretion of the Warden.

166a
D. Restricting Access to Prison Property
1. At the discretion of the Warden, during
the final 12 hours prior to the execution,
access to prison property will be limited
to:
a. On-duty staff;
b. On-duty contract workers;
c. Volunteers deemed necessary by the
Warden;
d. Approved delivery vehicles;
e. Law enforcement personnel
business-related matters;

on

f. Routine inmate visitors; and
g. Other persons
Warden.

approved

by

the

2. During the final eight hours:
a. All off-duty Department of Justice
personnel will be required to leave
institution property;
[REDACTED]
E. Establishment of Command Center
[REDACTED]
IV.

Period of Time Between Three Hours to Thirty
Minutes Prior to the Execution
A. Pre-Execution Procedures

167a
1. The Regional Director will ensure that
all countdown procedures for required
activities and actions are progressing.
2. Immediate action to complete any
unfinished required procedures will be
initiated.
3. The Warden will designate a recorder
who will begin logging execution
activities in the official execution log
commencing three hours prior to the
scheduled execution. The log will
reflect, at a minimum, the time each of
the following events occurs:
a. Inmate removed
Holding Cell;

from

Inmate

b. Inmate strapped to gurney;
c. Arrival of
witnesses;
d. Arrival of
witnesses;

government/community
inmate’s

authorized

e. Arrival of media witnesses;
f. Opening of drapes;
g. Last statement by inmate;
h. Reading of statement conveying
inmate’s sentence of death;
i. Upon Designated United States
Marshal’s approval, the execution
process begins;

168a
j. Signal by Executioner(s) that lethal
substances have been administered;
k. Determination of inmate’s death by
designated qualified person;
I. Announcement of death of inmate;
m. Closing of drapes;
n. Notification of outside media and
demonstrators of inmate’s death;
o. Removal and transportation
media witnesses to media center;
p. Removal of
witnesses;

inmate’s

of

authorized

q. Removal of government/community
witnesses;
r. Restraint
Team/Vigo
County
Coroner enter Execution Room to
remove body;
s. Removal of body to Vigo County
Coroner’s vehicle;
t. Performance of
cleaning chores;

any

u. Directive by Warden
Execution Facility.

necessary
to

secure

B. Execution Room Staff Assemble
1. The Executioner(s) will be escorted into
the Execution Facility and will

169a
inventory supplies and ensure that
everything is ready.
[REDACTED]
3. All other Execution Room staff will be
assembled on-site for final instructions
at least forty five minutes prior to the
scheduled execution.
C. Contact with the Department of Justice
Command Center
[REDACTED]
V.

The Final Thirty Minutes Prior to the
Execution
A. Final Sequence of Events: Preparation
1. Bringing the Inmate to the Execution
Room
At the appropriate time, the inmate will
be:
a. Removed from the Inmate Holding
Cell by the Restraint Team;
b. Strip-searched
Team
and
appropriately;

by

the
then

Restraint
dressed

c. Secured with restraints;
d. Escorted to the Execution Room by
the Restraint Team.
2. Restraint
Team
Preparation

Procedures

And

170a
a. In the Execution Room the
ambulatory
restraints
will
be
removed and the inmate will be
restrained to the Execution Table.
b. The inmate will then be assessed
and prepared for execution by
qualified medical personnel.
3. Admit Witnesses
a. Subsequent to appropriate search
procedures,
witnesses
will
be
admitted to the witness rooms.
b. The
government/community
witnesses will then enter and will be
escorted to their assigned area. The
escorts will remain with the
witnesses.
c. The authorized witnesses invited by
the inmate individual will be
admitted and escorted to their
assigned area.
1. If any of the inmate’s invited
witnesses wish to be on-site, but
not
actually
witness
the
execution, accommodations will
be made for them by the Warden.
2. Escorts will remain with the
inmate’s witnesses. There will be
a minimum of two escorts for
each witness group.

171a
d. The last witnesses to be admitted
will
be
the
news
media
representatives. The members of the
news media selected to witness the
execution will be escorted to their
assigned area. Escorts will remain
with the news media witnesses and
ensure their separation from the
other witnesses while at the
Execution Facility. Media witnesses
will not be permitted to interview or
question staff or other witnesses
while at the Execution Facility.
VI.

Final Sequence of Events: Execution
A. Staff Witnesses
1. Staff participating in the preparation
for the execution will exit the Execution
Room but stand by in an adjacent area.
2. Staff members participating in and/or
observing the execution will include the:
a. Designated United States Marshal;
b. Senior BOP Official;
c. Executioner(s);
d. Other staff authorized
Director of the BOP.

by

the

B. Countdown
1. Upon the direction of the Senior BOP
Official, staff inside the Execution Room

172a
will open the drapes covering the
windows of the witness rooms.
2. The inmate will be asked if he/she has
any last words or wishes to make a
statement. The inmate will have been
advised in advance that this statement
should be reasonably brief.
3. At the conclusion of the remarks, or
when a determination is made to
proceed, the documentation deemed
necessary to the execution process will
be read. Once the Designated United
States
Marshal
makes
a
final
determination that the execution is to
proceed, the executioner(s) will be
directed to administer the lethal
injection.
4. If the execution is ordered delayed
[REDACTED] the Designated United
State Marshal will notify the Senior
BOP Official who will in turn instruct
the Executioner(s) to step away from
the execution equipment and will notify
the inmate and all present that the
execution has been stayed or delayed.
C. Determination of Death
1. After the lethal injection has been
administered:
a. The inmate will be monitored until
apparent signs of life have ceased;

173a
b. The time of death will be announced
prior to the drapes being closed.
2. The Designated United States Marshal
will complete and sign the Return
described in 28 C.F.R. § 26.2(b) and will
file such document with the sentencing
court.

174a
CHAPTER 3: POST-EXECUTION CHECKLIST
I.

General Provisions
A. Purposes of Chapter
The purpose of this chapter is to:
1. Provide the procedures to be followed
after the execution of the inmate;
2. Identify the responsibilities for tasks to
be completed; and
3. Provide for the transfer of the body of
the inmate from the custody of the BOP.
B. Procedure
It is the procedure of the BOP that:
1. The inmate will be examined by a
specified qualified person following the
administration of the lethal substances
to ensure that death has occurred;
2. When the qualified individual is
satisfied that death has occurred, the
time of death will be announced to the
witnesses;
3. The witnesses to the execution will then
be removed from the Execution Facility
and returned to their individual staging
areas so that they may leave the
institution. News media witnesses will
be removed to a secondary press
location where they will participate in a
press briefing;

175a
4. The body of the inmate will be
surrendered to the Vigo County
Coroner;
5. After removal of the body, the site will
be cleaned and restored to its previous
condition.
II.

Removing
Facility

Witnesses

from

the

Execution

A. After the pronouncement of death, the
witnesses will be escorted from the facility
in the following order:
1. News media witnesses;
2. Inmate’s authorized witnesses; and
3. Government/community witnesses.
B. Each group of witnesses will be kept
separate from the others and escorted to
waiting vehicles to be driven to separate
designated sites.
III. Removal of the Body of the Inmate
A. After the witnesses have departed, the
restraints will be removed from the
inmate’s body.
B. The Vigo County Coroner or designee will
be escorted into the Execution Facility. The
body will be removed by the Vigo County
Coroner, who will place it in a coroner’s
vehicle for transportation.
IV. Site Clean-Up

176a
A. Under the supervision of an individual
designated by the Warden, staff will clean
and secure the Execution Facility.
B. The Execution Facility will be locked and
secured when the Warden is satisfied that
clean-up has been completed.
V.

Returning to Routine Operations
A. Following the execution, Department of
Justice and BOP staff involved in the
execution
will
be
deactivated,
as
appropriate, under direction of the DOJ,
BOP and USMS staff on-site.
B. The
designated
public
affairs
representative will determine when to
secure the media assembly site after the
news conference is complete.
C. The Warden will bring the institution
security back to routine operations as
he/she sees fit.

177a
CHAPTER 4: Command Center
I.

General Provisions
A. Purpose of Chapter
The purpose of this chapter is to:
1. Identify the role and function of the
Command Center;
2. Specify the individuals authorized to
staff the Command Center; and
3. Provide an inventory of the minimum
resources required in the Command
Center.
B. Procedure
It is the procedure of the BOP that:
1. The Bureau operate a local, emergency
Command Center during the execution
operation to:
a. Coordinate security, transportation,
crowd control, access and other
processes;
b. Provide policy and procedural
advice, as needed, or upon request;
c. Coordinate inter-agency functions;
and
d. Serve as an information processing
and operations information center
for the execution.
[REDACTED]

178a
II.

Location, Role and Function
A. The Command Center will be operational
prior to the scheduled execution and
maintained for the duration of the
execution operation.
B. The roles and functions of the Command
Center include:
1. Coordinating the various personnel,
components and elements of the
execution operation;
[REDACTED]

III.

Command Center Staffing
A. Command Center staff should include the
following positions:
[REDACTED]
B. Access to the Command Center will be
limited to persons specifically authorized
by the Command Center Director or
Warden.
[REDACTED]

179a
CHAPTER 5: CONTINGENCY PLANNING
I.

General Provisions
A. Purpose of Chapter
The purpose of this chapter is to:
1. Aid in the development of a
predetermined contingency plan to
assist staff in the management of the
execution event and in responding to
related emergency situations;
2. Identify the role and function of staff
needed to formulate and activate the
plan, if needed; and
3. Identify specific areas to stage staff and
equipment. The location of witness
processing will be pre-determined by
the Warden on a case-by-case basis.
B. Procedure
It is the procedure of the BOP to:
1. Prepare and test contingency plans;
2. Identify all security measures needed to
protect staff and inmates of an
institution as well as BOP property; and
3. Coordinate all resources to ensure the
safety of the public, staff, and inmates.

II.

Specific Procedures
A. An individual identified by the Warden will
prepare contingency plans related to an

180a
emergency occasioned by the execution,
such as an institution disturbance, hostage
taking, outside demonstration, outside
assault on the facility, etc. All plans will be
reviewed and approved by the Warden and
the Regional Director.
B. Plans will include provisions for:
[REDACTED]
C. Intelligence Operations
[REDACTED]
D. Staging Areas
[REDACTED]
E. Tactical Deployment
[REDACTED]
III.

Execution Witness Management
[REDACTED]

181a
4. While all witnesses to the execution are
subject to search, no pat or visual
search of any witnesses will be
conducted unless the Warden has
reasonable suspicion to believe the
witness is concealing any weapons,
drugs, audio or visual recording devises,
or any other item not expressly
authorized and the witness agrees to be
searched. If the witness refuses to be
searched, he/she will not be permitted
to serve as a witness.
5. Staff at each staging area will notify the
Command Center when all execution
witnesses are accounted for and
processed.
6. Escorts will remain at their assigned
staging area until the Command Center
directs them to transport the witnesses
to the Execution Facility.
B. Transportation to the Execution Facility
[REDACTED]
3. Escorts will ensure that witness groups
do not come into contact with each
other.
4. Escorts will transport witnesses to the
Execution Facility and notify the
Command Center when each group of
witnesses is secured in the assigned
observation area.

182a
5. Once each group is secured, the next
group will be moved as directed by the
Command Center.
6. The Command Center will be notified
by the appropriate staff member when
all groups are in place.
7. The Command Center, in turn, will
notify the Warden or designee.
C. Transportation from the Facility
[REDACTED]
2. The groups will be returned to the
staging areas by the escorts, who will
ensure that no group comes in contact
with another group.
3. Escorts will notify the Command Center
as each group returns to the staging
area.
4. The Command Center will direct each
move to expedite departures and also to
prevent groups from encountering one
another in the parking lot.
5. Media witnesses will be returned to the
Media Center to have a press pool
briefing as outlined in Chapter 6.
IV.

Reservation Security Plan
[REDACTED]
3. BOP staff will be available and will
accompany execution witnesses.

183a
[REDACTED]
CHAPTER 6: NEWS MEDIA PROCEDURES
I.

General Provisions
A. Purpose of Chapter
This chapter describes the procedures and
requirement for allowing representatives of
the news media access to an inmate
sentenced to death, as well as procedures
for news media access to the execution.
This chapter also provides procedures for
releasing information relating to the
execution.
B. Procedure
The BOP recognizes the desirability of
establishing procedures which afford the
public information about its operations
through the news media. In accordance
with established policy, reasonable efforts
will
be
made
to
accommodate
representatives of the news media before,
during, and after a scheduled execution.
Media representatives will be treated in a
fair and consistent manner in accordance
with current policies and procedures of the
BOP. The agency has the responsibility,
however, to ensure the orderly and safe
operation of its institutions, and therefore
must regulate media access.
C. Roles

184a
1. Representatives of the news media are
those individuals described in Program
Statement
1480.05,
News
Media
Contacts, whose principal employment
is to gather and report news.
2. The Regional Director will designate a
specific staff member as the official
representative to the news media
regarding death penalty issues and the
scheduled execution.
3. The
BOP
Assistant
Director,
Information, Policy and Public Affairs
Division, will coordinate the release of
information to the news media and
assist the Regional Director in the
selection of individual news media
witnesses. The Department of Justice
Office of Public Affairs will be kept
informed of these matters.
II.

Inmate Interviews
A. Purpose
As stated in Program Statement 1480.05,
News Media Contacts, it is not the BOP’s
intent to provide publicity for an inmate or
special privileges for the news media, but
rather to ensure a better informed public.
B. Limits
With this in mind, representatives of the
news media may be permitted to conduct
interviews with inmates. Guidelines
regarding the frequency and length of

185a
interviews, as well as accompanying
security, will reflect BOP/institution policy
and will be established by the Warden, who
will take into account the available
resources.
C. Prohibition
Ordinarily, no media interviews will be
permitted with the inmate once the
execution date is within seven days.
III.

Media Orientation
A. Definition
Ordinarily one day before a confirmed
execution date, the institution will hold a
Media Orientation to provide media
representatives with information on the
scheduled execution. No other press
conference or Media Orientation regarding
the execution will be scheduled or held
until after the scheduled execution, except
as provided below in subsection B. Every
effort will be made by the Warden’s
representative to notify local, state and
national media representatives of the
scheduled Media Orientation. Central
Office Public Affairs staff will provide
assistance in this area.
1. All
persons,
including
media
representatives, must have appropriate
identification to enter the institution on
any occasion. Media representatives
must
have
appropriate
press

186a
credentials. This requirement includes
camerapersons, sound technicians, and
reporters.
2. All individuals will be advised that they
are subject to search of their person and
equipment prior to entering and prior to
leaving a BOP facility.
B. Updates Prior to the Execution
Following activation of the Media Center,
the Warden’s representative will provide
the news media with regular briefings or
updates of the execution process.
1. No later than eight hours prior to the
scheduled execution, a Media Center
will be activated. Telephone lines,
tables, risers for cameras and outlets for
electrical equipment and cameras will
be available. Restroom facilities will
also be provided.
2. A BOP representative will be present in
the Media Center to provide regular
announcements.
C. Media Orientation Releases
During the Media Orientation, the
following information will be made
available to members of the media:
1. General information regarding the
scheduled execution and about the
individual scheduled for execution.

187a
2. Specific
information
regarding
procedures to be followed by the media
on the date of the scheduled execution.
3. Media representatives will be reminded
that there are obvious security concerns
about aircraft flying over federal
correctional facilities and therefore,
their assistance and cooperation in this
matter is expected.
4. Media representatives will be informed
of how the press pool will be established
(see paragraph IV D 2) and advised that
if they are selected as press pool
witnesses to the execution, they will
agree prior to the execution to:
a. Sign the document designated as the
Media
Witness
Press
Pool
Agreement (see Media Witness Press
Pool Agreement, Appendix B);
b. Be subject to search which includes
metal detection scanning;
c. Not make any photographic, visual
or audio recordings of the execution
(each media witness will be provided
only paper and a pencil or pen while
in the execution witness area); and
d. Return to the Media Center after the
execution to answer questions of all
other media represented concerning
their
observations during
the
execution.

188a
5. After the BOP representative, media
pool
witnesses
and
appropriate
Department of Justice staff, if available,
have addressed the media in the Media
Center, the press briefing will be
terminated and all media personnel will
leave the Media Center.
IV.

Media Center Operations
A. Requesting Authorization
1. After an execution date is set by the
Court/Director of the BOP, and no
sooner than twenty days prior to the
scheduled execution, news media
representatives will be advised, in
writing, by the BOP’s representative
that they may request, in writing,
authorization to participate in the
institution’s Media Center activity in
the hours preceding the scheduled
execution (see Sample Letter to Media,
Appendix C).
The request, which must be in writing,
should be received by the Warden no
later than ten days prior to the
execution. Requests must include
names, social security numbers, and
dates of birth for each representative of
a media organization and his/her
support staff. Only those media
organizations
submitting
written
requests, within the stated time frame,

189a
will be considered for participation in
Media Center activities.
2. Requests for consideration may be
granted by the Warden, provided they
demonstrate
that
the
requesting
individual falls within the definition of
“member of the press and broadcast
media” set forth in BOP Program
Statement
1480.05,
News
Media
Contacts.
B. Possible Limitations
The number of media representatives may
be limited by the Regional Director due to
space and safety considerations, but care
will be taken to include representatives
from both the print and broadcast media.
C. Briefing Packets and Updates
1. Packets
Following activation of the Media
Center, the Warden’s representative
will provide press briefing packets for
reporters in the Media Center. The
contents of the press briefing packet
will include, but not limited to,
releasable information on the inmate,
pool reporters (once selected), the
sequence of events, and the history of
federal executions.
2. Updates

190a
Written updates generally will be
distributed to the press on a regular
basis following activation of the Media
Center. Updates will include:
a. A summary of activities related to
the execution and sequence of
events; and
b. A summary, cleared by the Warden,
of the inmate’s activities during
his/her final twenty-four hours.
D. News Media Witness Selection
1. Number in Attendance
The Warden will permit no more than
10 members of the media to witness the
execution. The number of additional
media representatives authorized to
remain in the Media Center of the day
of the execution may be limited due to
space and safety concerns.
2. Pool Selection Process
a. Press pool members will be selected
by their peers at least three hours
prior to the scheduled execution.
Representatives from each of the
following
categories
must
be
included:
(1) One local media source (located
within the city or town of the
institution);

191a
(2) Three television news programs
of a station or network holding an
FCC license (at least two being
national broadcast stations);
(3) Two media sources from the area
where the crime was committed;
(4) One wire service;
(5) One radio station; and
(6) Two print media organizations.
b. Press pool witnesses will be selected
from qualified media representatives
who have been admitted into the
institution’s Media Center and who
have provided staff with proper
identification. A list of media
representatives will be compiled by
the BOP’s representative and
furnished to the media for their
review in the selection process.
3. Signed Agreement
Media selected as press pool witnesses
will then be required to agree to:
a. Act as a pool representative as
described further in this chapter;
and
b. Abide by all established conditions,
rules, and regulations while in
attendance at the execution; to
include allowing a metal detector
scan of their person.

192a
4. Supplemental Representatives
In the event the media are unable to
identify witnesses in each of the above
described
categories,
the
BOP’s
designated representative may name
other qualifying media representatives
to attend, with a maximum of 10 being
named.
E. Media Witnesses to the Execution
1. Search Process
Each media pool witness attending the
execution will be scanned by a metal
detector prior to admittance to the
Execution Facility.
a. While all witnesses to the execution
may be subject to search, no pat or
visual search of any media pool
witness will be conducted unless the
Warden has reasonable suspicion to
believe the media representative is
concealing weapons, drugs, audio or
visual recording devices, or any
other items not expressly authorized
and the media representative agrees
to be searched. If the representative
refuses to be searched, he/she will
not be permitted to serve as a media
witness.
1. Electronic
or
mechanical
recording devices include, but are
not limited to, still, moving

193a
picture or video tape cameras,
tape recorders or similar devices,
and radio/television broadcasting
devices.
2. The representative will only be
permitted paper and a pencil or
pen as provided by institution
staff.
2. Witness Briefing
The 10 selected members of the news
media will be required to sign both the
witness agreement (Appendix A) and
the
Media
Witness
Press
Pool
Agreement (Appendix B). They must
also attend the pre-execution briefing at
the Media Center. This briefing,
conducted by a representative of the
Warden,
will
provide
specific
information
on
the
event
and
expectations regarding their conduct.
This will include:
a. Review of approved materials that
can be taken to the Execution Room;
b. Search procedures;
c. Escort procedures; and
d. The role of pool reporters.
3. Prohibition of Substitutes
No substitute media pool witness will be
permitted after this briefing is
conducted.

194a
4. Segregation after the Search
After clearing the metal detector, all
witnesses will be segregated and
escorted to the Execution Facility.
Media witnesses will not be permitted
to have physical contact with any other
persons during this time.
5. Excluding Witnesses
The Warden will not exclude any media
witness duly selected in accordance
with this chapter from attendance at
the execution or cause a selected media
witness to be removed from the media
pool witness area unless the media
witness:
a. Refuses to submit to a reasonable
search as outlined in these
regulations;
b. Faints, becomes ill, or requests to be
allowed to leave during the
execution;
c. Causes a disturbance within the
media pool witness area that
disrupts the orderly progress of the
execution as determined by the
Warden’s representative on site; or
d. Fails to abide by the provisions of
the Witness Agreement.
6. The Execution Process

195a
The selected media pool witnesses will
be escorted as a group to the execution
location prior to the execution. A
designated BOP Spokesperson will
remain with the media pool witnesses
throughout the process.
F. Death Announcement
Immediately following the execution and
prior to the post-execution press pool
briefing, a BOP representative will read
the following prepared statement to the
press and demonstrators:
SAMPLE STATEMENT
(To be read at post execution press briefing and to
any assembled members of the public.)
_____________, Warden of _____________, reports that
pursuant to the sentence of the United States
District Court in _____________, _______________,
(Inmate’s Name)
has been executed by lethal injection.
_______________, was pronounced dead at
(Inmate’s Name)
_____________, on _____________,
(Time)
(Date)
G. Press Pool Post-Execution Briefing
All news media press pool witnesses will,
after being returned from the execution to
the Media Center, immediately brief other
media representatives covering the event.

196a
The pool witnesses will provide an account
of the execution and will endeavor to
answer all questions asked of them by
other media representatives. They will not
report their observations regarding the
execution to their respective news
organizations until after the non-witness
media representatives have had the benefit
of the pool representatives’ accounts of the
execution.
H. Post Execution Press Conference
If deemed necessary and appropriate,
representatives of the Department of
Justice, USMS, and BOP will answer
questions from the assembled media for no
more than 30 minutes after the press
briefing.
V.

The Execution Information Center
A. Responsibility
The BOP’s representative will establish
and operate an Execution Information
Center.
B. Purpose
The Execution Information Center:
1. Is a central processing point for all
incoming media and public interest
telephone calls pertaining to the
scheduled execution;
2. Allows the institution’s staff to handle
normal and routine business;

197a
3. Handles “crank” calls and bomb threats
in accordance with BOP policy; and
4. Establishes a log of calls for future
reference, investigation and evaluation.
C. Location
1. The Execution Information Center will
be located in an area identified by the
Warden.
2. Only persons authorized by the
Regional Director and/or Warden will be
allowed in the Center’s operational
area. Center staff are responsible for
keeping the area clear of unauthorized
personnel.
D. Schedule
1. The Execution Information Center will
commence operations approximately
two working days prior to the scheduled
execution. The Information Center will
operate twelve hours a day on the days
prior to the scheduled execution and for
the
eighteen
hours
immediately
preceding the scheduled execution. The
Center will remain in operation until
approximately one hour after the
execution.
2. The BOP’s representative will arrange
coverage of telephones, based on the
volume of calls.

198a
3. Staff for the Execution Information
Center will be coordinated by the BOP’s
representative.
E. Screening Calls
1. Types of Calls
a. Business Calls
Calls from BOP staff or other
Federal agencies relating to the
execution; or from BOP staff relating
to operational issues affected by the
execution which may need to be
forwarded to the Command Center.
b. Personal Calls
Calls intended for individuals (staff
or witnesses) connected with the
execution.
c. Inquiry Calls
Execution-related
general public.

calls

from

the

1. Staff will endeavor to answer
every call in a professional,
courteous and efficient manner.
2. If bomb threats are received, the
staff member receiving the call
will
utilize
established
procedures. Bomb threats will be
communicated to the Command
Center immediately.

199a
3. If possible, all “crank” calls and
calls considered to be an
emergency, should be recorded
and traced.
CHAPTER 7: STAYS,
OTHER DELAYS
I.

COMMUTATIONS

AND

General Provisions
A. Purpose of Chapter
The purpose of this chapter is to:
1. Cite the entities capable of causing
execution stays, commutations, and
other delays;
2. Specify the manner of communicating
such delays/commutations; and
3. Provide
the
procedures
for
implementing the delay/commutation.
B. Procedure
It is the procedure of the BOP that:
1. Processes must be in place to receive
and ensure proper handling of legal
interruptions
of
the
execution
countdown;
2. Staff understand their roles and the
BOP’s responsibilities in the event of
such interruptions; and
3. Contingency plans provide methods for
responding to:

200a
a. Temporary delays;
b. Lengthy delays; and
c. Commutations.
II.

Presidential and Judicial
Interrupt Execution

Authority

to

A. President
1. The United States Constitution confers
upon the President the power to grant
reprieves and pardons for offenses
against the United States. This has
been held to include the power to grant
conditional pardons and commute
sentences.
2. Neither
Congress
nor
a
State
legislature can limit the President’s
power to pardon.
B. Courts
A federal court of competent jurisdiction
may issue a stay of execution or invalidate
a sentence of death as a result of appellate
or collateral proceedings.
III.

Communication
of
Commutations or Delays

Pardons,

Stays,

A. Prior to Final Execution Countdown
If the BOP receives an order from a federal
court of competent jurisdiction or the
President ordering a respite, reprieve, stay,
commutation, pardon or other action which

201a
requires the suspension or termination of
the execution:
1. The Attorney General’s Office will be
contacted for consultation; and
2. A decision will be made by the Director
of the BOP concerning the status of
planning and preparation for the
execution.
B. During Final Execution Countdown
1. During the final twenty-four hours, the
BOP and the USMS will maintain
frequent contact with the Attorney
General’s Office [REDACTED]
[REDACTED]
C. Final Clearance for Execution
At an appropriate time prior to the
execution [REDACTED] the Designated
United States Marshal will verify clearance
to
continue
with
the
execution
[REDACTED]
IV.

Procedures to Implement Last-Minute Stays
A. Upon receiving a stay during the final
countdown, the first effort will be to
determine the probable length of the delay.
B. If the witnesses have not been moved from
their staging areas, they will be held in
those locations until further instructions
are received from the Senior BOP staff to
proceed with or terminate the execution.

202a
C. If witnesses are already at the Execution
Facility and the inmate is restrained:
1. If the delay appears to be relatively
lengthy, the inmate will be returned to
the Holding Cell by the Restraint Team.
The witnesses will be returned to their
staging areas in the order listed. There
they will await further information.
2. If the delay is likely to be relatively
short in duration, the witnesses will
remain in place. The drapes will be
closed and the inmate will remain
restrained on the table.
3. If the execution is indefinitely stayed,
set for re-sentencing, commuted, or
halted by pardon, the execution will be
halted, and the inmate and witnesses
will be immediately advised. Witnesses
will be returned to their staging areas
and the inmate returned to appropriate
quarters in the institution.

203a
DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISONS
BOP EXECUTION PROTOCOL
_________
SERVICE – LIMITED OFFICIAL USE ONLY
_________
2019
_________
APPENDIX A
MEMORANDUM OF AGREEMENT
BETWEEN
FEDERAL BUREAU OF PRISONS AND WITNESS
_________
This agreement is made between the Federal
Bureau of Prisons and the following witness:
___________________________________________
In accordance with Title 28, Code of Federal
Regulations, Section 26.4, the Federal Bureau of
Prisons may allow you, as a witness, to be present at
the execution. However, your presence at the
execution is not a right and, in order to be entitled to
be present, you will be required to agree to the
following conditions:
1.

You will not bring onto institution grounds
anything constituting legal or illegal
contraband
under
applicable
statute,
regulation or policy, including, but not limited

204a
to, firearms, weapons, explosives, metal
cutting tools, narcotic drugs, alcoholic
beverages, or any item creating a threat to
institution safety, security, or good order;
2.

You agree to submit to a reasonable search for
contraband and other searches as considered
necessary by the Bureau of Prisons for entry
into the institution;

3.

You will conduct yourself in a lawful and
orderly manner;

4.

You will comply with all lawful directives of
correctional personnel while on institution
grounds;

5.

You will not bring onto institution grounds
any photographic or other visual or audio
recording device, to include cellular devices;
and

You have read, understand, and agree to the above.
By signing this agreement, you agree to comply with
its conditions and understand that failure to abide by
them will result in your removal from institution
grounds and could lead to prosecution for violation of
Federal laws.
________________________
(Witness)
________________________
(Agency Representative)

___________________
(Date)
___________________
(Date)

205a
DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISONS
BOP EXECUTION PROTOCOL
_________
SERVICE – LIMITED OFFICIAL USE ONLY
_________
2019
_________
APPENDIX B
MEDIA WITNESS PRESS POOL AGREEMENT
_________
In consideration of having been selected as an official
witness to the execution of __________on __________
I, __________ hereby agree to act as a pool reporter
and, not to interview non-media witnesses or
Department of Justice staff at the Execution Facility.
Following the execution, I agree to return
immediately to the Media Center to brief my
colleagues there regarding the execution and answer
their questions. I also agree to file my story only
after I have completed my responsibilities as a pool
reporter.
NAME:
(Signature)
ORGANIZATION:

DATE:

206a
__________________________
(BOP Staff Witness)

207a
DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISONS
BOP EXECUTION PROTOCOL
_________
SERVICE – LIMITED OFFICIAL USE ONLY
_________
2019
_________
APPENDIX C
SAMPLE LETTER TO MEDIA
(Re: Media Center Operations)
_________
In accordance with the provisions of 28 C.F.R., Part
26, Implementation of Death Sentences in Federal
Cases,
________________________is scheduled to be executed
(Inmate’s Name)
at _______________________ on ___________________.
(Institution)
(Date)
No later than eight hours preceding the scheduled
execution, a Media Center will be established at the
__________________________ in Terre Haute, Indiana,
(Location)
and telephones will be available. Should you desire
to cover the event from the Media Center, or if
selected, be a media pool witness, please submit your
written request to me, via fax or by mail, so that it is

208a
received
in
my
office
no
________________________________.
(Date 10 days prior to execution)

later

than

The request must include your name, the names of
all support staff (sound technician, cameraperson,
etc.) who may accompany you on this day. Social
security numbers and date of birth for all
participants, including yourself, must also be
furnished in your letter so that appropriate security
checks can be completed. You will be notified
promptly if we have any concerns with your request.
Space is limited and admittance to the Media Center
will have to be on a first-come, first-accommodated
basis.
Should you desire to be considered to be a media pool
witness to the execution, you will also be required to
sign agreements consenting to a search prior to
entering the execution facility, and agreeing to abide
by all relevant conditions, rules and regulations.
Should you participate, your name is subject to being
released to the media.
Please note that all media representatives will be
required to sign a log and show proper press
credentials in order to be admitted to the Media
Center.
Sincerely,
Name
Title

209a
U.S. DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISONS
_________
Office of the Director
Washington, D.C. 20534
_________
July 25, 2019
_________
MEMORANDUM FOR J. E. KRUEGER,
REGIONAL DIRECTOR
NORTH CENTRAL REGION
_________

FROM:

HUGH J. HURWITZ
Acting Director

SUBJECT:

Addendum to Execution Protocol

This memorandum is to advise that I hereby adopt
the attached Addendum to the Federal Execution
Protocol. Please coordinate as appropriate, including
incorporating the Addendum into the Federal
Execution Protocol.

Attachment

210a
U.S. DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF PRISONS
_________
ADDENDUM TO BOP EXECUTION PROTOCOL
FEDERAL DEATH SENTENCE
IMPLEMENTATION PROCEDURES
_________
EFFECTIVE JULY 25, 2019
_________
A. Federal death sentences are implemented by an
intravenous injection of a lethal substance or
substances in a quantity sufficient to cause death,
such substance or substances to be determined by
the Director, Federal Bureau of Prisons (BOP)
and to be administered by qualified personnel
selected by the Warden and acting at the
direction of the United States Marshal. 28 CFR
26.3. The procedures utilized by the BOP to
implement federal death sentences shall be as
follows unless modified at the discretion of the
Director or his/her designee, as necessary to (1)
comply with specific judicial orders; (2) based on
the recommendation of on-site medical personnel
utilizing their clinical judgment; or (3) as may be
required by other circumstances.
B. The identities of personnel considered for and/or
selected to perform death sentence related
functions, any documentation establishing their
qualifications and the identities of personnel
participating in federal judicial executions or
training for such judicial executions shall be

211a
protected from disclosure to the fullest extent
permitted by law.
C. The lethal substances to be utilized in federal
lethal injections shall be Pentobarbital Sodium.
D. Not less than fourteen (14) days prior to a
scheduled execution, the Director or designee, in
conjunction with the United States Marshal
Service, shall make a final selection of qualified
personnel to serve as the executioner(s) and their
alternates. See BOP Execution Protocol, Chap. 1,
§§ III (F) and IV (B) & (E). Qualified personnel
includes currently licensed physicians, nurses,
EMTs,
Paramedics,
Phlebotomists,
other
medically trained personnel, including those
trained in the United States Military having at
least one year professional experience and other
personnel with necessary training and experience
in a specific execution related function. Nonmedically licensed or certified qualified personnel
shall participate in a minimum of ten (10)
execution rehearsals a year and shall have
participated in at least two (2) execution
rehearsals prior to participating in an actual
execution. Any documentation establishing the
qualifications, including training, of such
personnel shall be maintained by the Director or
designee.
E. The Director or designee shall appoint a senior
level Bureau employee to assist the United States
Marshal in implementing the federal death
sentence. The Director or designee shall appoint
an additional senior level Bureau employee to

212a
supervise the activities of personnel preparing
and administering the lethal substances.
F. The lethal substances shall be prepared by
qualified personnel in the following manner
unless otherwise directed by the Director, or
designee, on the recommendation of medical
personnel. The lethal substances shall be placed
into three sets of numbered and labeled syringes.
One of the sets of syringes is used in the
implementation of the death sentence and two
sets are available as a backup.
G. Approximately thirty (30) minutes prior to the
scheduled implementation of the death sentence,
the condemned individual will be escorted into
the execution room. The condemned individual
will be restrained to the execution table. The
leads of a cardiac monitor will be attached by
qualified personnel. A suitable venous access line
or lines will be inserted and inspected by
qualified personnel and a slow rate flow of normal
saline solution begun.
H. Lethal substances shall be administered
intravenously. The Director or designee shall
determine the method of venous access (1) based
on the training and experience of personnel
establishing the intravenous access; (2) to comply
with specific orders of federal courts; or (3) based
upon a recommendation from qualified personnel.
A set of syringes will consist of:
Syringe #1 contains 2.5 grams of Pentobarbital
Sodium in 50 mL of diluent

213a
Syringe #2 contains 2.5 grams of Pentobarbital
Sodium in 50 mL of diluent
Syringe #3 contains 60 mL of saline flush,
Each syringe will be administered in the order set
forth above when directed by supervisory
personnel.
If peripheral venous access is utilized, two
separate lines shall be inserted in separate
locations and determined to be patent by qualified
personnel. A flow of saline shall be started in each
line and administered at a slow rate to keep the
line open. One line will be used to administer the
lethal substances and the second will be reserved
in the event of the failure of the first line. Any
failure of a venous access line shall be
immediately reported to the Director or designee.

